Table of Contents
Message from the Secretary of the Air Force………………………………………………………………………………........…ii
Message from the Principal Deputy Assistant Secretary of the Air Force (Financial Management and Comptroller)........…iii
Management Discussion and Analysis
        Air Force Heritage………………………………………...................................................…………………………………1
        Air Force in Action – 2007…………………………….................................................…………………………….………2
        Air Force Structure…………………………………………………………..……..........................................……………..5
        Air Force Smart Operations in the 21st Century – The Way Ahead………....................................……………………….10
        CFO Compliance………………………………………………………….........................…….………………………….10
Department of the Air Force General Fund
        Air Force Resources and Organizations…………………………………................................................………………….11
        Air Force Strategic Financial Management and Transformation………………..........................……..…………………..12
Air Force Working Capital Fund
        Supply Management Activity Group………………………………….......................................................................…….17
        Depot Maintenance Activity Group………………………………....................................…………….………………….19
Financing The Fight
Financial Statements
        General Fund
                 -Principal Statements…………………………...............................………………….………………………….25
                 -Notes to the Principal Statements…………………...........................………………………….……………….31
                 -Required Supplementary Stewardship Information……….....................…………………………………….…77
                 -Required Supplementary Information………………………........................................…………………….….85
                 -Audit Opinion…………………………………………….......................................……………………………97
        Working Capital Fund
                 -Principal Statements…………………………….....................……………….……………………………….105
                 -Notes to the Principal Statements…………………..............................................………………………….….111
                 -Required Supplementary Information………................................................................……………………….139
                 -Audit Opinion………………………....................................................................…………………….……….143




                                                                                                                                       i
       8QLWHG6WDWHV$LU)RUFH
      8QLWHG6WDWHV$LU)RUFH

                                       6(&5(7$5<2) 7+( $,5 )25&(
                                                  :$6+,1*721'&
                                     6(&5(7$5<2) 7+( $,5 )25&(
                                                 :$6+,1*721'&
                                                   1RYHPEHU

                                                 1RYHPEHU
                                                 0HVVDJHIURPWKH
                                              6HFUHWDU\RIWKH$LU)RUFH
                                                0HVVDJHIURPWKH
                                             6HFUHWDU\RIWKH$LU)RUFH
  ,DPSURXGWRUHSRUWWKDWLQ)LVFDO<HDUWKH$LUPHQRIWKH8QLWHG6WDWHV$LU)RUFHUHVSRQGHGZLWK
  GLVWLQFWLRQWRWKHPDQ\FKDOOHQJHVRXUQDWLRQIDFHG:KHWKHULQWKH*OREDO:DURQ7HUURULVPLQGHIHQGLQJRXU
,DPSURXGWRUHSRUWWKDWLQ)LVFDO<HDUWKH$LUPHQRIWKH8QLWHG6WDWHV$LU)RUFHUHVSRQGHGZLWK
  KRPHODQGLQKXPDQLWDULDQDQGSHDFHNHHSLQJRSHUDWLRQVRULQHQVXULQJWKHUHDGLQHVVRIWKHZRUOG
VJUHDWHVWDLU
GLVWLQFWLRQWRWKHPDQ\FKDOOHQJHVRXUQDWLRQIDFHG:KHWKHULQWKH*OREDO:DURQ7HUURULVPLQGHIHQGLQJRXU
  VSDFHDQGF\EHUVSDFHSRZHURXUQDWLRQ
V$LUPHQSHUIRUPHGPDJQLILFHQWO\
KRPHODQGLQKXPDQLWDULDQDQGSHDFHNHHSLQJRSHUDWLRQVRULQHQVXULQJWKHUHDGLQHVVRIWKHZRUOG
VJUHDWHVWDLU
  2XUILQDQFLDOPDQDJHPHQWWHDPUHPDLQVDNH\HQDEOHURIWKHVH$LU)RUFHHIIRUWV$VSURXGVWHZDUGVRIWKH
VSDFHDQGF\EHUVSDFHSRZHURXUQDWLRQ
V$LUPHQSHUIRUPHGPDJQLILFHQWO\
  FRXQWU\
VUHVRXUFHVWKH\DUHFRQILGHQWO\HQWUXVWHGZLWKRXU$LU)RUFHILQDQFHV7KRVHUHVRXUFHVDOORZXVWR
2XUILQDQFLDOPDQDJHPHQWWHDPUHPDLQVDNH\HQDEOHURIWKHVH$LU)RUFHHIIRUWV$VSURXGVWHZDUGVRIWKH
  DFFRPSOLVKRXUPLVVLRQWRGHOLYHUVRYHUHLJQRSWLRQVIRUWKHGHIHQVHRIWKH8QLWHG6WDWHVRI$PHULFDDQGLWV
FRXQWU\
VUHVRXUFHVWKH\DUHFRQILGHQWO\HQWUXVWHGZLWKRXU$LU)RUFHILQDQFHV7KRVHUHVRXUFHVDOORZXVWR
  JOREDOLQWHUHVWVWRIO\DQGILJKWLQDLUVSDFHDQGF\EHUVSDFH
DFFRPSOLVKRXUPLVVLRQWRGHOLYHUVRYHUHLJQRSWLRQVIRUWKHGHIHQVHRIWKH8QLWHG6WDWHVRI$PHULFDDQGLWV
  7KURXJK$LU)RUFH6PDUW2SHUDWLRQVIRUWKH7ZHQW\)LUVW&HQWXU\ZHKDYHIRFXVHGRXUHIIRUWVWRPRUH
JOREDOLQWHUHVWVWRIO\DQGILJKWLQDLUVSDFHDQGF\EHUVSDFH
  HIILFLHQWO\DFFRPSOLVKRXUPLVVLRQVXSSRUWRXUSHRSOHDQGPRGHUQL]HRXUIRUFH
7KURXJK$LU)RUFH6PDUW2SHUDWLRQVIRUWKH7ZHQW\)LUVW&HQWXU\ZHKDYHIRFXVHGRXUHIIRUWVWRPRUH
  2XUH[SHGLWLRQDU\ILJKWLQJIRUFHVFHQWHUHGRQWKH$LUDQG6SDFH([SHGLWLRQDU\)RUFHSURYLGHWKHIRXQGDWLRQ
HIILFLHQWO\DFFRPSOLVKRXUPLVVLRQVXSSRUWRXUSHRSOHDQGPRGHUQL]HRXUIRUFH
  IRURXURSHUDWLRQV:HFRQWLQXHWRFORVHO\DOLJQWKHDFWLYHGXW\$LU)RUFH$LU1DWLRQDO*XDUGDQG$LU)RUFH
2XUH[SHGLWLRQDU\ILJKWLQJIRUFHVFHQWHUHGRQWKH$LUDQG6SDFH([SHGLWLRQDU\)RUFHSURYLGHWKHIRXQGDWLRQ
  5HVHUYHZLWK7RWDO)RUFHLQLWLDWLYHVWRHQKDQFHRXURYHUDOOFDSDELOLW\DQGDVUHFHQWGHYHORSPHQWVLOOXVWUDWHZH
IRURXURSHUDWLRQV:HFRQWLQXHWRFORVHO\DOLJQWKHDFWLYHGXW\$LU)RUFH$LU1DWLRQDO*XDUGDQG$LU)RUFH
  DUHIXOO\HQJDJHGDVD7RWDO)RUFHLQWKH*OREDO:DURQ7HUURULVP
5HVHUYHZLWK7RWDO)RUFHLQLWLDWLYHVWRHQKDQFHRXURYHUDOOFDSDELOLW\DQGDVUHFHQWGHYHORSPHQWVLOOXVWUDWHZH
  :HKDYHDOVRUHPDLQHGIRFXVHGRQFDULQJIRUDQGGHYHORSLQJRXU$LUPHQRXUPRVWYDOXDEOHUHVRXUFH
DUHIXOO\HQJDJHGDVD7RWDO)RUFHLQWKH*OREDO:DURQ7HUURULVP
  7KH\IDFHWUHPHQGRXVFKDOOHQJHVDQGLQ)<ZHFRQWLQXHGVHHNLQJZD\VWRPDLQWDLQDQGLPSURYHWKHLU
:HKDYHDOVRUHPDLQHGIRFXVHGRQFDULQJIRUDQGGHYHORSLQJRXU$LUPHQRXUPRVWYDOXDEOHUHVRXUFH
  WUDLQLQJDVZHOODVSHUVRQDODQGSURIHVVLRQDOGHYHORSPHQW
7KH\IDFHWUHPHQGRXVFKDOOHQJHVDQGLQ)<ZHFRQWLQXHGVHHNLQJZD\VWRPDLQWDLQDQGLPSURYHWKHLU
  0RGHUQL]LQJRXUDLUFUDIWLQYHQWRU\ZKLFKLVWKHROGHVWLQ$LU)RUFHKLVWRU\ZLOODOORZRXU6HUYLFHWRPDLQWDLQ
WUDLQLQJDVZHOODVSHUVRQDODQGSURIHVVLRQDOGHYHORSPHQW
  LWVWHFKQRORJLFDODGYDQWDJHDQGEXLOGDSRUWIROLRRIPLOLWDU\FDSDELOLWLHVQHHGHGWRGHOLYHUVRYHUHLJQRSWLRQVWR
0RGHUQL]LQJRXUDLUFUDIWLQYHQWRU\ZKLFKLVWKHROGHVWLQ$LU)RUFHKLVWRU\ZLOODOORZRXU6HUYLFHWRPDLQWDLQ
  WKHQDWLRQ
LWVWHFKQRORJLFDODGYDQWDJHDQGEXLOGDSRUWIROLRRIPLOLWDU\FDSDELOLWLHVQHHGHGWRGHOLYHUVRYHUHLJQRSWLRQVWR
  2XUILQDQFLDOPDQDJHPHQWWHDPLVDOVRIRFXVHGRQWUDQVIRUPLQJWRGHOLYHULPSURYHGVHUYLFHEHWWHULQIRUPDWLRQ
WKHQDWLRQ
  UHOLDELOLW\LQWHJUDWLRQDQGYLVLELOLW\LQRXUILQDQFLDOPDQDJHPHQWSURFHVVHV7KHVHILQDQFLDOVWDWHPHQWVLOOXVWUDWH
2XUILQDQFLDOPDQDJHPHQWWHDPLVDOVRIRFXVHGRQWUDQVIRUPLQJWRGHOLYHULPSURYHGVHUYLFHEHWWHULQIRUPDWLRQ
  WKHVXFFHVVRIWKH$LU)RUFHRYHUWKHSDVW\HDUDVZHOODVVSHFLILFILQDQFLDOPDQDJHPHQWDFFRPSOLVKPHQWV
UHOLDELOLW\LQWHJUDWLRQDQGYLVLELOLW\LQRXUILQDQFLDOPDQDJHPHQWSURFHVVHV7KHVHILQDQFLDOVWDWHPHQWVLOOXVWUDWH
  7KHSXEOLFDWLRQRIRXUILQDQFLDOVWDWHPHQWVFRPSOLHVZLWKWKHUHTXLUHPHQWVHWRXWLQWKH&KLHI)LQDQFLDO2IILFHUV
WKHVXFFHVVRIWKH$LU)RUFHRYHUWKHSDVW\HDUDVZHOODVVSHFLILFILQDQFLDOPDQDJHPHQWDFFRPSOLVKPHQWV
  $FWDQGWKLVILQDQFLDOLQIRUPDWLRQDGGUHVVHVERWKRXU*HQHUDO)XQGDQG:RUNLQJ&DSLWDO)XQGDFWLYLWLHV
7KHSXEOLFDWLRQRIRXUILQDQFLDOVWDWHPHQWVFRPSOLHVZLWKWKHUHTXLUHPHQWVHWRXWLQWKH&KLHI)LQDQFLDO2IILFHUV
  7KHVHUYLFHRIRXUILQDQFLDOPDQDJHUVUHPDLQVQRWKLQJVKRUWRIRXWVWDQGLQJ²)LQDQFLQJWKHILJKWZKLOHSURYLGLQJ
$FWDQGWKLVILQDQFLDOLQIRUPDWLRQDGGUHVVHVERWKRXU*HQHUDO)XQGDQG:RUNLQJ&DSLWDO)XQGDFWLYLWLHV
  VWHOODUFRQWULEXWLRQVWR$PHULFD
VDLUVSDFHDQGF\EHUVSDFHFDSDELOLW\
7KHVHUYLFHRIRXUILQDQFLDOPDQDJHUVUHPDLQVQRWKLQJVKRUWRIRXWVWDQGLQJ²)LQDQFLQJWKHILJKWZKLOHSURYLGLQJ
                                                                  Michael W. Wynne
VWHOODUFRQWULEXWLRQVWR$PHULFD
VDLUVSDFHDQGF\EHUVSDFHFDSDELOLW\



ii
      8QLWHG6WDWHV$LU)RUFH


                                      6(&5(7$5<2) 7+( $,5 )25&(
                                                  :$6+,1*721'&


                                                   1RYHPEHU


                                                 0HVVDJHIURPWKH
                                              6HFUHWDU\RIWKH$LU)RUFH



,DPSURXGWRUHSRUWWKDWLQ)LVFDO<HDUWKH$LUPHQRIWKH8QLWHG6WDWHV$LU)RUFHUHVSRQGHGZLWK
GLVWLQFWLRQWRWKHPDQ\FKDOOHQJHVRXUQDWLRQIDFHG:KHWKHULQWKH*OREDO:DURQ7HUURULVPLQGHIHQGLQJRXU
KRPHODQGLQKXPDQLWDULDQDQGSHDFHNHHSLQJRSHUDWLRQVRULQHQVXULQJWKHUHDGLQHVVRIWKHZRUOG
VJUHDWHVWDLU
VSDFHDQGF\EHUVSDFHSRZHURXUQDWLRQ
V$LUPHQSHUIRUPHGPDJQLILFHQWO\
2XUILQDQFLDOPDQDJHPHQWWHDPUHPDLQVDNH\HQDEOHURIWKHVH$LU)RUFHHIIRUWV$VSURXGVWHZDUGVRIWKH
FRXQWU\
VUHVRXUFHVWKH\DUHFRQILGHQWO\HQWUXVWHGZLWKRXU$LU)RUFHILQDQFHV7KRVHUHVRXUFHVDOORZXVWR
DFFRPSOLVKRXUPLVVLRQWRGHOLYHUVRYHUHLJQRSWLRQVIRUWKHGHIHQVHRIWKH8QLWHG6WDWHVRI$PHULFDDQGLWV
JOREDOLQWHUHVWVWRIO\DQGILJKWLQDLUVSDFHDQGF\EHUVSDFH
7KURXJK$LU)RUFH6PDUW2SHUDWLRQVIRUWKH7ZHQW\)LUVW&HQWXU\ZHKDYHIRFXVHGRXUHIIRUWVWRPRUH
HIILFLHQWO\DFFRPSOLVKRXUPLVVLRQVXSSRUWRXUSHRSOHDQGPRGHUQL]HRXUIRUFH
2XUH[SHGLWLRQDU\ILJKWLQJIRUFHVFHQWHUHGRQWKH$LUDQG6SDFH([SHGLWLRQDU\)RUFHSURYLGHWKHIRXQGDWLRQ
IRURXURSHUDWLRQV:HFRQWLQXHWRFORVHO\DOLJQWKHDFWLYHGXW\$LU)RUFH$LU1DWLRQDO*XDUGDQG$LU)RUFH
5HVHUYHZLWK7RWDO)RUFHLQLWLDWLYHVWRHQKDQFHRXURYHUDOOFDSDELOLW\DQGDVUHFHQWGHYHORSPHQWVLOOXVWUDWHZH
DUHIXOO\HQJDJHGDVD7RWDO)RUFHLQWKH*OREDO:DURQ7HUURULVP
:HKDYHDOVRUHPDLQHGIRFXVHGRQFDULQJIRUDQGGHYHORSLQJRXU$LUPHQRXUPRVWYDOXDEOHUHVRXUFH
7KH\IDFHWUHPHQGRXVFKDOOHQJHVDQGLQ)<ZHFRQWLQXHGVHHNLQJZD\VWRPDLQWDLQDQGLPSURYHWKHLU
WUDLQLQJDVZHOODVSHUVRQDODQGSURIHVVLRQDOGHYHORSPHQW
0RGHUQL]LQJRXUDLUFUDIWLQYHQWRU\ZKLFKLVWKHROGHVWLQ$LU)RUFHKLVWRU\ZLOODOORZRXU6HUYLFHWRPDLQWDLQ
LWVWHFKQRORJLFDODGYDQWDJHDQGEXLOGDSRUWIROLRRIPLOLWDU\FDSDELOLWLHVQHHGHGWRGHOLYHUVRYHUHLJQRSWLRQVWR
WKHQDWLRQ
2XUILQDQFLDOPDQDJHPHQWWHDPLVDOVRIRFXVHGRQWUDQVIRUPLQJWRGHOLYHULPSURYHGVHUYLFHEHWWHULQIRUPDWLRQ
UHOLDELOLW\LQWHJUDWLRQDQGYLVLELOLW\LQRXUILQDQFLDOPDQDJHPHQWSURFHVVHV7KHVHILQDQFLDOVWDWHPHQWVLOOXVWUDWH
WKHVXFFHVVRIWKH$LU)RUFHRYHUWKHSDVW\HDUDVZHOODVVSHFLILFILQDQFLDOPDQDJHPHQWDFFRPSOLVKPHQWV
7KHSXEOLFDWLRQRIRXUILQDQFLDOVWDWHPHQWVFRPSOLHVZLWKWKHUHTXLUHPHQWVHWRXWLQWKH&KLHI)LQDQFLDO2IILFHUV
                                                                        John G. Vonglis
$FWDQGWKLVILQDQFLDOLQIRUPDWLRQDGGUHVVHVERWKRXU*HQHUDO)XQGDQG:RUNLQJ&DSLWDO)XQGDFWLYLWLHV
7KHVHUYLFHRIRXUILQDQFLDOPDQDJHUVUHPDLQVQRWKLQJVKRUWRIRXWVWDQGLQJ²)LQDQFLQJWKHILJKWZKLOHSURYLGLQJ
VWHOODUFRQWULEXWLRQVWR$PHULFD
VDLUVSDFHDQGF\EHUVSDFHFDSDELOLW\



                                                                                                                         iii
Management Discussion and Analysis
Air Force Heritage                                                     “The mission is to deliver sovereign
                                                                       options…the subject is national investment
                                                                       in the strate-gic shield on which our free-
                                                                       doms and commerce depend.”
                                                                       Secretary of the Air Force Michael Wynne

                                                                       Our core values are:
                                                                       • Integrity First
                                                                       • Service Before Self
                                                                       • Excellence in All We Do

                                                                       Our critical capabilities are:
                                                                       • Global Vigilance
A heritage flight with a P-51 Mustang, F-15 Eagle, F-22 Raptor and     • Global Reach
    A-10 Thunderbolt II fly over the crowd at the Arctic Thunder air   • Global Power
                          show at Elmendorf Air Force Base, Alaska.


“In the development of airpower, one has to
look ahead and not backward and ﬁgure out
what is going to happen—not too much of
which has happened.”
Brigadier General Billy Mitchell

We are America’s Airmen. We follow and celebrate the path of
greatness that has led us on the course to develop the capabilities
with which we ﬂy, ﬁght, and win. As we celebrate our 60th An-          OVER IRAQ -- A pair of F-16 Fighting Falcons launch flares during a mission.
niversary, we recognize the pursuit of air and space dominance for
                                                                       Our priorities are:
our country was not won by words alone, but by the unending ef-
forts of our forebears. Our mission is to deliver sovereign options
                                                                       • Fighting and Winning the Global War on Terror
for the defense of the United States and its global interests––to ﬂy
                                                                       • Developing and Caring for Our Airmen and Their Families
and ﬁght in air, space, and cyberspace. We are constantly aware of
                                                                       • Recapitalizing and Modernizing Our Aging Aircraft and
                                                                           Spacecraft Inventories
our vision: Lasting Heritage…Limitless Horizons.

                                                                       Our goals are:
                                                                       • Foster Mutual Respect and Integrity
                                                                       • Sustain Air, Space, and Cyberspace Capabilities



                                                                                                                                                      1
    •   Provide Persistent Situational Awareness                           The Air Force operates on a global scale, 24/7. During FY 2007
    •   Develop Joint and Battle-Ready Trained Airmen                      on any day or time, the Air Force had 30,000 Airmen deployed to
    •   Improve the Total Force Quality of Life                            the Central Command conducting theater operations and 60,000
    •   Implement Open, Transparent Business Practices and a Clean         Airmen from Paciﬁc Air Forces and U.S. Air Forces in Europe
        Audit                                                              fully engaged in the full spectrum of dissuasion, deterrence, coali-
    •   Foster Air Force Smart Operations for the 21st Century             tion training, and military-to-military activities.
        (AFSO21)

    A linchpin to our success, now and into the future, is the strategic
    foresight, accountability, and professional management of Air
    Force resources by our Financial Management professionals. The
    Air Force has recognized, most recently in the Air Force Posture
    Statement, that operations support functions are critical to the
    execution of the Air Force mission. In FY 2007, the efforts and
    innovation of Air Force ﬁnancial management personnel con-
    tinued to prove this by providing transforming efﬁciencies that
    enable Air Force priorities and support all echelons in Financing
    the Fight.


    Air Force in Action – FY 2007
    In FY 2007, the Air Force continued to pursue, and excel in, the
    defense of America’s interests in a historically unprecedented and
    dynamic strategic environment. The Air Force remained commit-
    ted to and successful in achieving our top service priorities:

    •   Fighting and Winning the Global War on Terrorism (GWOT)
    •   Developing and Caring for Our Airmen and Their Families
    •   Recapitalizing and Modernizing Our Aging Aircraft and
        Spacecraft Inventories

    Fighting and Winning the GWOT
    The Air Force has been in continual combat for 17 years. This
    continued in FY 2007 with combat operations over Iraq, clearly a
    critical front in the GWOT. In addition, the Air Force has been a
    decisive force on the Joint and coalition team in Operation Endur-
    ing Freedom in Afghanistan. America’s Airmen also continued to            BAGHDAD, Iraq -- Air Force pararescuemen are extracted from an
    protect and defend the skies of our Homeland in Operation Noble               abandoned housing site via HH-60G Pave Hawk helicopter.
    Eagle, now in its sixth year. We have remained committed to
    ﬁnding and destroying our nation’s enemies wherever they seek
    sanctuary in our vital national struggle against violent extremism.




2
These Airmen, along with those supporting them from home             tion and support personnel receive the training and experience
stations, allowed the United States to fully exploit the inherent    essential to accomplish our mission in space. The U.S. Air Force
qualities of air, space, and cyberspace operations—speed, range,     Warfare Center provides advanced training to ensure that our
and payload—and allow the deployed Air Force footprint to be         warﬁghting capability remains unrivaled, including joint and com-
smaller but vastly more ﬂexible and lethal.                          bined exercises. We have also focused on important Quality of
                                                                     Life initiatives. The Air Force provides unequaled dining, ﬁtness,
Our Airmen have excelled across the board in these demanding         and morale programs for our deployed Airmen, and our Learning
tasks. There is perhaps no better example than more than 7,700       Resource Centers provide distance learning, continued profes-
Airmen fulﬁlling “nontraditional” ground force tasks in areas        sional development, and connectivity with family and friends.
such as detainee operations, convoy operations and protection,
explosive ordnance disposal, security, provincial reconstruction
teams, and many other roles.

Developing and Caring for
Our Airmen and Their Families
The Air Force in FY 2007 remained a seamless Total Force,
with more than 690,000 Airmen serving on Active Duty, in the
Air National Guard (ANG), in the Air Force Reserve Command
(AFRC), and as Air Force civilians. America’s Airmen are,
simply, the bedrock of America’s ability to succeed in an era of
challenge and uncertainty.

During the more than six decades of U.S. Air Force history, our
Airmen have been global ﬁrst responders in times of crisis due
in large part to their training and dedication. In FY 2007 this
trend continued, starting with an Air Force enlistee’s ﬁrst day in
uniform. Air Force Basic Military Training (BMT) was changed
to stress an expeditionary mindset from day one.

Air Force BMT now mirrors the Air Force deployment cycle of
Air Expeditionary Forces and emphasizes basic war skills and
practical application throughout. We are expanding BMT by 2          Maj. Kevin Mountcastle talks with his family after giving them a tour of
weeks to provide more opportunities for ﬁeld exercises, and we        a C-130 Hercules upon arriving back home from supporting Opera-
have instituted “Airmen’s Time” to permit veterans to mentor                                                        tion Enduring Freedom.
trainees and share their real-world experiences. During Airmen’s
Time we will relate daily training to warrior and Airmanship         Another key to caring for Air Force families is our investment in
qualities and reinforce our core values.                             military housing. In FY 2007, through military construction and
                                                                     housing privatization, we provided quality homes faster than ever.
As Airmen progress through their careers, we have implemented        We are on track to eliminate all inadequate housing at overseas
a number of advanced training initiatives. The Space Professional    locations by FY 2009, and we have also focused on childcare cen-
Development Program ensures that our space operations acquisi-       ters, ﬁtness centers, and dormitories for unaccompanied members.




                                                                                                                                                3
    Recapitalizing and Modernization                                           In FY 2007, the Air Force continued to recapitalize our assets,
                                                                               divesting signiﬁcant numbers of our oldest, least capable and
    “America needs to understand that                                          most costly aircraft. To meet our 2025 force structure objectives,
    we will not win tomorrow’s ﬁght without this                               we must synchronize and are synchronizing this recapitalization
    recapitalization.”                                                         with modernization.
    General T. Michael Moseley, Air Force Chief of Staff
                                                                               The demands on air and space power for our country are many,
                                                                               but informed and wise modernization has proven that even with
                                                                               constrained resources, we can meet these demands. Examples
                                                                               include:

                                                                               •   The operational ﬁelding of America’s Fifth Generation
                                                                                   Fighters, the F-22A Raptor, a ﬁghter that continues to ensure
                                                                                   American air superiority, and the soon-to-be-ﬁelded F-35
                                                                                   Lighting II, the ﬁnest multi-role ﬁghter in the world. These
                                                                                   aircraft will ensure America’s ability to both dominate the
                                                                                   skies and support the range of future Joint missions.

                                                                               •   The outstanding continued performance of the C-17 airlifter
                                                                                   to handle any and all demands.


      Bombers, like this B-52 Stratofortress ready to refuel from a KC-135     “The mission of the United States Air Force
       Stratotanker over Afghanistan, provide coalition ground forces on-
     demand close air support. The bomber is from the 2nd Bomb Wing            is to ﬂy and ﬁght, and let’s not forget this.”
                                          at Barksdale Air Force Base, La.     General T. Michael Moseley, Air Force Chief of Staff

    The demands of the GWOT, operations costs, fuel and many other
    factors continue to apply pressure on the Air Force budget. We are
    managing this by focusing on a “mission ﬁrst” view and using tools
    such as Force Shaping, AFSO21, and aircraft retirements. These en-
    able us to operate, organize, train, and equip the Air Force to meet the
    demands of the future.

    In light of the demands faced by America’s air and space power as-
    sets, modernization is a critical effort. It took approximately 50 years
    for the United States to go from humankind’s ﬁrst powered ﬂight at
    Kitty Hawk to testing the B-52 Stratofortress bomber. More than 50
    years after that, the B-52 remains a workhorse of the Air Force. Our                                    An F-22 Raptor and an F-35 Lightning II.
    legacy systems have served us well and tested and proven the dedica-
    tion and expertise of Airmen for decades. To ensure America’s contin-
    ued dominance in air, space and cyberspace, however, we recognize
    that we must take concrete steps to equip our Airmen of the future.




4
•      Acquisition and operations of innovative Unmanned Aerial                •    Recognizing and embracing the Air Force role in Joint
       Systems (UASs) such as the Predator, the Reaper, and Global                  Warﬁghting Integration—inherent in all we do is constant cog-
       Hawk, including standing up of the ﬁrst all-UAS operational                  nizance that we are part of the Joint ﬁght. For example, Air-
       Wing in history.                                                             men are now training at the Army’s National Training Center,
                                                                                    with modernized Stryker Brigade Combat Teams, and with the
                                                                                    Marine Corps in development of the Future Combat System.

                                                                               Stated simply, the Air Force is dealing with budgetary constraints
                                                                               by eliminating low-leverage assets in favor of very high-leverage
                                                                               assets. We are focusing on these high-leverage assets, including
                                                                               the KC-X airborne refueling tanker, space systems, the CSAR-X
                                                                               (Combat Search and Rescue) system, the F-35 Lightning II Fighter
                                                                               and the next-generation bomber. This step is necessary to fulﬁll
                                                                               our obligation to the country to be the best possible stewards of
  A Global Hawk unmanned system vehicle is towed back to its hangar            our nation’s resources. As we undertake this modernization, we are
    following a mission at a deployed location in Southwest Asia. Once
mission parameters are programmed into a Global Hawk, the UAS can              constantly cognizant of the resources entrusted to us.
autonomously taxi, take off, fly, remain on station capturing imagery, re-
 turn and land. Ground-based operators monitor the UAS’s status, and           The Air Force is also modernizing in other ways. During FY 2007
    can change navigation and sensor plans during flight as necessary.         it became clearly—and expensively—evident that the Air Force,
                                                                               along with all U.S. government functions, would have to spend
•      Leverage in cyberspace with the creation of the USAF
                                                                               much more for petroleum and petroleum-based products. Within
       Cyberspace Command, a partner with both Air Force Space
                                                                               the Department of Defense (DoD), the Air Force uses proportion-
       Command and the Air Combat Command.
                                                                               ately the most fuel of all the Services. For every $10 per barrel
                                                                               increase in petroleum, the Air Force pays more than $600 million.

                                                                               Higher fuel prices were not just recognized in expenditures and
                                                                               in future ﬁnancial planning and budgeting, but also with strident
                                                                               action. The Air Force took the lead in energy conservation initia-
                                                                               tives: using alternative fuels, implementing conservation initia-
                                                                               tives, and promoting new technologies. We are doing these things
                                                                               not just for the bottom line, but because they are the right things to
                                                                               do. And through our leadership, the Air Force became an exemplar
                                                                               for all of DoD.


                                                                               Air Force Structure
                                                                               The command line of the Air Force ﬂows from the President and
     Capt. Jason Simmons and Staff Sgt. Clinton Tips update anti-virus         the National Command Authority to the Secretary of Defense and
    software for Air Force units to assist in the prevention of cyberspace     the Department of the Air Force. The Air Force is headed by the
    hackers. The Air Force is setting up the Air Force Cyberspace Com-
                                                                               Secretary of the Air Force, with the Chief of Staff reporting to the
      mand soon and these Airmen will be the operators on the ground
                                                                      floor.   Secretary. Immediately subordinate to the departmental headquar-
                                                                               ters are the Major Commands, Field Operating Agencies, Direct
                                                                               Reporting Units, and the Auxiliary.




                                                                                                                                                        5
    The basic Air Force chain of command is:




                                                                          American Aerospace

    MAJOR COMMANDS (MAJCOMs)
    Major Commands are primarily of two types: operational and            American Aerospace Defense Command (NORAD). Provides
    support. Within the operational commands, the divisions are           support to activate USAF Cyberspace Command as a separate
                                                                          MAJCOM.
    generally deﬁned according to purpose or location (e.g., combat,
                                                                          Command Personnel: 154,000
    movement of people and supplies, or Paciﬁc and European the-
                                                                          Primary Aircraft Inventory includes: Bombers, Fighters, Recon,
    aters). The support commands generally are organized according
                                                                          ISR, and Trainers
    to function (e.g., logistic, support, or training) and are directly
    subordinate to Air Force Headquarters. A list of the MAJCOMs
    and their missions follows:


    “Offense is the essence of airpower.”
    General H.H. “Hap” Arnold, USAAF

    AIR COMBAT COMMAND (ACC)
    Missions: Operates USAF bombers (active, Air National Guard,
    and Air Force Reserve Command); and USAF’s CONUS-based
    ﬁghter and attack, reconnaissance, battle management, and
    command and control aircraft and intelligence and surveillance
    systems. Provides combat airpower to America’s warﬁghting
                                                                          OVER VIRGINIA -- Lt. Col. James Hecker flies over Fort Monroe before
    commands (CENTCOM, EUCOM, NORTHCOM, PACOM, and                          delivering the first operational F-22A Raptor to its permanent home
    SOUTHCOM); nuclear, conventional, and information opera-                  at Langley Air Force Base, Va. This is the first of 26 Raptors to be
                                                                                                          delivered to the 27th Fighter Squadron.
    tions forces to STRATCOM; and air defense forces to North




6
AIR EDUCATION AND                                                             Missions: Deliver warwinning expeditionary capabilities to the
TRAINING COMMAND (AETC)                                                       warﬁghter through development and transition of technology, pro-
Missions: Recruit, train, and educate professional, expeditionary-            fessional acquisition management, and world-class sustainment of
minded Airmen to sustain the combat capability of America’s Air               all Air Force weapons systems.
Force. Conduct Joint, readiness, and Air Force security assistance            Command Personnel: 82,000
training.                                                                     Primary Aircraft Inventory includes: Fighters, Transports, and
                                                                              Trainers

                                                                              AIR FORCE SPACE COMMAND (AFSPC)
                                                                              Missions: Operate and test USAF ICBM forces for STRATCOM;
                                                                              missile warning radars, sensors, and satellites; national space-
                                                                              launch facilities and operational boosters; worldwide space surveil-
                                                                              lance radars and optical systems; worldwide space environment
                                                                              systems; and position, navigation, and timing systems.




A T-6A Texan II pilot flies in formation with another T-6A. The Texan II is
    replacing the T-37 Tweet as the primary trainer for Air Force pilots.

Command Personnel: 87,000
Primary Aircraft Inventory includes: Trainers, Fighters, Trans-
ports, Helicopters, and Tankers
                                                                               A Titian IV Centaur rocket launch. The rocket is the largest unmanned
                                                                                  space booster used by the Air Force. The vehicle carries payloads
AIR FORCE MATERIEL COMMAND (AFMC)                                             equivalent to the size and weight of those carried on the space shuttle.

                                                                              Command Personnel: 27,000
                                                                              Primary Aircraft Inventory includes: Missile Warning Systems,
                                                                              ICBMs, Satellite Systems, and Space Surveillance Systems


                                                                              AIR FORCE SPECIAL
                                                                              OPERATIONS COMMAND (AFSOC)
                                                                              Missions: Serve as America’s specialized air power, providing
                                                                              combat search and rescue and delivering special operations power
                                                                              anytime, anywhere. Also tasked with the seven following mission
                                                                              areas: Shaping the battleﬁeld, information operations, precision
Airman 1st Class Marlon Wells uses a flashlight to visually inspect the       engagement, SOF mobility, agile combat support, aerospace inter-
       avionics system in the cargo bay of a C-130 Hercules aircraft.         face, and personnel recovery/recovery operations.




                                                                                                                                                         7
                                                                           PACIFIC AIR FORCES (PACAF)
                                                                           Mission: Provide ready air and space power to promote U.S. inter-
                                                                           ests in the Asia-Paciﬁc region during peacetime, crisis, and war.
                                                                           Command Personnel: 46,000
                                                                           Primary Aircraft Inventory includes: Fighters, Transports, and
                                                                           Tankers

                                                                           U.S. AIR FORCES IN EUROPE (USAFE)
                                                                           Missions: Provide the Joint Force commander rapidly deploy-
                                                                           able expeditionary aerospace forces. Plan, conduct, coordinate
                            Two Air Force CV-22 Ospreys prepare to land.   and support air and space operations to achieve U.S. national and
                                                                           North Atlantic Treaty Organization (NATO) objectives based on
    Command Personnel: 13,000
                                                                           U.S. European Command (EUCOM) tasks. Support U.S. military
    Primary Aircraft Inventory includes: Helicopters, Special Opera-
                                                                           plans and operations in Europe, the Mediterranean, the Middle
    tions Aircraft and Forces, and Tankers
                                                                           East, and Africa. Support activation of AFRICOM as a Uniﬁed
                                                                           Command with dedicated air component for Africa.
    AIR MOBILITY COMMAND (AMC)
    Missions: Provide rapid global mobility and sustainment through
    tactical and strategic airlift and aerial refueling for U.S. armed
    forces. Provide special duty and operational support aircraft and
    global humanitarian support.




                                                                                      F-15E Strike Eagles taxi to their parking spaces at Royal Air
                                                                                                                Force Base Lakenheath, England.

                                                                           Command Personnel: 33,000
                                                                           Primary Aircraft Inventory includes: Fighters, Transports, and
                                                                           Tankers


                    A C-17 Globemaster III conducts an assault landing.
                                                                           AIR RESERVE COMPONENTS (AFRC)
                                                                           Missions: Support the active duty force. Serve in such missions as
                                                                           ﬁghter, bomber, airlift, aerial port operations, aeromedical evacu-
    Command Personnel: 141,000
                                                                           ation, aerial ﬁre ﬁghting, weather reconnaissance, space opera-
    Primary Aircraft Inventory includes: Transports, Helicopters, and
                                                                           tions, airborne air control, ﬂying training, ﬁght testing, and aerial
    Tankers
                                                                           spraying. Provide support and disaster relief in the United States
                                                                           and support national counterdrug efforts.




8
                                                                                     FIELD OPERATING AGENCY (FOA)
                                                                                     FOA is a subdivision of the Air Force and is directly subordinate
                                                                                     to a Headquarters U.S. Air Force functional manager. An FOA
                                                                                     performs ﬁeld activities beyond the scope of any of the major
                                                                                     commands. The activities are specialized or associated with an
                                                                                     Air Force-wide mission and do not include functions performed
                                                                                     in management headquarters, unless speciﬁcally directed by a
                                                                                     DoD authority. Examples of the 32 FOAs include the Air Force
     Air Force Reserve Command WC-130J Hercules, also known as                       Audit Agency, Air Force Communications Agency, Air Force
    a Hurricane Hunter, takes off with an aircrew from the 815th Airlift
  Squadron and support members from the 403rd Wing at Keesler Air
                                                                                     Cost Analysis Agency, Air Force Services Agency, and Air Force
                                                    Force Base, Miss.                Weather Agency.

Command Personnel: 78,000                                                            DIRECT REPORTING UNIT (DRU)
Primary Aircraft Inventory includes: Fighters, Transports, and                       DRU is a subdivision of the Air Force and is directly subordinate
Tankers                                                                              to Headquarters Air Force. A DRU performs a mission that does
                                                                                     not ﬁt into any of the MAJCOMs. A DRU has many of the same
AIR NATIONAL GUARD (ANG)                                                             administrative and organizational responsibilities as a MAJCOM.
Missions: Provide combat capability to the warﬁghter and                             The ﬁve DRUs are the Air Force Academy, Air Force Studies and
security for the homeland. Protect life and property and preserve                    Analysis Agency, Air Force Doctrine Center, Air Force District
peace, order, and public safety.                                                     of Washington, and Air Force Operational Test and Evaluation
                                                                                     Center.

                                                                                                                                                            •




       Lt. Col. Mark McCauley (from left), Col. Charles Smith and Maj. Mark
 Mitchum, pilots with the Virginia Air National Guard, walk to their respective
 F-16 Fighting Falcons for their final flight in that aircraft. They belong to the
                            first Air National Guard unit to fly the F-22 Raptor.

Command Personnel: 107,000
                                                                                     U.S. Air Force Academy graduates throw their hats in the air as the Air Force
Primary Aircraft Inventory includes: Fighters, Transports, and Tankers                  Thunderbirds fly overhead signaling the end of the graduation ceremony.




                                                                                                                                                                     9
 Auxiliary                                                                 “Hitler built a fortress around Europe, but
 An Air Force auxiliary is an organization created by statute that
 the Secretary of the Air Force may use to fulﬁll the Air Force’s
                                                                           he forgot to put a roof on it.”
                                                                           President Franklin D. Roosevelt
 noncombat programs and missions. The Civil Air Patrol (CAP) is
 the only U.S. Air Force auxiliary to date.
                                                                           The proud heritage that today’s Airmen inherit means that Air
                                                                           Force Financial Management professionals must embrace and
                                                                           manage change—a challenge they are uniquely qualiﬁed to meet.
                                                                           The key to this is AFSO21. Perhaps it was best summarized by
                                                                           the Secretary of the Air Force when he asked Airmen, “Is each
                                                                           task relevant, productive and value-added? In other words, is it
                                                                           necessary at all? With AFSO21, we will march unnecessary work
                                                                           out the door—forever.”

                                                                           This plan—this challenge—ﬁts Air Force Financial Manage-
                                                                           ment perfectly. As we found in FY 2007, America’s Airmen can
                                                                           redesign the way ﬁnancial services are provided, reallocate staff,
                                                                           and improve overall services delivered … and march unnecessary
                                                                           work out the door to the beneﬁt of the American taxpayer.


                           Civil Air Patrol members prepare for mission.   CFO Compliance
                                                                           All of these Air Force Initiatives must be accomplished in ac-
                                                                           cordance with applicable laws and as responsible stewards of
 Air Force Smart Operations in the                                         the nation’s resources. To that end, we are focused on complete
 21st Century – the Way Ahead                                              compliance with federal directives and Secretary of the Air Force
                                                                           guidance. To support the Air Force Chief Financial Ofﬁcers
                                                                           Act (CFO Act) compliance goal to “Implement open, transpar-
                                                                           ent business practices, and achieve a clean audit,” we initiated
                                                                           a ﬁnancial reporting risk analysis program in compliance with
                                                                           Ofﬁce of Management and Budget (OMB) Circular A-123,
                                                                           Appendix A. This program identiﬁes and tests management’s
                                                                           internal controls over ﬁnancial reporting and seeks to identify
                                                                           and correct discrepancies that could result in reporting misstate-
                                                                           ments. This initiative, coupled with our ﬁnancial system compli-
                                                                           ance and data reliability efforts, as well as participation in the
                                                                           Ofﬁce of the Under Secretary of Defense (Comptroller) Financial
                                                                           Improvement and Audit Readiness (FIAR) Plan, is improving the
                                                                           reliability of ﬁnancial decision making information available to
                                                                           the warﬁghter and achieving the objectives of the CFO Act. This
                                                                           applies across both the General Fund of the Air Force Working
                                                                           Capital Fund.
             An F-4 Phantom, P-47 Thunderbolt, F-16 Fighting Falcon
                   and P-51 Mustang fly in a heritage flight formation.




10
After this general Air Force background, we will continue the              count for their spending. In 1996, Congress passed the Federal
management discussion and analysis with brief reviews of the Air           Financial Management Improvement Act (FFMIA), enabling the
Force General Fund and Working Capital Fund. These reviews                 advancement of Federal ﬁnancial management by requiring that
will include details on Air Force stewardship of taxpayer dollars          Federal ﬁnancial management systems provide accurate, reliable,
during FY 2007. The following sections will include descriptions           and timely ﬁnancial management information to the government’s
of functional areas that these funds support and how they are used         managers. The most common of governmental funds are operat-
to further Air Force capabilities for the nation.                          ing funds, in this case the operating funds of the Air Force are
                                                                           known as the General Fund. It is used to account for all ﬁnancial
                                                                           resources except those required to be accounted for in such other
Department of the                                                          funds (i.e., Working Capital Fund, addressed later in this Report).


Air Force General Fund                                                     Air Force Resources
                                                                           The three vital resources to successful accomplishment of the Air
                                                                           Force mission are:
The General Fund is a fund in which all receipts of the United
States Government are deposited, except those from speciﬁc                 •    Places: A network of bases that reﬂect the Air Force’s global
sources required by law to be deposited into other designated                   competencies:
funds and from which appropriations are made by Congress to
                                                                                     - The Air Force is a global force, spanning facilities
carry on the general and ordinary operations of the Government.
                                                                                       both in the United States and around the world.
In 1990 the Chief Financial Ofﬁcers Act was passed, ordering
Federal agencies to centralize their ﬁnance systems to better ac-




                  Note: Number of U.S. major Air Force installations = 72— Number of U.S. Air Force Foreign major installations = 12.
                                                                                             Source: 2007 USAF Almanac, May 2007




                                                                                                                                              11
 •   People: Trained, motivated, and dedicated:                         In FY 2007, SAF/FM created a road map through our
          - Aerospace power is a proven necessity for victory on        FY 2007–2012 Strategic Plan that translates our vision into
            land, at sea, in air and space, and in cyberspace. The      concrete, actionable, and measurable steps. It integrates ongoing
            foundation of this is our people.                           transformation initiatives into strategy and communicates priori-
                                                                        ties, focuses efforts, and serves as a ﬁlter to help determine where
          - The shift in missions to the reserve component (the Air
                                                                        to invest time, people, and resources.
            Force Reserve and the Air National Guard) is clear.
            Indeed, without these “hometown warriors,” the Air
                                                                        The strategic goals outlined in the Strategic Plan are:
            Force could not complete our full range of necessary
            missions.
                                                                        •   Foster mutual respect and integrity
                                                                        •   Reduce Air Force cost structure
 •   Systems: Modern weapons platforms that integrate air,
                                                                        •   Expand partnership in strategic Air Force decisions
     space, and cyber assets into an undefeatable force:
                                                                        •   Recruit, prepare, and retain a well-trained and highly edu-
          - To the Air Force, “systems” no longer means just                cated professional team for today and tomorrow
            “manned aircraft.” They mean space launch vehicles,         •   Provide our customers with world-class ﬁnancial services
            satellites, intelligence surveillance and reconnaissance    •   Implement open, transparent business practices and achieve
            (ISR) assets, unmanned aerial systems (UASs), and the           a clean audit
            cohesive infra structure to make the “system” an asset      •   Continuously streamline ﬁnancial management processes and
            for Air Force people to accomplish the Air Force and            increase capabilities
            joint mission.
                                                                        To better achieve these goals, FM is transforming—in the same
                                                                        manner as the entire Air Force—our systems, people, and services.
 Air Force Strategic Financial
 Management and Transformation                                          Systems: Critical ﬁnancial Information Technology systems
 To accomplish Air Force goals and realize the Air Force vision,        will continue to be modernized, streamlined, and implemented to
 Air Force Financial Management (SAF/FM) is setting the pace            efﬁciently provide timely, accurate business intelligence. Revolu-
 for transformation across the entire Air Force. The strategic vision   tionary systems such as the Defense Integrated Military Human
 for SAF/FM entails moving the career ﬁeld away from transaction        Resources System (DIMHRS), which will reduce manpower,
 processing toward greater decision support and enhanced strategic      time, and resources needed to provide ﬁnancial and personnel
 advice to commanders. The vehicle for realizing this vision is the     support, are being implemented to support the warﬁghter. Defense
 single largest change effort in SAF/FM history. The phases of          Enterprise Accounting and Management System (DEAMS) is
 FM Transformation primarily focus on revolutionizing the core          transforming Air Force accounting using industry’s best practices
 ﬁnancial functions, changing the behavior and capabilities of          to provide improvements in quality, ﬂexibility, accountability,
                                                                        speed, and accuracy.
 the ﬁnancial personnel performing those functions, establishing
 on-demand support services, realigning and integrating the Air
                                                                        A pilot version of new technology-driven budget formulation
 Force Accounting and Budget ofﬁces, modifying design support
                                                                        software will demonstrate increased capabilities and integration.
 systems and programs, creating training materials and programs
                                                                        Continued efforts to update systems such as these are creating a
 (including Web-based training tools), and establishing a continu-
                                                                        foundation for the future in Financing the Fight.
 ous cultural improvement program to achieve the transformation
 to a world-class operation.




12
People: The FM workforce is critical to leveraging these systems            managers in identifying the necessary skills and capabilities
and achieving FM’s strategic goals. The FM Airmen—ofﬁcer,                   to provide enhanced decision support and delivering the ap-
enlisted, and civilian; active, reserve, and guard—provide valu-            propriate training to achieve the FM vision.
able, accurate, and timely ﬁnancial services to enable FM’s
tactical, operational, and strategic force development to provide
the right training to the right person at the right time. FM’s Career
Field Managers are adjusting education curricula to accommodate
changes in the career ﬁeld and supplementing existing courses to
maximize training opportunities. We will continue to develop the
FM workforce as they enable us to attain our goals.

Services: Services transformation comprises work streams, also
known as Lanes of Transformation, and report to the Director of
Strategic Planning and Transformation (SAF/FMT). These lanes
are inextricably linked to both people and systems, completing
the overall transformation effort for Air Force FM. In 2007, the
lanes shifted focus to concentrate on enhancing AF-wide business
processes and practices for the following upcoming initiatives:
                                                                                                             Deployed USAF Finance office.

•   Financial Services Delivery Model: This model and our               •   Strategic Communications: The development of our Stra-
    adherence to it is responsible for consolidating and trans-             tegic Plan looking toward 2008 meant greater focus on our
    forming the FM career ﬁeld through the establishment of the             Strategic Communications team, which was turned into a
    Air Force Financial Services Center (AFFSC) at Ellsworth
                                                                            speciﬁc lane. The Strategic Communications lane is respon-
    AFB, SD. The delivery model for ﬁnance operations is a
                                                                            sible for marketing Financial Management Transformation
    two-phased approach. Phase I will consolidate back-ofﬁce
                                                                            to the rest of the Air Force through dynamic and informative
    military and travel pay processing for Active and Reserve
                                                                            materials as well as documenting transformation successes.
    bases into one location called the Central Processing Center,
    which opened in September 2007. This effort will align re-
    maining base processes with those that migrate to the center.
                                                                        •   Air Force Smart Operations for the 21st Century (AFSO21):
                                                                            AFSO21 is responsible for identifying opportunities and
    Phase II consists of the transition to a 3-tier customer service
                                                                            leading efforts to improve processes. Through lean practices
    concept, which includes a 24/7 Call Center, online services,
    and face-to-face support, allowing customers to get ﬁnance              to eliminate waste and increase operational support, the
    help anytime and anywhere in the world. The AFFSC has                   AFSO21 team is helping the Air Force better manage its
    already opened and will become fully operational in October             ﬁnancial resources.
    2008.
                                                                        •   Education and Training Transformation: This lane provides
•   Decision Support: The Decision Support team has made                    the training strategies and materials needed to implement
    great strides in shifting the focus of ﬁnancial managers from           the other lanes of transformation. Working under Career
    transactional work to decision support by providing the FM              Field Manager guidance, the Education and Training team is
    community with enhanced ﬁnancial training, improved pro-                developing Web-based training tools, updating procedures
    cesses, and a refo-cused organizational structure at the base           manuals, and revamping classroom curricula. These are just a
    level. The team remains focused on supporting career ﬁeld               few of the actions undertaken by this lane to ensure that FM




                                                                                                                                            13
       personnel have the skills necessary to perform their duties in                   •   The Decision Support team completed the realignment of
       the transformed environment.                                                         base ﬁnancial personnel, delivered core accounting and
                                                                                            budget training, developed improved civilian personnel
 •     Budget Transformation Operation: The goal of this lane is to                         documents for enhanced career advancement, and deliv-
       create a world-class operation in the Headquarters Air Force                         ered a “Roadmap to Decision Support” to articulate the FM
       Budget Operations Ofﬁce (SAF/FMBO) by strategically                                  Strategic Vision of providing ﬁnancial analysis and decision
       allocating resources, reengineering processes, and building                          support to commanders.
       continuous cultural improvements.
                                                                                        •   The Analytical Capability Transformation team opened the
                                                                                            Financial Management Center of Expertise (COE) on April
 Transformation accomplishments in
                                                                                            18, 2006, to offer on-demand, specialized ﬁnancial analysis
 FY 2007 included:                                                                          for O&M decision support to bases and MAJCOMs. The
 • The AFFSC is on track for completion and opened its doors                                COE is on track and became fully operational in 2007. SAF/
       September 2007; the initial cadre has arrived at Ellsworth                           FMT has turned it over to the Deputy Assistant Secretary for
       AFB, SD. The AFFSC teams have also completed (and                                    Cost and Economics, SAF/FMC.
       continue to complete) cutover site awareness visits to all Air
       Force bases. Additionally, the Contact Center development is                     •   The Education, Training, and Development team has been
       moving forward and is on target to open in October 2008.                             working to institutionalize decision support training and
                                                                                            education into the development of the FM Force. The team
                                                                                            provided direct support to FM transformation efforts by
                                                                                            developing enhanced, Web-based training and education; it
                                                                                            has provided thought leadership and delivered results that
                                                                                            expanded and enhanced the relevance of training provided to
                                                                                            all FM personnel. Additionally, the team created more than
                                                                                            100 new Web-based courses.

                                                                                        •   The Strategic Communications team produced multiple
                                                                                            products to market Financial Management’s transformation.
                                                                                            Some examples include the creation and dissemination of
                                                                                            brochures, newsletters, briefs, ﬂash pieces, and events (e.g.,
                                                                                            Financial Management Executive Session and Professional
                                                                                            Development Institute tradeshow booth).

   Secretary of the Air Force Michael W. Wynne and John Vonglis are briefed on the
 new Air Force Financial Services Center operations at Ellsworth Air Force Base, S.D.
                                                                                        •   The Budget Transformation Operation (BTO) team was suc-
                                                                                            cessful in evolving the budget execution process by elimi-
                                                                                            nating the cumbersome ﬁnancial plan and replacing it with
 •     The AFSO21 lane began operations in October 2006. Since
                                                                                            a streamlined execution plan. Additionally, their efforts are
       then, the team has held numerous continual process improve-
                                                                                            changing a culture by shifting focus from being reactive in-
       ment events encompassing transparency, decision support,
                                                                                            formation providers to proactive problem solvers. The BTO
       and customer support processes. This progress has helped                             lane is also fully engaged in redoing the funding process and
       enable the Air Force and SAF/FM in their efforts to revitalize                       justiﬁcation books.
       the Air Force weapon system inventory.




14
•   A state-of-the-art ﬁnancial management system that serves                    cal reports, and to maintain accountability over the assets,
    the Air Force and U.S. Transportation Command came to                        including nonappropriated fund activities.
    fruition on August 3, 2007, when the DEAMS Increment
    1 was successfully ﬁelded at Scott AFB, Ill. DEAMS will                  •   Programs and administrative and operating functions are
    replace several antiquated systems, considerably reducing the                efﬁciently and effectively carried out in accordance with
    time to process and track ﬁnancial transactions.                             applicable law and management policy.

•   These transformation efforts are enabling us to change the
                                                                             •   The internal control process emphasized prevention of
    way FM does business in order to meet the current chal-
                                                                                 waste, fraud, and mismanagement along with timely correc-
    lenges and needs of the Air Force.
                                                                                 tion of internal control weaknesses.

Objective of Internal Controls                                               Internal Control Program
Air Force Financial Management Transformation, however, must
                                                                             Accomplishments and Highlights
be based on management integrity. To this end, we have put in
                                                                             The Federal Managers’ Financial Integrity Act (FMFIA) imple-
place robust internal controls. The objectives of the system of
                                                                             mentation in the Air Force rests on a solid general control envi-
internal accounting and administrative control of the Department
                                                                             ronment supported by positive endorsement from top manage-
of the Air Force are to provide reasonable assurance that:
                                                                             ment. FY 2007 was a year of strong internal control activity as
                                                                             our ﬁnancial managers continued to integrate their job oversight
                                                                             responsibilities with the internal control program’s evaluation
                                                                             procedures. Using pervasive technologies, Air Force Major Com-
                                                                             mands increased distribution of internal control information on
                                                                             their force-wide available Web sites. For example, the Air Force
                                                                             Space Command established an Internal Control Program Web
                                                                             page on the Air Force Portal that provides links to applicable
                                                                             regulations, document templates, a 27 page PowerPoint training
                                                                             brieﬁng, and a by-name list of internal control program coordi-
                                                                             nators for the centers, wings, and headquarters. The Web page
                                                                             is continuously updated to ensure that its content is both current
                                                                             and user friendly. This site provides every level throughout the
Mr. John Vonglis, the Principal Deputy Assistant Secretary of the AF (FM),
                                                                             command with the tools needed to manage and assess controls.
            poses with the staff of the Realigned ALO-FMA at Offutt AFB.     This training has increased program awareness, reduced training
                                                                             expenses, enhanced efﬁciency, and gained the active participa-
•   Obligations and costs comply with applicable law.                        tion of personnel at all levels.

•   Funds, property, and other assets are safeguarded against                During FY 2007, we continued to implement new program
    waste, loss, unauthorized use, and misappropriation.                     requirements directed in DOD Instruction 5010.40, Managers’
                                                                             Internal Control Program Procedures, in response to revised
•   Revenues and expenditures applicable to Air Force opera-
                                                                             guidance in OMB Circular A-123, Management’s Responsibility
    tions are properly recorded and accounted for to permit the
                                                                             for Internal Control. The revised guidance included additional
    preparation of accounts and reliable ﬁnancial and statisti-
                                                                             requirements to speciﬁcally address establishing and assessing




                                                                                                                                                15
 internal controls over ﬁnancial statement reporting. It also re-     The Air Force Working Capital Fund (AFWCF) is a revolving fund
 quired the establishment of a senior assessment team to provide      established to meet the diverse weapon system sustainment require-
 direction and oversight for the assessments. The Ofﬁce of the Un-    ments for the Air Force, Army, Navy and Foreign Military operating
 der Secretary of Defense/Comptroller (OUSD/C) directed that our      forces. Under the revolving fund concept, an appropriation or trans-
 review encompass speciﬁc key focus areas material to DoD and         fer of funds ﬁnances initial AFWCF operations. General/appropri-
 the effectiveness of key business process internal controls, which   ated fund payments from customers for goods delivered or services
 signiﬁcantly affect ﬁnancial reports. During this year we docu-      performed subsequently replenish this initial working capital invest-
 mented the required processes, performed risk analysis, developed    ment and sustain a continuous cycle of operations, minimizing the
 swim-lane ﬂowcharts, and analyzed existing internal controls for     need for aditional annual appropriations from Congress.
 the required focus areas. Based on this year’s review effort, we
 identiﬁed seven material weaknesses that were briefed to the Air     Air Force Working Capital Fund (WCF) Overview
 Force Senior Assessment Team and approved to be included in the      Air Force Materiel Command (AFMC) supports Air Force war-
                                                                      ﬁghters and operations via four major business areas that operate as
 Secretary’s Annual Statement of Assurance. The speciﬁc focus
                                                                      revolving funds, (i.e., providers charge users for the goods and ser-
 areas we documented will grow through a continuous cycle; new
                                                                      vices provided). AFMC accounts for more than 90 percent of WCF
 areas included each ﬁscal year until all ﬁnancial statements and
                                                                      revenue and expense activity (excluding the Transportation WCF,
 the processes throughout ﬁnancial reporting are included. For
                                                                      which is managed by the United States Transportation Command).
 more about these efforts, we will next look at the operations and
                                                                      The AFMC managed WCF consists of two functions: Supply
 efﬁciencies of the Air Force Working Capital Fund.
                                                                      Management and Depot Maintenance. These functions, referred to
                                                                      as activity groups, supply singular goods and services to Air Force
                                                                      and Department of Defense (DoD) customers as well as customers
 Air Force Working                                                    outside the DoD, such as local and foreign governments. Supply
                                                                      Management expedites repair, replenishment, and inventory control
 Capital Fund                                                         for spare parts and associated logistics support services to fulﬁll
                                                                      AF needs during war and peacetime. Depot Maintenance provides
                                                                      economical and responsive repair, overhaul, and modiﬁcation of
                                                                      aircraft, missiles, engines, and other major end items and associat-
                                                                      ed components. The Information Services business area was closed
                                                                      effective March 31, 2007, and no longer operates under the WCF.

                                                                      WCFs allow the Air Force to accomplish the following:

                                                                      •   Ensure readiness through reduced support costs, stabilized
                                                                          rates, and customer service
                                                                      •   Provide ﬂexibility to adjust customer support needs in re-
                                                                          sponse to real-world situations
                                                                      •   Focus management attention on net results, including costs
                                                                          and performance
                                                                      •   Identify the total cost of providing support products and
 Airman 1st Class Mark Drennen checks an AIM-120 missile on an F-16       services
                                                   Fighting Falcon.
                                                                      •   Establish strong customer/provider relationships




16
                                                                        signiﬁcant cost savings. Additionally, each division concentrates
Supply Management Activity Group
                                                                        its efforts in a speciﬁc area of expertise.
The Supply Management Activity Group (SMAG) provides
policy, guidance, and resources to meet Air Force needs for spare
                                                                        The GSD items support installation maintenance, administrative
parts. SMAG manages approximately 2 million items including
                                                                        functions, and ﬁeld and depot maintenance of aircraft and other
weapon systems spare parts, medical/dental supplies and equip-
                                                                        systems. GSD supports AF installations throughout the world.
ment, and items used for non-weapon systems applications.
Material procured from vendors held in inventory is for sale to
                                                                        The Surgeon General of the AF is responsible for the overall
authorized customers. The SMAG consists of four divisions: Ma-
                                                                        management of the Medical/Dental Division. This peacetime
terial Support Division (MSD), General Support Division (GSD),
                                                                        operating authority provides the effective support necessary to
Medical/Dental Division, and United States Air Force Academy
                                                                        maintain established norms in the health care of USAF active
Cadet Issue Division. AFMCmanages MSD and GSD. Headquar-
                                                                        military, retirees, and family members. This division’s war reserve
ters, United States Air Force, manages the Medical/Dental Divi-
                                                                        material (WRM) requirement is to provide medical supplies and
sion and the Air Force Academy Cadet Issue Division.
                                                                        equipment vital to support forces in combat and contingency
                                                                        operations.
The MSD is responsible for depot level reparable spare parts
managed by the Air Force along with some consumable spares.
                                                                        The United States Air Force Academy Cadet Issue Division
The principal products of MSD are serviceable spare parts and
                                                                        ﬁnances the purchase of uniforms, uniform accessories, and com-
assemblies unique to AF weapon systems.
                                                                        puters for sale to cadets. The division’s customer base includes
                                                                        more than 4,000 cadets who receive distinctive uniforms procured
                                                                        from a number of domestic manufacturers.

                                                                        Customers, Products, and Services
                                                                        In addition to managing various inventories, SMAG provides a
                                                                        wide range of logistics support services, including requirements
                                                                        forecasting, item introduction, cataloging, provisioning, procure-
                                                                        ment, repair, technical support, data management, item disposal,
                                                                        distribution management, and transportation. SMAG provides
                                                                        this support to a variety of customers. The supply business also
                                                                        provides initial provisioning support to the AF Acquisition Execu-
                                                                        tive.


                                                                        SMAG Transformation Initiatives
           The U.S. Air Force Demonstration Squadron, “Thunderbirds.”   The AF has undertaken a fundamental redesign of supply chain
                                                                        management processes as part of the Expeditionary Logistics for
The WCF Retail Operations consist of the General Support,               the 21st Century (eLog21) effort to transform AF logistics. SMAG
Medical/ Dental, and United States Air Force Academy divisions.         processes have been, and will continue to be, profoundly impacted
Although each division operates independently, all purchase large       as previous Purchasing and Supply Chain Management (PSCM) and
quantities of commodities in order to sell small quantities directly    Weapon System Supply Chain Management (WSSCM) initiatives
to the ultimate consumer—the warﬁghter. Large bulk buys allow           are woven into an overarching strategy to transform organizations,
the Air Force to take advantage of economies of scale and achieve       processes, and information technology supporting warﬁghter supply




                                                                                                                                            17
 requirements. HQ USAF leads the process of deﬁning and imple-              discussed, the CSAF decided that the GLSC will be a direct
 menting an enterprise resource planning tool under the Expedition-         reporting unit under the AFMC commander, and high-level
 ary Combat Support System (ECSS) development. And AFMC                     GLSC functions have been documented in AF Program Ac-
 is charged with heading up the formation of the Global Logistics           tion Directive 07-01.
 Support Center (GLSC) and the Centralized Asset Management
 (CAM) ofﬁce, both of which will centralize key resource planning
 and execution processes with the goal of bringing an enterprise
 perspective to weapon system sustainment activities. The major
 pillars of the AF’s supply chain transformation are brieﬂy
 described below.

 •   eLog21 is the AF logistics road map to
     transformation and offers vast improve-
     ments to the effectiveness (and costs) as-
     sociated with logistics support to combat
     forces. Through eLog21, AF leaders aim to cut
     across stovepipes, eliminating burdensome legacy
     processes and systems used AF-wide. The eLog21
     vision is to provide an integrated AF-wide logistics
     system that delivers consistent capabilities to the war-
     ﬁghter in a ﬂexible, scalable, modular, and expeditious
     manner; a system that exploits our nation’s total capabili-
     ties in the most cost-effective manner.                           Staff Sgt. Shannon Hughes (left) hands Senior Airman Damon Johnson a
                                                                        tool as they work on an A-10 Thunderbolt II during its phase inspection.

 •   ECSS is a commercial off-the-shelf (COTS)–based technol-          Customer Support Performance Measures
     ogy solution that will enable a seamless ﬂow of information       Mission Capable (MICAP) and Customer Wait Time (CWT) mea-
     across the entire AF logistics community through a compre-        sures allow managers to assess the quality of spares support provided
     hensive set of integrated IT modules. ECSS will create an         and plan corrective action when needed. MICAP hours are accrued
     AF-wide solution that exploits current technology and creates     when a weapon system’s mission capability is affected by parts that
     an integrated data environment. It will consist of separate but   are on backorder to a wholesale source of supply. For every day dur-
     integrated modules ranging from ﬁnance and purchasing to or-      ing the month that the requisition is unﬁlled, 24 hours are assigned to
     der management and bill of materials as well as other logistics   the requisition. CWT measures the average time elapsed—expressed
     functions—all accessible via the AF portal. ECSS will be a        in days—between customer order and satisfaction of that order, in-
     critical enabler for the GLSC when fully operational.             cluding the wait time backorder. MICAP hours for AFMC-managed
                                                                       items have improved signiﬁcantly since 1999. MSD items accrued
 •   The AF GLSC will own the USAF supply chain. GLSC’s                an average of 5 million monthly MICAP hours during calendar year
     mission is to merge wholesale and retail logistics as well        2000. That number dropped to 1.3 million hours for the 12 month
     as integrate and oversee all logistics processes, technology,     period ending in April 2007. CWT is a newer metric, but has also
     and resources in order to deliver end-to-end supply chain         shown a signiﬁcant improvement. The monthly average CWT for
     management capabilities to the warﬁghter. While GLSC              MSD items during FY 2004 was 7.4 days. For the period from May
     organizational structure and relationships are still being        2006 to April 2007, the number dropped to 5.5 days.




18
2007 Financial Performance Measures                                   Customers, Products, and Services
SMAG measures ﬁnancial performance based on the Net Operat-           DMAG provides major overhaul and repair of systems and spare
ing Result (NOR) for MSD and GSD. The NOR is the difference           parts while striving to meet or exceed required standards for qual-
between revenue and expenses, i.e., a bottom-line proﬁt and loss      ity, timeliness, and cost. Both AFMC depots and contract opera-
indicator. The NOR objective of an activity group is to break even    tions accomplish these goals.
over the budget cycle. Setting rates that effectively offset prior
year net proﬁt or loss and break even for new activity in the rate-   DMAG supports a variety of customers including Air Force
setting year accomplishes this objective. Revenues are amounts        Major Commands, Air National Guard (ANG), Air Force Reserve
earned as a result of normal operations and usually derive from       Command (AFRC), SMAG, Foreign Military Sales, and non-DoD
sale of, or reimbursements for, goods and services provided to        customers. Additionally, DMAG provides storage, reclamation,
DoD activities, other federal government agencies, and the public.    and regeneration of equipment not currently used by the military
Expenses are the use of resources during an accounting period         services. This work is done at the Aerospace Maintenance and Re-
in carrying out the DoD’s mission. The objective is to provide        generation Group at Davis-Monthan AFB, Arizona. Contract de-
needed goods and services to customers while generating the rev-      pot maintenance is transitioning from the AFWCF to be ﬁnanced
enue required to sustain continued operations within the activity.    directly by the using commands, SMAG, and other customers.

                                                                      DMAG has two principal objectives. The ﬁrst is to provide
Depot Maintenance Activity Group                                      organic depot repair capability for ﬁelded and emerging weapon
The Depot Maintenance Activity Group (DMAG) ensures suc-
                                                                      systems so that warﬁghters have mission-essential equipment.
cessful management and execution of comprehensive depot
                                                                      The second DMAG objective is to ensure its ability to rapidly
maintenance programs for AF-managed equipment in accordance
                                                                      respond to those warﬁghter requirements driven by contingency
with existing AF guidance. In peacetime, DMAG enhances readi-
                                                                      operations. To accomplish this, short- and long-term strategies
ness by efﬁciently and economically repairing, overhauling, and
                                                                      must be used. The Depot Maintenance Strategic Plan guides the
modifying aircraft, engines, missiles, components, and software
                                                                      DMAG to have the right work-load capacity and capability to
to meet warﬁghter demands. During wartime or contingencies, the
                                                                      meet depot maintenance in the following areas: peacetime sup-
group shifts to surge repair op-erations and realigns capacity to
                                                                      port, surge, and core requirements. To better support the services
support the warﬁghter’s immediate needs.
                                                                      that DMAG provides to its customers, an integrated suite of
                                                                      systems—the Depot Maintenance Accounting and Production
                                                                      Systems (DMAPS)—provides improved ﬁnancial, production,
                                                                      and material functionality in support of the warﬁghter’s needs
                                                                      for quality organic depot maintenance. This includes improved
                                                                      ﬁnancial management support/tools and reporting for organic
                                                                      depot maintenance activities, to include substantial compliance
                                                                      with legislative requirements such as the CFO Act.

                                                                      Transformation Initiatives
                                                                      As pointed out previously, AFSO21 is the overarching program
                                                                      to facilitate the process improvement culture that encompasses
                                                                      all transformation efforts. Process improvement activities have
                                                                      reduced ﬂow days and backlogs and have avoided costs, thus
                                                                      increasing equipment availability to the warﬁghter and reducing
                     Depot-level maintenance on a KC-135 Airframe.




                                                                                                                                      19
 operating costs in support of eLog21 and Aircraft Availability                 The Due Date Performance (the ability of the depot to provide
 Improvement Program (AAIP) goals. AAIP identiﬁes airframe-                     aircraft on time) is currently exceeding the standard of 95 percent,
 speciﬁc goals for availability and cost and identiﬁes supporting               holding at 97 percent as of June 2007. The depot performance of
 improvement initiatives. Developed by the System Program Man-                  Air Logistics Centers (ALCs) continues to have a direct impact
 ager in partnership with the Lead MAJCOMs, AAIP plans are a                    on the warﬁghter’s ability to meet worldwide missions.
 collection of initiatives with sponsors from across the Air Force
 all focused on improving availability and reducing cost.                       Financial Performance Measures
                                                                                Financial performance measures assess the ﬁnancial performance
 The primary improvement methodologies have been Lean and                       of the DMAG. These measures are designed to achieve account-
 Critical Chain Project Management (CCPM). These methodolo-                     ability at the appropriate level and also measure compliance with
 gies have been the main enablers in reducing backlogs through                  DMAG budget objectives. Budget objectives are identiﬁed in
 eliminating waste and increasing ﬂow. CCPM has reduced aircraft                each ALC ﬁnancial performance plan and are used to measure
 ﬂow days in Programmed Depot Maintenance (PDM) through                         results during execution.
 better management of resources and schedule times.
                                                                                Cash Management
 Additionally, DMAG has been actively supporting SMAG                           DoD cash management policy recommends maintaining the mini-
 through initiatives such as GLSC and Repair Enterprise 21                      mum cash balance necessary to meet both operational require-
 (RE21). RE21 is an enterprise-wide, single repair network sup-                 ments and disbursements in support of the capital program. Cash
 porting a single supply chain through centralizing intermediate                generated from operations is the primary means of maintaining
 repair; it will be managed through GLSC.                                       adequate cash levels. Effective cash management depends directly
                                                                                on the availability of accurate and timely data on cash levels and
 Customer Support Performance Measures                                          operational results. Cash levels should be maintained to cover at
 Customer support performance measures for DMAG consist                         least 7 to 10 days of operational costs as well as levels adequate
 primarily of production performance measures which are used to                 to meet 6 months of capital disbursements.
 assess cost, schedule, and quality of the DMAG output. We have
 designed these measures to achieve accountability at the appropri-             Cash management efforts continue to focus on analyzing data,
 ate depot maintenance level—the Depot Maintenance Manager.                     developing tools to identify changes in cash, and forecasting
 Customer support performance measures monitor progress toward                  future needs for cash. Each month, AFMC prepares a statement
 DMAG goals.                                                                    of sources and uses of cash. These statements are used to identify
                                                                                areas of cash increases and drains to monitor performance against
                                                                                the recommended policy.


                                                                                Centralized Asset Management (CAM) and
                                                                                Global Logistics Support
                                                                                CAM is focused on improving how AF manages sustainment
                                                                                resources across the enterprise. It will optimize support in steady
                                                                                state and expeditionary operations. Under the CAM construct,
                                                                                AFMC will assume planning, programming, budgeting, and
                                                                                execution responsibility for Depot Purchased Equipment Main-
                                                                                tenance (DPEM), Depot-Level Reparable (DLR), Sustainment
 Tech. Sgt. Rosits, a member of the 332nd Air Expeditionary Wing honor guard,   Engineering (Sust Eng), Technical Orders (TOs), Contractor
 holds the American Flag during a change-of-command at Balad Air Base, Iraq.




20
Logistics Support (CLS), Aviation Petroleum Oil and Lubricants           1917, U.S. aircraft were ﬂying in combat. Within 25 years, all
(AVPOL), Flying Hour (FH) Consumables, and Support Equip-                of the magniﬁcent aircraft that would win all of the air wars of
ment (Supp Equip).                                                       World War II were operational. And less than 15 years after that,
                                                                         the very ﬁrst uniquely US Air Force airplanes, both what we now
                                                                         know as the C-130 and the B-52, were ﬂying—as they are today.
“Air dominance is something we earned for
                                                                         In 1958, no American had been in space, but of course by 1969
the last 50 years, and we intend to retain it.”                          we had put men on the moon.
Secretary of the Air Force Michael Wynne
                                                                         Today we must—for our troops on the ground and in the larger
                                                                         sense for the security of our country—dominate air, space, and
                                                                         cyberspace. This requires not gradual, linear change but innova-
Financing the Fight                                                      tive and constant transformation. The entire Air Force is called
                                                                         upon to undertake this challenge, and America’s Airmen are
                                                                         responding with characteristically stellar performance.
We face an uncertain world with asymmetric threats to our sover-
eignty and security. We must come to accept that the technology          Enabling our Airmen also requires the greatest and most effec-
as well as the manner and means of warﬁghting in defense of              tive use of the resources of this great country. Air Force Financial
America are changing, and that the changes are not gradual but           Management professionals bear this in mind around the world,
exponential. This is particularly true of understanding air, space,      day and night. They are the best stewards of those resources that
and cyberspace power. As we survey the past, consider this: The          could be wished by any country at any time. They are, indeed,
then-Army Signal Corps purchased its ﬁrst airplane in 1905. By           Financing the Fight.




                      An E-3 Sentry Airborne Warning and Control System sits on the flightline at a forward-deployed location in Southwest Asia.




                                                                                                                                              21
22
Fiscal Year 2007
Annual Financial Statements




                              Fiscal Year 2007—Annual Financial Statements




                                                23
     Limitations to the
     Financial Statements




      Limitations to the Financial Statements
      The principal financial statements have been prepared to report the financial position and re-
      sults of operations of the entity, pursuant to the requirements of Title 31, United States Code,
      Section 3515 (b). While the statements have been prepared from the books and records of
      the entity, in accordance with Generally Accepted Accounting Principles for Federal enti-
      ties and the formats prescribed by Office of Management and Budget, the statements are in
      addition to the financial reports used to monitor and control budgetary resources which are
      prepared from the same books and records. The statements should be read with the realiza-
      tion that they are for a component of the U.S. Government, a sovereign entity.




24
General Fund
Principal Statements
Fiscal Year 2007
The FY 2007 Department of the Air Force General Fund Principal Statements and related
notes are presented in the format prescribed by the Department of Defense Financial Man-
agement Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
financial information for individual activity groups and activities within the General Fund
for the fiscal year ending September 30, 2007, and are presented on a comparative basis with
information previously reported for the fiscal year ending September 30, 2006.

The following statements comprise the Department of the Air Force General Fund Principal
Statements:

• Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2007 and 2006 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position).

• Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2007 and 2006. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from Air
Force activities.

• Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,




                                                                                                  General Fund—Principal Statements
2007 and 2006.

• Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available
to the Air Force during FY 2007 and 2006, the status of these resources at September 30, 2007
and 2006, and the outlay of budgetary resources for the years ended September 30, 2007 and
2006.

The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”




                                                                                                       25
               General Fund
               Principal Statements




Consolidated Balance Sheet - General Fund
As of September 30, 2007 and 2006 ($ in thousands)

                                                                           2007                       2006
                                                                        Consolidated               Consolidated


1. ASSETS (NOTE 2)
     A. Intragovernmental:
       1. Fund Balance with Treasury (Note 3)
          a. Entity                                                 $          80,031,552      $           68,767,178
          b. Non-Entity Seized Iraqi Cash                                                 0                          0
          c. Non-Entity-Other                                                      94,844                     80,989
       2. Investments (Note 4)                                                          823                        722
       3. Accounts Receivable (Note 5)                                            388,823                    665,672
       4. Other Assets (Note 6)                                                   423,952                    454,968
       5. Total Intragovernmental Assets                            $          80,939,994      $           69,969,529
     B. Cash and Other Monetary Assets (Note 7)                     $             107,908      $             114,779
     C. Accounts Receivable, Net (Note 5)                                         545,796                   1,041,746
     D. Loans Receivable (Note 8)                                                         0                          0
     E. Inventory and Related Property, Net (Note 9)                           46,335,059                  48,584,335
     F. General Property, Plant and Equipment, Net (Note 10)                  143,257,880                 141,861,111
     G. Investments (Note 4)                                                              0                          0
     H. Other Assets (Note 6)                                                  10,448,818                  11,379,126
2. TOTAL ASSETS                                                     $         281,635,455      $          272,950,626
3. LIABILITIES (NOTE 11)
     A. Intragovernmental
       1. Accounts Payable (Note 12)                                $           1,509,631      $            1,425,771
       2. Debt (Note 13)                                                                  0                          0
       3. Other Liabilities (Note 15 & 16)                                      2,033,326                   2,258,259
       4. Total Intragovernmental Liabilities                       $           3,542,957      $            3,684,030
     B. Accounts Payable (Note 12)                                  $           3,189,763      $            4,269,732
     C. Military Retirement and Other Federal Employment Benefits               1,137,016                   1,143,748
        (Note 17)
     D. Environmental and Disposal Liabilities (Note 14)                        6,898,867                   6,554,952
     E. Loan Guarantee Liability (Note 8)                                                 0                          0
     F. Other Liabilities (Note 15 & Note 16)                                   6,081,496                   6,253,108
4. TOTAL LIABILITIES                                                $          20,850,099      $           21,905,570
5. NET POSITION
     A. Unexpended Appropriations - Earmarked Funds (Note 23)       $                     0    $                     0
     B. Unexpended Appropriations - Other Funds                                80,465,487                  70,186,333
     C. Cumulative Results of Operations - Earmarked Funds                             4,548                      4,540
     D. Cumulative Results of Operations - Other Funds                        180,315,321                 180,854,183
6. TOTAL NET POSITION                                               $         260,785,356      $          251,045,056
7. TOTAL LIABILITIES AND NET POSITION                               $         281,635,455      $          272,950,626




26
                                                                                       General Fund
                                                                                      Principal Statements




Consolidated Statement of Net Cost - General Fund
As of September 30, 2007 and 2006 ($ in thousands)

                                                                2007                          2006
                                                             Consolidated                  Consolidated


1. Program Costs (Note 18)
  A. Gross Costs                                         $         142,462,370    $               142,378,997
  B. (Less: Earned Revenue)                                          -5,715,540                    -5,320,847
  C. Net Program Costs                                   $         136,746,830    $               137,058,150
2. Cost Not Assigned to Programs                                             0                               0
3. (Less: Earned Revenue Not Attributable to Programs)                       0                               0
4. Net Cost of Operations                                $         136,746,830    $               137,058,150




                                                                                                             27
               General Fund
               Principal Statements




Consolidated Statement of Changes in Net Position - General Fund
As of September 30, 2007 and 2006 ($ in thousands)

                                                                   2007                    2007                    2007
                                                              Earmarked Funds        All Other Funds           Eliminations

CUMULATIVE RESULTS OF OPERATIONS (Note 19)
1. Beginning Balances                                         $          4,540   $        180,854,184      $                  0
2. Prior Period Adjustments
	 A. Changes in accounting principles (+/-)                                 0                          0                      0
	 B. Corrections of erros (+/-)                                             0                          0                      0
3. Beginning balances, as adjusted                            $          4,540   $        180,854,184      $                  0
4. Budgetary Financing Sources
	 A. Other adjustments (rescissions, etc.)                                  0                          0                      0
	 B. Appropriations used                                                    0             136,203,035                         0
	 C. Nonexchange revenue                                                  928                          5                      0
	 D. Donations and forfeitures of cash and cash equivalents              1,843                         0                      0
	 E. Transfers-in/out without reimbursement                                 0                 282,000                         0
	 F. Other budgetary financing sources                                      0                          0                      0
5. Other Financing Sources
	 A. Donations and forfeitures of property                                  0                          0                      0
	 B. Transfers-in/out without reimbursement (+/-)                           0                 261,389                         0
	 C. Imputed financing from costs absorbed by others                        0                 724,671                         0
	 D. Other (+/-)                                                            0              -1,265,895                         0
6. Total financing Sources                                    $          2,771   $        136,205,205      $                  0
7. Net Cost of Operations (+/-)                                          2,765            136,744,066                         0
8. Net Change                                                               6                -538,861                         0
9. Cumulative Results of Operations                                      4,546            180,315,323                         0


UNEXPENDED APPROPRIATIONS
10. Beginning Balances                                        $                  $         70,186,334      $                  0
11. Prior Period Adjustments
     	 A. Changes in accounting principles                                  0                          0                      0
     	 B. Corrections of errors                                             0                          0                      0
12. Beginning balaces, as adjusted                            $             0    $         70,186,334      $                  0
13. Budgetary Financing Sources
     	 A. Appropriations received                                           0             147,671,923                         0
     	 B. Appropriations transferred-in/out                                 0                 579,271                         0
     	 C. Other adjustments (recissions, etc)                               0              -1,769,006                         0
  	 D. Appropriations used                                                  0            -136,203,035                         0
14. Total Budgetary Financing sources                                       0              10,279,153                         0
15. Unexpended Appropriations                                               0              80,465,487                         0
16. Net Position                                              $          4,546   $        260,780,810      $                  0




28
                                                                                            General Fund
                                                                                           Principal Statements




       2007                 2006                    2006                    2006                       2006
    Consolidated       Earmarked Funds        All Other Funds           Eliminations                Consolidated



$       180,858,724    $          5,451   $        161,338,650      $                  0        $       161,344,101


                   0                 0                          0                      0                           0
                   0                 0              19,309,311                         0                 19,309,311
$       180,858,724    $          5,451   $        180,647,961      $                  0        $       180,653,412


                   0                 0                          0                      0                           0
        136,203,035              -1,251            132,720,187                         0                132,718,936
               933                 877                          0                      0                        877
              1,843               1,779                         0                      0                      1,779
           282,000                   0                 106,784                         0                    106,784
                   0                 0                          0                      0                           0


                   0                 0                          0                      0                           0
           261,389                   0                  46,239                         0                     46,239
           724,671                   0                 698,815                         0                    698,815
         -1,265,895                  0               3,690,030                         0                  3,690,030
$       136,207,976    $          1,405   $        137,262,055      $                  0        $       137,263,460
        136,746,831               2,316            137,055,834                         0                137,058,150
           -538,855                -911                206,221                         0                    205,310
        180,319,869               4,540            180,854,182                         0                180,858,722




$        70,186,334    $         -1,251   $         63,717,889      $                  0        $        63,716,638


                   0                 0                          0                      0                           0
                   0                 0                          0                      0                           0
$        70,186,334    $         -1,251   $         63,717,889      $                  0        $        63,716,638


        147,671,923                  0             139,764,959                         0                139,764,959
           579,271                   0               2,469,906                         0                  2,469,906
         -1,769,006                  0              -3,046,233                         0                 --3,046,233
       -136,203,035               1,251           -132,720,187                         0               -132,718,936
         10,279,153               1,251              6,468,445                         0                  6,469,696
         80,465,487                  0              70,186,334                         0                 70,186,334
$       260,785,356    $          4,540   $        251,040,516      $                  0        $       251,045,056




                                                                                                                   29
                 General Fund
                 Principal Statements




    Combined Statement of Budgetary Resources - General Fund
    As of September 30, 2007 and 2006 ($ in thousands)
                                                                                           2007                          2006
                                                                                         Combined                      Combined
BUDGETARY FINANCING ACCOUNTS (Note 20)
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                   $               17,112,927    $               13,006,208
2. Recoveries of prior year unpaid obligations                                                        3,921,941                     1,450,906
3. Budget authority
   A. Appropriation                                                                                 147,674,697                   139,767,610
   B. Borrowing authority                                                                                     0                             0
   C. Contract authority                                                                                      0                             0
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                                10,237,677                     9,255,190
         b. Change in receivables from Federal sources                                                 -517,749                       -99,279
      2. Change in unfilled customer orders
         a. Advance received                                                                            376,618                       -94,677
         b. Without advance from Federal sources                                                        250,810                      -102,493
      3. Anticipated for rest of year, without advances                                                       0                             0
      4. Previously unavailable                                                                               0                             0
      5. Expenditure transfers from trust funds                                                               0                             0
   E. Subtotal                                                                       $              158,022,053    $              148,726,351
4. Nonexpenditure transfers, net, anticipated and actual                                                861,271                     2,576,690
5. Temporarily not available pursuant to Public Law                                                           0                             0
6. Permanently not available                                                                         -1,769,006                    -3,046,233
7. Total Budgetary Resources                                                         $              178,149,186    $              162,713,922
STATUS OF BUDGETARY RSOURCES:
8. Obligations incurred:
   A. Direct                                                                         $              146,524,833    $              136,439,546
   B. Reimbursable                                                                                   10,449,009                     9,161,449
   C. Subtotal                                                                                      156,973,842                   145,600,995
9. Unobligated balance:
   A. Apportioned                                                                                    18,573,839                    14,998,616
   B. Exempt from apportionment                                                                           3,271                         3,174
   C. Subtotal                                                                                       18,577,110                    15,001,790
10. Unobligated balance not available                                                                 2,598,234                     2,111,137
11. Total status of budgetary resources                                              $              178,149,186    $              162,713,922
CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                                                53,989,101                    51,840,781
    B. Less: Uncollected customer payments from Federal sources, brought forward,    $               -2,633,723    $               -2,835,497
       October 1
     C. Total unpaid obligated balance                                                               51,355,378                    49,005,284
13. Obligations incurred net (+/-)                                                   $              156,973,842    $              145,600,995
14. Less: Gross outlays                                                                             -146,107,640              -142,001,769
15. Obligated balance transferred, net
     A. Actual transfers, unpaid obligations (+/-)                                                            0                            0
     B. Actual transfers, uncollected customer payments from Federal sources (+/-)                            0                            0
     C. Total Unpaid obligated balance transferred, net                                                       0                            0
16. Less: Recoveries of prior year unpaid obligations, actual                        $                -3,921,941   $               -1,450,906
17. Change in uncollected customer payments from Federal sources (+/-)                                  266,938                      201,773
18. Obligated balance, net, end of period
	    A. Unpaid obligations                                                                           60,933,360                    53,989,101
	    B. Less: Uncollected customer payments (+/-) from Federal sources (-)                            -2,366,785                   -2,633,723
	    C. Total, unpaid obligated balance, net, end of period                                          58,566,575                    51,355,378
NET OUTLAYS
19. Net Outlays:
     A. Gross outlays                                                                $              146,107,640    $              142,001,769
    B. Less: Offsetting collections                                                                 -10,614,293                    -9,160,512
    C. Less: Distributed Offsetting receipts                                                           -140,980                      -185,423
20. Total Net Outlays                                                                $              135,352,367    $              132,655,834




30
                                                                                           TITLE
                                                                                           Sub Title




General Fund
Fiscal Year 2007
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair pre-
sentation of the financial statements that is not displayed on the face of the financial
statements.




                                                                                               General Fund—Notes to the Principal Statements




                                                                                                         31
           General Fund
           Notes to the Principal Statements




Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Air Force, as
required by the “Chief Financial Officers Act of 1990,” expanded by the “Government Management Reform Act of 1994,”
and other appropriate legislation. The financial statements have been prepared from the books and records of the Air Force
in accordance with the “Department of Defense Financial Management Regulation”, Office of Management and Budget
(OMB) Circular A-136, “Financial Reporting Requirements,” and to the extent possible generally accepted accounting
principles (GAAP). Effective 4th Quarter, Fiscal Year (FY) 2006, the DoD no longer publishes consolidating/combining fi-
nancial statements. The accompanying financial statements account for all resources for which the Air Force is responsible,
unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated
and reported in such a manner that it is not discernable.

The Air Force is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations of its finan-
cial and nonfinancial management processes and systems that feed into the financial statements. The Air Force derives its
reported values and information for major asset and liability categories largely from nonfinancial systems, such as inven-
tory and logistic systems. These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing financial statements in accordance with
GAAP. The Air Force continues to implement process and system improvements addressing these limitations.

The Air Force incorporates internal controls, reconciliations, management by exception reports, and other management
control information into its accounting systems. When possible, the financial statements are presented on the accrual basis
of accounting, as required by federal accounting standards.

The Air Force currently has nine auditor identified financial statement material weaknesses: (1) financial and nonfinancial
feeder systems do not contain an adequate audit trail and other systems controls, (2) intragovernmental transactions cannot
be accurately identified by the customer, which is required for eliminations when preparing consolidated financial state-
ments, (3) operating materials and supplies may not be reported in the financial statements accurately, (4) the Air Force
needs additional controls over financial reporting for general property, plant and equipment (PP&E), (5) the value of the Air
Force government furnished and contractor acquired material is not accurately reported, (6) the amounts for environmental
liability may not be reliable due to lack of supporting documentation, (7) the Air Force has material amounts of accounting
adjustments that are not adequately supported, (8) the Statement of Net Cost is based on budgetary obligations, disburse-
ments and collections and may not report all actual cost, and (9) the Air Force is unable to reconcile budgetary obligations
to net cost in Note 21, “Reconciliation of Net Cost of Operations to Budget.” These findings are being addressed with cor-
rective actions in the Financial Improvement Plan.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established DoD and made the Air Force a department within DoD. The overall mission
of the Air Force is to deliver sovereign options for the defense of the United States of America and its global interests to fly
and fight in air, space and cyberspace.




32
                                                                                                         General Fund
                                                                                           Notes to the Principal Statements




1.C. Appropriations and Funds
The Air Force receives its appropriations and funds as general, working capital (revolving), trust, special, and deposit funds.
The Air Force uses these appropriations and funds to execute its missions and subsequently report on resource usage.

        yy General funds are used for financial transactions funded by congressional appropriations, including personnel,
           operations and maintenance, research and development, procurement, and military construction accounts.
        yy Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
           specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Certain
           trust and special funds may be designated as earmarked funds. Earmarked funds are financed by specifically
           identified revenues, required by statute to be used for designated activities, benefits or purposes, and remain
           available over time. Earmarked funds also have a requirement to account for and report on the receipt, use and
           retention of revenues and other financing sources that distinguish them from general revenues.
        yy Special fund accounts are used to record government receipts reserved for a specific purpose.
        yy Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public
           entity. The Air Force is acting as an agent or custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a transferring (parent) entity and a receiv-
ing (child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and
outlay funds for another agency. Generally, all financial activity related to these allocation transfers (e.g. budget authority,
obligations, outlays) is reported in the financial statements of the parent entity. Exceptions to this general rule apply to spe-
cific funds for which OMB has directed that all activity be reported in the financial statements of the child entity. Excep-
tions include all U.S. Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds specifi-
cally designated by OMB.

The Air Force is a party to allocation transfers as the child for the Department of Agriculture.

The Air Force is a party to allocation transfers as the child for EOP (Foreign Military Sales – Military Assistance Program)
meeting the OMB exception. However, activities for this fund are reported in the DOD financial statements, not the Air
Force.

The Air Force allocates funds, as the parent, to the Department of Transportation.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. The Air Force accounts
consist of resources that are available for use in the operations of the entity. The Air Force is authorized to decide how to
use resources in entity accounts or may be legally obligated to use these resources to meet entity obligations. Nonentity
accounts, on the other hand, consist of assets that are held by an entity but that are not available for use in the operations of
the entity. The following is a list of the major Air Force account numbers and titles (all accounts are entity accounts unless
otherwise noted):

Air Force Account Number	               Title
57 * 0704	                              Military Family Housing (O&M and Construction), Air Force
57 * 0740	                              Military Family Housing (Construction), Air Force
57 * 0745	                              Military Family Housing (O&M), Air Force
57 * 0810	                              Environmental Restoration, Air Force


                                                                                                                               33
           General Fund
           Notes to the Principal Statements




57 * 1007	                            Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008	                            Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009	                            Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010	                            Aircraft Procurement, Air Force
57 * 3011	                            Procurement of Ammunition, Air Force
57 * 3020	                            Missile Procurement, Air Force
57 * 3080	                            Other Procurement, Air Force
57 * 3300	                            Military Construction, Air Force
57 * 3400	                            Operation and Maintenance (O&M), Air Force
57 * 3500	                            Military Personnel, Air Force
57 * 3600	                            Research, Development, Testing, and Evaluation (RDT&E), AF
57 * 3700	                            Personnel, Air Force Reserve
57 * 3730	                            Military Construction, Air Force Reserve
57 * 3740	                            Operation and Maintenance (O&M), Air Force Reserve
57 * 3830	                            Military Construction, Air National Guard
57 * 3840	                            Operation and Maintenance (O&M), Air National Guard
57 * 3850	                            Personnel, Air National Guard
57 X 5095	                            Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418	                            Air Force Cadet Fund
57 X 8928	                            Air Force General Gift Fund
57 * 3XXX (Incl Nonentity) 	          Budget Clearing Accounts
57 * 6XXX (Nonentity)	                Deposit Fund Accounts
57 **** (Nonentity)	                  Receipt Accounts

1.D. Basis of Accounting
For FY 2007, the Air Force’s financial management systems are unable to meet all of the requirements for full accrual ac-
counting. Many of the Air Force’s financial and nonfinancial feeder systems and processes were designed and implemented
prior to the issuance of GAAP for federal agencies. These systems were not designed to collect and record financial infor-
mation on the full accrual accounting basis as required by GAAP. Most of the Air Force’s financial and nonfinancial legacy
systems were designed to record information on a budgetary basis. However, some accounts such as civilian pay, military
pay and accounts payable are presented on the accrual basis of accounting on the financial statements, as required by federal
accounting standards.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder systems and
processes into compliance with GAAP. One such action is the current revision of its accounting systems to record transac-
tions based on the U.S. Standard General Ledger (USSGL). Until all of the Air Force’s financial and nonfinancial feeder
systems and processes are updated to collect and report financial information as required by GAAP, the Air Force’s financial
data will be derived from budgetary transactions (obligations, disbursements, and collections), transactions from nonfi-
nancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable, and environmental
liabilities.

In addition, DoD identifies program costs based upon the major appropriation groups provided by the Congress. Cur-
rent processes and systems do not capture and report accumulated costs for major programs based upon the performance
measures as required by the “Government Performance and Results Act.” The DoD is working towards a cost reporting


34
                                                                                                      General Fund
                                                                                        Notes to the Principal Statements




methodology that meets the need for cost information required by the Statement of Federal Financial Accounting Standards
(SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.”

1.E. Revenues and Other Financing Sources
The Air Force receives congressional appropriations as financing sources for general funds on either an annual or multi-
year basis. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods
or services. The Air Force recognizes revenue as a result of costs incurred for goods or services provided to other federal
agencies and the public. Full cost pricing is the Air Force’s standard policy for services provided as required by OMB Cir-
cular A-25, User Charges. The Air Force recognizes revenue when earned within the constraints of current system capabili-
ties. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and in Note 21, “Reconciliation of Net Cost of Operations to Budget.” The
U.S. has cost sharing agreements with other countries. Examples include countries where there is a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
However, because the Air Force’s financial and nonfinancial feeder systems were not designed to collect and record finan-
cial information on the full accrual accounting basis, accruals are made for major items such as payroll expenses, accounts
payable, environmental liabilities, and unbilled revenue. In the case of Operating Materials and Supplies (OM&S), op-
erating expenses are generally recognized when the items are consumed. In general, the Air Force uses the consumption
method of accounting for OM&S, since OM&S is defined in the SFFAS No. 3, “Accounting for Inventory and Related
Property,” as materiel that has not been issued to the end user.

1.G. Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within the DoD
or between two or more federal agencies. However, the Air Force cannot accurately eliminate intragovernmental transac-
tions by customer because the Air Force’s systems do not track at the transaction level. Generally, seller entities within the
DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side inter-
nal DoD accounting offices. In most cases, the buyer-side records are adjusted to agree with the DoD seller-side balances.
IntraDoD governmental balances are then eliminated. The volume of intragovernmental transactions is so large that after-
the-fact reconciliations cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing
long-term system improvements to ensure accurate intragovernmental information, to include sufficient up-front edits and
controls eliminating the need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other
federal agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Finan-
cial Report of the United States Government and the U.S. Treasury’s, Federal Intragovernmental Transactions Accounting
Policy Guide,” provide guidance for reporting and reconciling intragovernmental balances. While the Air Force is unable to
fully reconcile intragovernmental transactions with all federal partners, the Air Force is able to reconcile balances pertain-
ing to investments in federal securities, Federal Employees’ Compensation Act transactions with the Department of Labor,
and benefit program transactions with the Office of Personnel Management.



                                                                                                                            35
           General Fund
           Notes to the Principal Statements




The Department’s proportionate share of public debt and related expenses to the Federal Government are not included.
The Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements,
therefore, do not report any portion of the public debt or interest thereon, nor do the statements report the source of public
financing whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such interest costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the Air Force sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the U.S. Govern-
ment. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The Air Force’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of the De-
fense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Air Force’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on
check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, the DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records this information to the applicable Fund
Balance with Treasury (FBWT) account. Differences between the Air Force’s recorded balance in FBWT accounts and
U.S. Treasury’s FBWT accounts sometimes result and are subsequently reconciled.

1.J. Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported consist primarily
of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency accom-
modation exchange missions.

The Air Force conducts a significant portion of its operations overseas. The Congress established a special account to
handle the gains and losses from foreign currency transactions for five general fund appropriations: operations and mainte-
nance, military personnel, military construction, family housing operations and maintenance, and family housing construc-
tion. The gains and losses are computed as the variance between the exchange rate current at the date of payment and a
budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The Air Force does not separately identify
currency fluctuation transactions.




36
                                                                                                      General Fund
                                                                                        Notes to the Principal Statements




1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable include three categories: accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based upon
analysis of collection experience by fund type. The DoD does not recognize an allowance for estimated uncollectible
amounts from other federal agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business Rules published in the Treasury
Financial Manual at http://www.fms.treas.gov/tfm/vol1/07-03.pdf .

The allowance for the Air Force entity receivables is computed each quarter based on the average percent of write offs to
outstanding public accounts receivable for the last five years. Interest allowance is calculated using an average percent of
write offs to outstanding public accounts receivable over a five year period starting with FY 2002 data.

1.L. Direct Loans and Loan Guarantees
Not Applicable

1.M. Inventories and Related Property
Related property includes OM&S and stockpile materiels. The majority of OM&S, with the exception of munitions not
held for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses consumption method for OM&S in all cases.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the financial state-
ments and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as
OM&S rather than military equipment.

The Air Force recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal is greater
than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially redistributed materiel,
presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Re-
pair” categories according to its condition.

1.N. Investments
The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investment using the effective interest rate method or another method obtaining
similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to finance claims or other-
wise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Air Force invests in nonmarketable securities. The two types of nonmarketable securities are par value and market-
based intragovernmental securities. The Bureau of Public Debt issues nonmarketable par value intragovernmental securi-
ties. Nonmarketable, market-based intragovernmental securities mimic marketable securities, but are not publicly traded.

1.O. General Property, Plant and Equipment
The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” established GAAP for
valuing and reporting military equipment (e.g. ships, aircraft, combat vehicles, weapons) in federal financial statements.
The Standard provided for the use of estimated historical cost for valuing military equipment if obtaining actual historical


                                                                                                                              37
           General Fund
           Notes to the Principal Statements




cost information is not practical. The DoD used Bureau of Economic Analysis (BEA) to calculate the value of the military
equipment for reporting periods from October 1, 2002, through March 31, 2006.

Effective 3rd Quarter, FY 2006, the DoD replaced the BEA estimation methodology with one that is based on internal re-
cords for military equipment. The DoD identified the universe of military equipment by accumulating information relating
to program funding and associated military equipment, equipment useful life, program acquisitions, and disposals to create
a baseline. The military equipment baseline is updated using expenditure information and information related to acquisition
and disposals.

In FY 2006, the Air Force revised the real property capitalization threshold from $100 thousand to $20 thousand. The cur-
rent $100 thousand capitalization threshold remains unchanged for the remaining General PP&E categories.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful
life of two or more years and when the acquisition cost equals or exceeds the DoD capitalization threshold of $100 thou-
sand. The DoD also requires capitalization of improvement costs over the DoD capitalization threshold of $100 thousand
for General PP&E. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

General PP&E previously capitalized at amounts below $100 thousand were written off General Fund financial statements
in FY 1998.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E exceeds the DoD capitaliza-
tion threshold, Federal accounting standards require that it be reported on the Air Force’s Balance Sheet. Currently, the Air
Force only reports on the Balance Sheet the value of property that the Air Force owns or leases to the contractor. The Air
Force does not report the value of equipment purchased directly by the contractor.

The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment that will
provide appropriate General PP&E information for future financial statement reporting purposes. Accordingly, Air Force
reports only government property in the possession of contractors that is maintained in Air Force’s property systems. The
Air Force does not report the value of equipment purchased directly by the contractor. The DoD has issued new property
accountability and reporting requirements that require Air Force to maintain, in their property systems, information on
all property furnished to contractors. This action and other DoD proposed actions are structured to capture and report the
information necessary for compliance with federal accounting standards.

1.P. Advances and Prepayments
The Department’s policy is to record advances and prepayments in accordance with GAAP. As such, payments made in
advance of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy is to expense
and/or properly classify assets when the related goods and services are received.

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When
a lease is essentially equivalent to an installment purchase of property (a capital lease), Air Force records the applicable
asset and liability if the value equals or exceeds the current capitalization threshold. The Air Force records the amounts as
the lesser of the present value of the rental and other lease payments during the lease term (excluding portions representing
executory costs paid to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is ei-

38
                                                                                                         General Fund
                                                                                          Notes to the Principal Statements




ther the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The Air
Force, as the lessee, receives the use and possession of leased property, for example real estate or equipment, from a lessor
in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of owner-
ship. Payments for operating leases are charged to expense over the lease term as it becomes payable.

Office space and leases entered into by Air Force in support of contingency operations are the largest component of operat-
ing leases. These costs were gathered from existing leases, General Services Administration (GSA) bills, and Interservice
Support Agreements. Future year projections use the Consumer Price Index (CPI), rather than the DoD inflation factor.
The CPI impacts increases to the leases, especially those at commercial lease sites. Equipment leases have a variety of
lease terms which are not expected to be renewed upon expiration. Other operating leases are generally one-year leases.

1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, Air Force
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the Government. Con-
tract financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress payments based on cost, and interim
payments under certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation
Supplement authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Prog-
ress payments for real property and ships are reported as Construction in Progress. It is the Department‘s policy to record
certain contract financing payments as Other Assets.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of circum-
stances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The Air Force recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibil-
ity of receivables, pending, or threatened litigation, and possible claims and assessments. The Air Force’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as
aircraft and vehicle accidents; medical malpractice: property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for Air Force’s assets. This type of liability has two compo-
nents: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equip-
ment,” recognition of an anticipated environmental disposal liability begins when the asset is placed into service. Nonen-


                                                                                                                              39
           General Fund
           Notes to the Principal Statements




vironmental disposal liabilities are recognized for assets when management decides to dispose of an asset based upon the
DoD’s policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of Federal Government.” Air Force does
not recognize contingent liabilities associated with nonenvironmental disposals due to immateriality.

1.T. Accrued Leave
The Air Force reports as liabilities military leave and civilian earned leave, except sick leave, that has been accrued and not
used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period
reflects the current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and that have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also
include donations and transfer in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international treaties
and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with appropriated
funds; however, the host country retains title to land and improvements. Generally, treaty terms allow the Air Force contin-
ued use of these properties until the treaties expire. In the event treaties or other agreements are terminated, whereby use of
the foreign bases is prohibited, losses are recorded for the value of any nonretrievable capital assets. The settlement due to
the U.S. or host nation is negotiated and takes into account the value of capital investments and may be offset by the cost of
environmental clean-up.

1.W. Comparative Data
Not Applicable

1.X. Unexpended Obligations
The Air Force obligates funds to provide goods and services for outstanding orders not yet delivered. The financial state-
ments do not reflect this liability for payment for goods or services not yet delivered, unless title passes.

1.Y. Undistributed Disbursements and Collection
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported by
the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting reports.
In-transit payments are those payments that have been made but have not been recorded in the fund holder’s accounting
records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections are those
collections from other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities’ accounts receivable balance.

40
                                                                                                      General Fund
                                                                                        Notes to the Principal Statements




The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Unsup-
ported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are recorded in
other liabilities.

1.Z. Significant Events
Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in accordance with the
(OMB) Circular A-136. The SOF will no longer be considered a basic statement and is now referred to as “Reconciliation
of Net Cost of Operations to Budget.”

Note 2. Nonentity Assets
 As of September 30                                                        2007                            2006

 (amounts in thousands)


 1. Intragovernmental Assets
 	   A. Fund Balance with Treasury                            $                       94,844    $                      80,989
 	   B. Accounts Receivable                                                             2,376                           2,715
 	   C. Total Intragovernmental Assets                        $                       97,220    $                      83,704
 2. Nonfederal Assets
 	   A. Cash and Other Monetary Assets                        $                      107,908    $                     114,779
 	   B. Accounts Receivable                                                          157,416                          568,289
 	   C. Other Assets                                                                 186,025                          196,826
 	   D. Total Nonfederal Assets                               $                      451,349    $                     879,894
 3. Total Nonentity Assets                                                           548,569                          963,598
 4. Total Entity Assets                                       $                   281,086,886   $                 271,987,028
 5. Total Assets                                              $                   281,635,455   $                 272,950,626


Relevant Information for Comprehension
Nonentity assets are assets for which the Air Force maintains stewardship accountability and responsibility to report, but are
not available for the Air Force’s operations.

Intragovernmental Fund Balance with Treasury asset class represents amounts in Air Force’s deposit fund and two suspense
fund accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available
for Air Force use.

Intragovernmental Accounts Receivable when collected goes to the U.S. Treasury as miscellaneous receipts.

Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported on
the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force disbursing officers as agents
of the U.S. Treasury.

Nonfederal Accounts Receivable, when collected, goes to the U.S. Treasury as miscellaneous receipts.

The Nonfederal Accounts Receivable amount also includes interest receivables on aged debts.

                                                                                                                            41
              General Fund
              Notes to the Principal Statements




Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the Mas-
sachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the financing of cost-type
contracts with nonprofit educational research institutions for experimental, research and development work when several
contracts or a series of contracts require financing by advance payments.

Note 3. Fund Balance with Treasury
 As of September 30                                                     2007                              2006

 (amounts in thousands)


 1. Fund Balances
     		A. Appropriated Funds                               $                     80,023,587   $                   68,762,362
     B. Revolving Funds                                                                  0                                 0
     C. Trust Funds	                                                                  6,824                            3,944
     D. Special Funds                                                                 1,140                              872
     E. Other Fund Types                                   $                         94,845                           80,989
     F. Total Fund Balances                                $                     80,126,396   $                   68,848,167
 2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                          $                     81,162,222   $                   69,960,267
     B. Fund Balance per Air Force                                               80,126,396                       68,848,167
 3. Reconciling Amount                                     $                      1,035,826   $                     1,112,100


Fund Balance with Treasury
Other Fund Types include balances in deposit fund accounts for Small Escrow, State and Local Taxes, Servicemen’s Group
Life Insurance fund, and Uniformed Services Thrift Savings Plan (TSP).

The Air Force shows a reconciling amount of $1.0 billion with the U.S. Treasury, which is comprised of :

             yy $18.3 million in allocation transfers to Air Force from the Department of Agriculture and the Foreign Mili-
                tary Sales-Military Assistance Program (MAP). The U.S. Treasury reports these funds as Air Force in the
                Fund Balance with Treasury (FBWT), but Air Force does not include in its FBWT because the Departments
                of Agriculture and MAP report these balances in their financial statements.
             yy $158.5 million in withdrawal of the FBWT for unavailable receipt accounts at September 30, 2007. These
                funds are in included in FBWT per U.S. Treasury but not included in FBWT per Air Force.
             yy $868.0 million in withdrawal of the FBWT in the cancelling appropriations at September 30, 2007. These
                funds are included in FBWT per U.S. Treasury but not included in FBWT per Air Force.
             yy $9.4 million in allocation transfers from Air force to the Department of Transportation. These funds are re-
                ported in FBWT by Air Force but are not included in FBWT at U.S. Treasury, because U.S. Treasury reports
                these balances under Department of Transportation.




42
                                                                                                      General Fund
                                                                                       Notes to the Principal Statements




Status of Fund Balance with Treasury
 As of September 30                                                      2007                             2006

 (amounts in thousands)


 1. Unobligated Balance
 	 A. Available                                             $                    18,577,110   $                   15,001,790
    B. Unavailable                                                                2,598,234                        2,111,136
 2. Obligated Balance not yet Disbursed                                          60,933,360                       53,989,101
 3. Reconciling Amount                                                              385,286                          380,571
 4. NonFBWT Budgetary Accounts                                                   -2,367,594                        -2,634,431
 5. Total l                                                 $                    80,126,396   $                   68,848,167


Status of Fund Balance with Treasury
The Status of Fund Balance with Treasury (FBWT) reflects both budgetary and nonbudgetary resources.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstand-
ing obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations expiring
at fiscal year end that remain available only for obligation adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received, ser-
vices that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do not have budget-
ary authority, such as unavailable receipt accounts or clearing accounts. The items reported consist of FBWT for suspense,
deposit and receipt accounts.

NonFBWT Budgetary Accounts represent adjustments to budgetary account that do not affect FBWT. The items that com-
prise the amount reported as NonFBWT consist of reimbursements and other income earned receivable, investments and
discounts in U.S. Treasury securities, and unfilled customer orders without advances. This category reduces the Status of
FBWT.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule. Certain unobligated
balances may be restricted to future use and are not apportioned for current use. The unobligated balance unavailable of
$2.6 billion is not available for new obligations because the period for new obligations established by law has expired.




                                                                                                                           43
              General Fund
              Notes to the Principal Statements




Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                        (Decrease)/
                                                                                                                       Increase from
 As of September 30                                                 2005             2006             2007
                                                                                                                             FY
                                                                                                                         2006 - 2007
 (amounts in thousands)


 Account
     	F3845 – Personal Property Proceeds                        $            0   $            0   $            0   $                   0
     	F3875 – Budget Clearing Account Suspense                        336,053          362,040          358,605                -3,435
     	F3880 – Lost or Cancelled Treasury Checks                            691              553              374                 -179
     	F3882 – Uniformed Services Thrift Savings Plan Suspense          25,523           30,802           32,842                 2,040
     	F3885 – Interfund/IPAC Suspense                                 -74,564           -63,012         -68,537                -5,525
     F3886 – F3886 – Thrift Savings Plan Suspense                           0                0                0                        0
 Total                                                          $     287,703    $     330,383    $     323,284    $           -7,099


Relevant Information for Comprehension
The F3845 suspense account represents the balance of proceeds from the sale of personal property.

The F3875 suspense account represents the Disbursing Officer’s suspense. Account F3885 represents the Interfund and
Intragovernmental Payment and Collection suspense. Account F3886 represents the (payroll) TSP suspense. These three
suspense accounts temporarily hold collections or disbursements until they can be assigned or identified to a valid appro-
priation.

The F3880 suspense account represents the balance of U.S. Treasury checks that: (1) have either been lost by the payee and
need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the U.S. Treasury and need to
be transferred to the original appropriation.

The F3882 suspense account was established for the Uniformed Services TSP in FY 2002. The amounts in this account
represent a timing difference between the posting of the TSP deductions by the National Finance Center and the posting of
these amounts in the military accounting systems in the following month.




44
                                                                                                         General Fund
                                                                                           Notes to the Principal Statements




Disclosures Related to Problem Disbursements
                                                                                                                         (Decrease)/
                                                                                                                        Increase from
 As of September 30                                            2005               2006               2007
                                                                                                                              FY
                                                                                                                          2006 - 2007
 (amounts in thousands)


 1. Total Problem Disbursements, Absolute Value
   	A. Unmatched Disbursements (UMDs)                    $       272,972      $      32,063      $      97,098      $           65,035
   	B. Negative Unliquidated Obligations (NULO)                       8,209              6,291              6,201                  -90
   	C. In-Transit Disbursements                                 1,027,549          1,333,019          1,013,198               -319,821
 2. Total                                                $      1,308,730     $    1,371,373     $    1,116,497     $         -254,876


Relevant Information for Comprehension
The amount of Unmatched Disbursements (UMDs) over 180 days is $0, Negative Unliquidated Obligations (NULOs) is $0,
and in-transits is $3.2 million. The amount of UMDs over 120 days old is $0, NULOs is $0, and in-transits is $5.8 million.
The current value of net in-transits is $599.2 million.

Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the positive values of debit
and credit transactions without regard to the plus or minus signs.

An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in the accounting sys-
tem.

A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the payment is greater
than the amount of the obligation recorded in the official accounting system. These payments have been made using avail-
able funds and are based on valid receiving reports for goods and services delivered under valid contracts.

The In-transits Disbursements represent the absolute value of disbursements and collections made by an Air Force disburs-
ing activity on behalf of an accountable activity and have not been posted to the accounting system.

Beginning with 2nd Quarter, FY 2007, In-transit Disbursements are reported as an absolute value as opposed to net amounts
disclosed in prior years. This reporting change applies to amounts in the note schedule for both the current and comparative
years.




                                                                                                                                   45
               General Fund
               Notes to the Principal Statements




Note 4. Investments and Related Interest
                                                                                                2007

 As of September 30                                                                           Amortized
                                                                          Amortization                             Investments,       Market Value
                                                             Cost                            (Premium) /
                                                                            Method                                     Net             Disclosure
                                                                                              Discount
 (amounts in thousands)


 1. Intragovernmental Securities
     	A. Nonmarketable, Market-Based
     	   1. Military Retirement Fund                     $           0                   $                 0   $                  0   $          0
     	   2. Medicare Eligible Retiree Health Care Fund               0                                     0                      0              0
     	   3. US Army Corps of Engineers                               0                                     0                      0              0
     	   4. Other Funds                                             816                                -1                   815                820
     	 5. Total Nonmarketable, Market-Based                         816                                -1                   815                820
     B. Accrued Interest                                              8                                                           8              9
     C. Total Intragovernmental Securities               $          824                  $             -1      $            823       $        829
 2. Other Investments
     A. Total Other Investments                          $            0                  $                 0   $                  0            N/A


                                                                                                2006

 As of September 30                                                                           Amortized
                                                                          Amortization                             Investments,       Market Value
                                                             Cost                            (Premium) /
                                                                            Method                                     Net             Disclosure
                                                                                              Discount
 (amounts in thousands)


 3. Intragovernmental Securities
     	A. Nonmarketable, Market-Based
 	       1. Military Retirement Fund                     $            0                  $                 0   $                  0   $          0
 	       2. Medicare Eligible Retiree Health Care Fund                0                                    0                      0              0
 	       3. US Army Corps of Engineers                                0                                    0                      0              0
 	       4. Other Funds                                             713                                    1                714                712
 	       5. Total Nonmarketable, Market-Based                       713                                    1                714                712
     B. Accrued Interest                                              8                                                           8              8
     C. Total Intragovernmental Securities               $          721                  $                 1   $            722       $        720
 4. Other Investments
     A. Total Other Investments                          $            0                  $                 0   $                  0            N/A



Relevant Information for Comprehension
The Federal Government does not set aside assets to pay future benefits and expenditures associated with earmarked funds.
The cash generated from earmarked funds are deposited in the U.S. Treasury, which uses the cash for general Govern-
ment purposes. U.S. Treasury securities are issued to the earmarked funds as evidence of earmark fund receipts. The U.S.


46
                                                                                                                General Fund
                                                                                               Notes to the Principal Statements




Treasury securities are an asset to the Air Force and a liability to the U.S. Treasury. Because the Air Force and the U.S.
Treasury are both parts of the Federal Government, these assets and liabilities offset each other from the standpoint of the
Government as a whole. For this reason, they do not represent an asset or a liability in the U.S. Government wide financial
statements. The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the Air Force requires redemption of these securities, the Government finances
the securities out of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying
less debt, or by curtailing other expenditures. This is the same way the Government finances all other expenditures.

Note 5. Accounts Receivable
                                                                              2007                                             2006

 As of September 30                                                       Allowance For
                                                     Gross Amount                                    Accounts               Accounts
                                                                            Estimated
                                                         Due                                       Receivable, Net        Receivable, Net
                                                                          Uncollectibles
 (amounts in thousands)


 1. Intragovernmental Receivables                $          388,823                     N/A    $            388,823   $            665,672
 2. Nonfederal Receivables (From the Public)     $          602,261   $              -56,465   $            545,796   $          1,041,746
 3. Total Accounts Receivable                    $          991,084   $              -56,465   $            934,619   $          1,707,418


Relevant Information for Comprehension
As presented on the Consolidated Balance Sheet, accounts receivable includes reimbursement receivable and refund receiv-
able such as out-of-service debts ($ owed by former service members) and contractor debts. It also includes net interest
receivables. Canceled accounts receivable are reported as nonentity receivables because these amounts are deposited into
a U.S.Treasury miscellaneous receipt account when collected. Reconciliation between Treasury Report on Receivables
(TROR) Due from the Public and the Balance Sheet was accomplished. This reconciliation is performed to ensure that the
financial statements are in agreement with the receivable amount reported to the U.S. Treasury. The difference between ac-
counts receivable on the Balance Sheet and TROR Due from the Public include the allowance for estimated uncollectible of
$56.5 million, unsupported collections in-transit in the amount of $606.0 thousand and undistributed collections of $236.0
thousand. Undistributed collections are prorated between public and intragovernmental receivables based on a percentage
calculated from receivable amounts represented on the Balance Sheet.




                                                                                                                                        47
               General Fund
               Notes to the Principal Statements




Aged Accounts Receivable
                                                                              2007                                     2006
 As of September 30
                                                               Intragovernmental       Nonfederal       Intragovernmental       Nonfederal

 (amounts in thousands)


 CATEGORY
 Nondelinquent
     Current                                                   $        727,855    $         236,748    $       1,085,890   $         193,635
     Noncurrent                                                               0                     0               5,725                     0
 Delinquent
     1 to 30 days                                              $          20,902   $           7,130    $          34,155   $           6,010
     31 to 60 days                                                         1,216               3,483              122,543               4,677
     61 to 90 days                                                          951                6,200               28,469               6,744
     91 to 180 days                                                         170               14,036               64,611              21,217
     181 days to 1 year                                                     250               25,829               55,201              41,513
     Greater than 1 year and less than or equal to 2 years                  122               47,914                7,145              12,565
     Greater than 2 years and less than or equal to 6 years                  86               54,582                6,437             705,483
     Greater than 6 years and less than or equal to 10 years                  0              188,099                   0              179,819
     Greater than 10 years                                                    0               22,069                   0               17,702
 Subtotal                                                      $        751,552    $         606,090    $       1,410,176   $       1,189,365
     Less Supported Undistributed Collections                             -1,530              -3,829                 -665                    -94
     Less Eliminations                                                  -361,199                    0            -743,840                     0
     Less Other                                                               0                     0                  0                      0
 Total                                                         $        388,823    $         602,261    $        665,671    $       1,189,271


Relevant Information for Comprehension
During the 1st Quarter, FY 2007, intragovernmental and nonfederal receivables in all aging categories were adjusted to bring
the DFAS-Dayton accounting information into compliance with DoD Financial Management Regulation policy on posting
and aging of receivables. These adjustments were part of a comprehensive clean-up effort by the Air Force and DFAS.

Demand letters are sent to nonfederal debtors once the payment becomes 30 days delinquent in accordance with the pro-
cedures outlined in the Concept of Operations for Managing Accounts Receivables. The delinquencies for the Air Force
consist primarily of debts that have been turned over to the Contract Debt System (CDS) and the Defense Debt Management
System (DDMS) for resolution.

The $21.0 million in Intragovernmental Delinquent Receivables (1 to 30 days old) consists primarily of internal Air Force
billings and will be collected in the next 30 days.

The majority of the $369.0 million in Nonfederal Delinquent Receivables (From the Public) consists primarily of delinquent
contractor debts and interest penalties associated with those debts. The Debt Management Office is actively pursuing collec-
tion of these debts.



48
                                                                                                         General Fund
                                                                                          Notes to the Principal Statements




Note 6. Other Assets
 As of September 30                                                            2007                            2006

 (amounts in thousands)


 1. Intragovernmental Other Assets
   A. Advances and Prepayments                                     $                      423,952   $                    454,968
   B. Other Assets                                                                              0                              0
   C. Total Intragovernmental Other Assets                         $                      423,952   $                    454,968
 2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                      $                   10,183,088   $                 11,098,138
   B. Other Assets (With the Public)                                                      265,730                        280,988
   C. Total Nonfederal Other Assets                                $                   10,448,818   $                 11,379,126
 3. Total Other Assets                                            $                    10,872,770   $                 11,834,094


Relevant Information for Comprehension
Nonfederal Other Assets (With the Public) is comprised primarily of advances to contractors as part of advance payment
pool agreements with the Massachusetts Institute of Technology and other nonprofit institutions and travel advances. The
advance payment pool agreements are used for the financing of cost type contracts with nonprofit educational or research
institutions for experimental or research and development work when several contracts or a series of contracts require
financing by advance payments.

Contract terms and conditions for certain types of contract financing payments convey certain rights to theAir Force that
protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property,
or disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the government. The government does not have the right to take the work, except as provided in
contract clauses related to termination or acceptance, and the Air Force is not obligated to make payment to the contractor
until delivery and acceptance.

The Contract Financing Payment balance of $10.2 billion is comprised of $9.6 billion in contract financing payments and an
additional $720.3 million in estimated future funded payments that will be paid to the contractor upon future delivery and
government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).




                                                                                                                              49
            General Fund
            Notes to the Principal Statements




Note 7. Cash and Other Monetary Assets
 As of September 30                                                          2007                            2006

 (amounts in thousands)


 1. Cash                                                         $                     104,681    $                    111,641
 2. Foreign Currency                                                                      3,227                          3,138
 3. Other Monetary Assets                                                                    0                               0
 4. Total Cash, Foreign Currency, & Other Monetary Assets        $                     107,908    $                    114,779


Relevant Information for Comprehension
Cash and foreign currency are nonentity assets and, as such, are considered restricted assets that are held by the Air Force
but not available for use in its operations. These assets are held by the Air Force’s Disbursing Officers as agents of the U.S.
Treasury. The total balance of $108.0 million is restricted.

Note 8. Direct Loan and/or Loan Guarantee Programs
Not Applicable

Note 9. Inventory and Related Property
 As of September 30                                                          2007                            2006

 (amounts in thousands)


 1. Inventory, Net                                               $                           0    $                          0
 2. Operating Materiels & Supplies, Net                                              46,335,059                     48,584,335
 3. Stockpile Materiels, Net                                                                 0                               0
 4. Total                                                        $                   46,335,059   $                 48,584,335


Inventory, Net
Not Applicable




50
                                                                                                                        General Fund
                                                                                                      Notes to the Principal Statements




Operating Materiels and Supplies, Net
                                                                           2007                                     2006
 As of September 30                                 OM&S Gross          Revaluation                                               Valuation
                                                                                              OM&S, Net           OM&S, Net
                                                      Value             Allowance                                                  Method
 (amounts in thousands)


 1. OM&S Categories
   A. Held for Use                              $      35,998,482   $                 0   $     35,998,482    $     37,448,202    SP, LAC
   B. Held for Repair                                  10,336,577                     0         10,336,577          11,136,133    SP, LAC
   C. Excess, Obsolete, and Unserviceable               1,489,448          -1,489,448                     0                   0     NRV
   D. Total                                     $      47,824,507   $      -1,489,448     $     46,335,059    $     48,584,335


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value
 SP = Standard Price                                                              O = Other
 AC = Actual Cost

General Composition of OM&S
The Operating Materiels and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles, uninstalled
aircraft and cruise missile engines, and uninstalled intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future
use.

Restrictions on the use on OM&S
The Air Force does not maintain any OM&S restricted assets.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned
The category Held for Use includes all materiels available for issuance. OM&S classified as such is marked within each
supply or inventory system with condition codes A-D.

The category Held as Excess, Obsolete, and Unserviceable includes all materiels that managers determine to be more costly
to repair than to replace. Items retained for management purposes, which are beyond economic repair are coded “con-
demned.” The net value of these items is zero and they are shown as Excess, Obsolete, and Unserviceable and assigned
condition codes H, P, S, or V.

The category Held for Repair includes all economically reparable materiels and includes all other condition codes as de-
fined by the Military Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned
Before FY 2002, the Department of Defense (DoD) categorized potentially redistributable materiel, regardless of condition,
as Excess, Obsolete, and Unserviceable.
                                                                                                                                              51
           General Fund
           Notes to the Principal Statements




The DoD’s approved methodology for determining historical cost is the Moving Average Cost (MAC). As of 3rd Quarter,
FY 2007, Air Force has fully implemented MAC in three of the six systems used to report OM&S values into the account-
ing system. In two of the three remaining systems, the beginning inventory balances have been established, but the cost for
the quantities on hand for each national stock number have not been validated. It is anticipated that a majority of the cost
associated with the inventory balances in these two systems will be validated using MAC standards by December 31 2008.
Validation of the beginning balance in the Combat Ammunitions System (CAS), which manages approximately 50% of all
OM&S, is not scheduled to be completed until 1st Quarter, FY 2009.

Under current DoD policy, no allowance is made for serviceable, ready-to-issue, items (category Held for Use). An allow-
ance equal to 100% of MAC or standard price, however, is made for the category Excess, Obsolete, and Unserviceable.
This allowance results in a net book value of zero for items that have no intrinsic value to the Air Force. The category Held
for Repair represents suspended, unserviceable (but reparable) items. Air Force will continue to report Held for Repair at
MAC or standard price until Office of the Secretary of Defense guidance is provided on how to compute an allowance for
repair.

Contractor Supported Weapon Systems (CSWS)
Currently the OM&S values included on the financial statements for CSWS are manually reported to Defense Finance and
Accounting Service (DFAS). The Air Force is currently working with these contractors to develop the information systems
capability that will compute MAC, accumulate and report the Air Force’s financial data to DFAS using a standard system to
system interface. Once completed by 1st Quarter, FY 2009, this module and interface will be used as a prototype for imple-
mentation for most of the CSWS.

Operating Materiels and Supplies (OM&S) Value
The OM&S data reported on the financial statements are derived from logistics systems designed for materiel management
purposes. Some of these systems do not maintain the historical cost data necessary to comply with the valuation require-
ments of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related
Property.”

Items commonly used in and available from the commercial sector are not managed in the DoD materiel management
activities. Further, unlike the commercial sector, the DoD operational cycles are based on national need and thereby are
irregular. In addition, the military risks associated with stock-out positions (e.g., weapon systems that are not mission
capable due to lack of supplies) are totally different from a commercial activities risk of losing sales. Therefore, DoD does
not attempt to account separately for items held for current or future use.

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in SFFAS No. 3
as materiel that has not yet been issued to the end user. Once issued, the materiel is expensed. According to federal ac-
counting standards, the consumption method of accounting should be used to account for OM&S unless: (1) the amount of
OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost beneficial
to expense OM&S when purchased (purchase method).

Other Air Force Disclosures
In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the financial statements
but has made considerable strides in improving the systems to provide actual transactions for completing the financial
statements. However, in some cases, the data provided still consists of only beginning and ending balances for each of the
asset accounts Held for Use; Excess, Obsolete, Unserviceable; and Held for Repair. Without the required additional data

52
                                                                                                                             General Fund
                                                                                                          Notes to the Principal Statements




(acquisitions, transfers in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only report the net change
between prior period ending balances and the values reported as current period ending balances.

Although the Air Force OM&S systems, in most cases, capture some trading partner data at the transaction level, no elec-
tronic interfaces exist between the Air Force OM&S feeder systems, the DFAS accounting systems, other DoD services,
and other federal agencies for reporting the data for all items transferred in and out. Consequently, intragovernmental trans-
actions (trading partner data) could not always be reconciled. The Air Force and DFAS are currently developing processes,
methodologies and standard electronic interfaces that will allow intragovernmental transactions to be reported monthly into
the Air Force accounting system.

Stockpile Materials, Net
Not Applicable

Note 10. General PP&E, Net
                                                                              2007                                                            2006

 As of September 30                  Depreciation/                                               (Accumulated
                                                                                                                                           Prior FY Net
                                     Amortization      Service Life      Acquisition Value       Depreciation/       Net Book Value
                                                                                                                                           Book Value
                                       Method                                                    Amortization)
 (amounts in thousands)


 1. Major Asset Classes
   A. Land	                                N/A                 N/A       $       437,150                   N/A       $       437,150   $         440,350
   B. Buildings, Structures, and           S/L              20 Or 40          47,823,687     $     -27,199,311            20,624,376         19,841,215
     Facilities
   C. Leasehold Improvements               S/L              lease term                  0                        0                 0                      0
   D. Software	                            S/L              2-5 or 10            621,881              -186,792               435,089             486,985
   E. General Equipment                    S/L               5 or 10          33,157,666           -26,038,055             7,119,611           6,468,989
   F. Military Equipment                   S/L               Various         243,018,606           -131,965,091          111,053,515        111,230,820
   G.	 Assets Under Capital Lease          S/L              lease term           405,988              -296,239               109,749             125,162
   H.	Construction-in- Progress            N/A                 N/A             3,478,390                   N/A             3,478,390           3,267,590
   I.	 Other	                                                                           0                        0                 0                      0
   J.	 Total General PP&E                                                $   328,943,368 $        -185,685,488       $   143,257,880   $    141,861,111


 See Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable

Relevant Information for Comprehension
General PP&E
There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside the continen-
tal United States.

                                                                                                                                                      53
            General Fund
            Notes to the Principal Statements




Military Equipment
In accordance with the requirements of Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating
the Category National Defense Property, Plant, and Equipment,” beginning in FY 2003, the Air Force capitalized military
equipment into General Property, Plant, and Equipment (PP&E) at estimated historical cost using information obtained
from the Bureau of Economic Analysis (BEA). Effective 3rd Quarter, FY 2006, the Air Force replaced the BEA estimation
methodology with one that is based on departmental internal records for military equipment.

Other Air Force Disclosures
In 4th Quarter, FY 2007, the Air Force used some FY 2002 ending data for Special Tools and Special Test Equipment (ST/
STE) and actual data for the B2 aircraft. Air Force Equipment Management System (AFEMS) has automated the report-
ing process for this information. In FY 2008, ST/STE will be inventoried, costed, and loaded into AFEMS. All ST/STE
should be reported by the end of FY 2009. The net book value of ST/STE for the 4th Quarter, FY 2007, remains unchanged
at $170.3 million, which is immaterial to the balance of general equipment.

The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values reported
above for the major asset classes of Land and Buildings, Structures, and Facilities. The value of General PP&E personal
property major asset class of Software and Equipment does not include all of the General PP&E above the DoD capitaliza-
tion threshold in the possession of contractors. The Air Force does not report the value of equipment purchased directly by
the contractor. The Government Accountability Office, the Inspector General, DoD, and the Air Force are developing new
policies and a contractor reporting process to capture General PP&E information for future reporting purposes in compli-
ance with generally accepted accounting principles.

Contractor Supported Weapon Systems (CSWS)
Air Force is working with the CSWS contractor to report all equipment in the hands of the contractors. It is anticipated
that a large portion of the contractor acquired equipment will be reported through the Government On-Line Data System to
the Air Force Equipment Management System (AFEMS) by December 31, 2008. AFEMS will provide accountability and
reporting to the Air Force accounting system.

Heritage Assets
Heritage Assets and Stewardship Land are resources that protect, restore, enhance, modernize, preserve and sustain mission
capability within the Air Force through effective planning and management of natural and cultural resources to guarantee
access to air, land, and waters. These assets are resources that are managed to provide multiple use activities for the public
benefit. This includes actions to comply with requirements such as Federal Laws, Executive Orders, DoD policies, final
governing standards and other binding agreements.

Heritage Assets consists of buildings and structures, museums, major collections, monuments and memorials, archeological
sites and cemeteries, while Stewardship Land consist mainly of mission essential (donated, public domain, executive order)
land. The Air Force, with minor exceptions, uses most of the buildings and structures as part of their every day activities
and includes them on the balance sheet as multi-use heritage assets (capitalized and depreciated). The mission essential
stewardship land is used for many different activities including general base operations, training sites, bombing ranges,
recreation, and timber production.

Buildings and Structures: The Air Force considers 4,091 buildings and structures on Air Force bases and sites to be
heritage assets. In order to be considered a heritage asset, the building and/or facility must be listed, eligible, or potentially

54
                                                                                                       General Fund
                                                                                         Notes to the Principal Statements




eligible for the National Register. These buildings and structures are maintained by each base’s civil engineering group as
part of their overall responsibility.

Museums: The Air Force Museum System consists of 13 museums with the major museum located at Wright-Patterson Air
Force Base, Ohio. It houses the main collection of historical artifacts. The museums are considered Air Force field muse-
ums or heritage centers, which also contain items of historical interest, some of which are specific to the general locality.
The Air Force also has several heritage centers that are no longer considered museums.

Major Collections: The Air Force has three significant collections which contain the Air Force art collection and two other
collections at the Air Force Academy that contain objects, memorabilia, and documents, as well as distinctive works of
original art.

Cemeteries: The Air Force has administrative and curatorial responsibilities for 39 cemeteries on its active duty bases.

Archeological Sites: The Air Force has 1,425 archeological sites listed on or eligible for the National Register.

Assets Under Capital Lease
 As of September 30                                                          2007                            2006

 (amounts in thousands)


 1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                                         $                     405,988    $                    453,481
   B. Equipment                                                                              0                               0
   C. Accumulated Amortization                                                         -296,239                       -328,319
   D. Total Capital Leases                                       $                     109,749    $                    125,162


Relevant Information for Comprehension
The Air Force is the lessee in nine capital leases for military family housing acquired through the Section 801 Family
Housing Program. Four of the nine leases are funded on a fiscal year basis because they originated prior to FY 1992. The
leases are capitalized and reported as an asset since their costs exceed the capitalization threshold of $100.0 thousand. The
net value of assets under capital lease will continue to decrease through amortization and all capital leases are scheduled to
expire by 4th Quarter, FY 2015. The Air Force is not acquiring any new capital leases.




                                                                                                                             55
                General Fund
                Notes to the Principal Statements




Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                                           2007                           2006

 (amounts in thousands)


 1. Intragovernmental Liabilities
     A. Accounts Payable                                            $                         0   $                           0
     B. Debt                                                                                  0                               0
     C. Other                                                                           512,987                        971,752
     D. Total Intragovernmental Liabilities                         $                   512,987   $                    971,752
 2. Nonfederal Liabilities
     A. Accounts Payable                                            $                   234,292   $                    185,457
     B. Military Retirement and Other Federal Employment Benefits                     1,132,550                       1,123,322
     C. Environmental Liabilities                                                     6,093,809                       5,787,360
     D. Other Liabilities                                           $                 2,706,792   $                   3,494,673
     E. Total Nonfederal Liabilities	                                                10,167,443                      10,590,812
 3. Total Liabilities Not Covered by Budgetary Resources                             10,680,430                      11,562,564
 4. Total Liabilities Covered by Budgetary Resources                                 10,169,668                      10,343,006
 5. Total Liabilities                                               $                20,850,098   $                  21,905,570


Information Related to Liabilities Not Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are liabilities for which congressional action is needed before budgetary
resources can be provided.

The liabilities for Military Retirement and Other Federal Employment Benefits, Environmental Liabilities, annual leave
liabilities for military and civilians, Federal Employees’ Compensation Act (FECA), and unemployment compensation ac-
count for 91% of the Total Liabilities not Covered by Budgetary Resources. These liabilities will be liquidated with future
appropriations because the due dates extend past the budget life cycle of appropriations currently funded and received.

The liabilities for Accounts Payable represent payables in cancelled appropriations that will be paid using available funds at
the time of disbursement, subject to limitations.

Intragovernmental Liabilities Other are primarily comprised of FECA liabilities to the Department of Labor, unemployment
compensation, and custodial liabilities.

Nonfederal Other Liabilities are primary comprised of capital lease liabilities, contingent liabilities, and accrued annual
leave liabilities for military and civilians.

Military Retirement and Other Federal Employment Benefits not covered by budgetary resources represents the FECA actu-
arial in the amount of $1.1 billion. The FECA actuarial is not due and payable during the current fiscal year. Refer to Note
17, Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.




56
                                                                                                               General Fund
                                                                                                  Notes to the Principal Statements




Note 12. Accounts Payable
                                                                           2007                                          2006
            As of September 30                                     Interest, Penalties, and
                                              Accounts Payable                                       Total               Total
                                                                     Administrative Fees
 (amounts in thousands)


 1. Intragovernmental Payables            $            1,509,630   $                    N/A   $         1,509,630   $       1,425,771
 2. Nonfederal Payables (to the Public)                3,189,303                        460             3,189,763           4,269,732
 3. Total                                 $            4,698,933   $                    460   $         4,699,393   $       5,695,503


Relevant Information for Comprehension
The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, inter-
nal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and
unearned revenue. Accounts Payable were adjusted by accruing additional accounts payable and expenses.

Note 13. Debt
Not Applicable




                                                                                                                                      57
             General Fund
             Notes to the Principal Statements




Note 14. Environmental Liabilities and Disposal Liabilities
                                                                                            2007                                    2006
As of September 30                                                                        Noncurrent
                                                                    Current Liability                           Total               Total
                                                                                           Liability
(amount in thousands)


1. Environmental Liabilities--Nonfederal
	 A. Accrued Environmental Restoration Liabilities
		 1. Active Installations—Installation Restoration Program         $         411,589 $      3,381,456      $    3,793,045      $   3,638,581
      (IRP) and Building Demolition and Debris Removal (BD/DR)
		 2. Active Installations—Military Munitions Response Program                 28,365        1,368,684           1,397,049          1,393,705
     (MMRP)
		 3. Formerly Used Defense Sites—IRP and BD/DR                                     0                  0                   0                0
		 4. Formerly Used Defense Sites--MMRP                                             0                  0                   0                0
	 B. Other Accrued Environmental Liabilities—Active Installations
		 1. Environmental Corrective Action                                           8,900          156,475            165,375             136,910
		 2. Environmental Closure Requirements                                        4,068              83,295           87,363             99,481
		 3. Environmental Response at Operational Ranges                                  0                  0                   0                0
		 4. Other                                                                         0                  0                   0                0
	 C. Base Realignment and Closure (BRAC)
		 1. Installation Restoration Program                                        112,590        1,330,011           1,442,601          1,204,872
 		 2. Military Munitions Response Program                                        280               3,240               3,520               0
 		 3. Environmental Corrective Action / Closure Requirements                     771               9,144               9,915           81,403
 		 4. Other                                                                        0                  0                   0                0
 	 D. Environmental Disposal for Weapons Systems Programs
 		 1. Nuclear Powered Aircraft Carriers                                            0                  0                   0                0
 		 2. Nuclear Powered Submarines                                                   0                  0                   0                0
 		 3. Other Nuclear Powered Ships                                                  0                  0                   0                0
 		 4. Other National Defense Weapons Systems                                       0                  0                   0                0
 		 5. Chemical Weapons Disposal Program                                            0                  0                   0                0
 		 6. Other                                                                        0                  0                   0                0
 2. Total Environmental Liabilities                                 $         566,563 $      6,332,305      $    6,898,868      $    6,554,952


Other Information Related to Environmental Liabilities
An environmental liability is a probable and measurable future outflow or expenditure of resources that exist as of the
financial reporting date for environmental cleanup costs resulting from past transactions or events. For financial statement
reporting purposes, the term “environmental cleanup costs” includes costs associated with environmental restoration of en-
vironmental sites funded under the Air Force portion of the Defense Environmental Restorations Program (DERP), correc-
tive actions funded with other than DERP, Base Realignment and Closure (BRAC), and environmental costs associated with
the future disposal of facilities, equipment, munitions, or closure facilities. These costs include researching and determin-
ing the existence of hazardous waste, removing, containing, and/or disposing of hazardous waste from property, or material
and/or property that consist of hazardous waste at the time of shutdown or disposal of the asset. Cleanup costs may include,
but are not limited to, decontamination, decommissioning, site restoration, site monitoring, closure, and post closure costs
related to Air Force operations that result in hazardous waste.


58
                                                                                                    General Fund
                                                                                       Notes to the Principal Statements




Other Categories Disclosure
Others Category Disclosure Comparative Table (amounts in thousands)
                                                                                            2007                2006
Other Accrued Environmental Costs – Other                                          $                0 $                    0


Base Realignment and Closure – Other
    - Manpower services at BRAC installations and headquarters offices             $                0 $            214,171


Environmental Disposal for Weapons Systems Programs – Other                        $                0 $                    0

The Air Force has reported all environmental costs in the applicable lines below and does not have any environmental costs
to report as “Other.” Therefore, this schedule shows all zeros.

The amount reported for BRAC – “Other” in FY 2006 was reclassified into the Installation Restoration Program (IRP) line
in 4th Quarter, FY 2006, to better reflect the distribution of management and manpower estimates and to be consistent with
DoD policy. All future management and manpower estimates will be reported in the IRP and Environmental Corrective
Action/Closure Requirements lines.

Applicable Laws and Regulations of Cleanup Requirements
The Air Force is required to clean-up contamination resulting from past waste disposal practices, leaks, spills and other
past activity, which has created a public human health or environmental risk. The Air Force does this in coordination with
regulatory agencies, and if applicable, with other responsible parties. The Air Force is also required to recognize closure
and post closure costs for its Property Plant and Equipment (PP&E) and environmental corrective action costs for current
operations. The Air Force is responsible for tracking and reporting all required environmental information related to envi-
ronmental restoration costs, other accrued environmental costs, disposal costs of weapons systems, and environmental costs
related to BRAC actions that have taken place in prior years. Examples of relevant laws and regulations that are considered
for discussion include:

(a)	 Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
(b)	 Superfund Amendments and Reauthorization Act (SARA)
(c)	 Clean Water Act
(d)	 Safe Drinking Water Act
(e)	 Clean Air Act
(f)	 Resource Conversation and Recovery Act (RCRA)
(g)	 Toxic Substances Control Act (TSCA)
(h)	 Medical Waste Tracking Act
(i)	 Atomic Energy Act
(j)	 Nuclear Waste Policy Act
(k)	 Low Level Radioactive Waste Policy Amendments Act
(l)	 National Defense Authorizations Acts




                                                                                                                           59
              General Fund
              Notes to the Principal Statements




The two laws with the majority of cost estimates for active environmental cleanup are CERCLA and RCRA.

Types of Environmental Liabilities Identified
The Air Force has cleanup requirements for the DERP at active installations, BRAC installations, and cleanup requirements
at active installations that are not covered by DERP. The Air Force is required to perform all environmental cleanup in
coordination with regulatory agencies, other responsible parties, and current property owners.

The environmental cleanup of military ranges is governed by the military munitions rule in 40 CFR 266.202, Definition of
Solid Waste. Environmental cleanup on ranges refers to munitions related activities. Environmental cleanup areas within a
closed range are referred to as Munitions Response Areas. As studies are done to find munitions-related contamination on
closed ranges, the number of cleanup projects is expected to rise. As investigations progress, the number of military muni-
tions responses will increase to reflect specific areas of pollution. The Air Force expects the number of responses reported
to increase as pollution is discovered and their identification is defined in areas less than the total boundary of the closed
range.

Methods for Assigning Total Cleanup Costs to Current Operating Periods
The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs.
The models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic
comparable project, a specific bid, or an independent government cost estimate is referenced for the current project. The
Air Force validates the models in accordance with DoD Instruction 5000.61 and primarily uses the models to estimate the
environmental cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air
Force primarily uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the
environmental project. Once the environmental cleanup cost estimates are complete, the Air Force complies with account-
ing standards to assign costs to current operating periods. Because the Accrued Environmental Restoration Liabilities is
accounted for as a totally self-contained program, all direct and indirect costs of the program are captured and reported.

The accounting standard requires full cost be recognized for closure requirements. The Air Force has closure require-
ments or disposal liabilities at active installations. Disposal liabilities are presented as an accrued amount for the life of the
landfill. The environmental closure liability for landfills is based on the proportion of the landfill used as of the reporting
date. This estimate includes the cost of capping (closing) the landfill, as well as 30 years of monitoring required by federal
regulations.

The Air Force has already expensed the costs for cleanup associated with General PP&E placed into service prior to
October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs are recovered through user
charges, then the Air Force expenses the associated environmental cost systemically over the life of the asset. For General
PP&E placed into service after September 30, 1997, the Air Force expenses the associated environmental costs systemati-
cally over the life of the asset. The Air Force expenses the full cost to cleanup contamination for Stewardship PP&E at the
time the asset is placed into service. The Air Force uses the physical capacity for operating landfills method for systematic
recognition. In the future, the Air Force plans to start reporting environmental liability for other facilities, such as fuel
storage tanks, military and non-military equipment, and asbestos. At that time, the Air Force plans to use life expectancy in
years.




  60
                                                                                                            General Fund
                                                                                              Notes to the Principal Statements




Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation, Technology, or Applicable Laws and Regulations
The Air Force is not aware of any pending changes to reported values of reported Environmental Liabilities. The Air Force
does understand that the liabilities can change in the future due to changes in laws and regulations, changes in agreements
with regulatory agencies, and advances in technology.

Level of Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environ-
mental Liabilities
Environmental liabilities for the Air Force are based on accounting estimates which require certain judgments and assump-
tions to be made by management. The Air Force believes the estimates are reasonable based upon the information available
to at the time of the calculation. Actual results may vary materially from the accounting estimates if agreements with regu-
latory agencies require remediation to a different degree than anticipated when the estimate was calculated. The liabilities
can be further impacted if further investigation discovers contamination different than known at the time of the estimate.
Air Force financial statements would be affected to the extent there are material differences between these estimates and
actual costs. There are areas in which management judgment in selecting any available alternative could produce a materi-
ally different result.

Other Accrued, Non-BRAC environmental cleanup activity uses Air Force Operation and Maintenance appropriated funds.
Because of the type of funding used Air Force currently does not track as environmental costs. Therefore, the costs cap-
tured for the Other Accrued, Non-BRAC environmental cleanup reflect only direct cost. It is believed that the current
portion of the environmental liability is relatively small and not material. During FY 2008, the Air Force plans to develop a
process for estimating the indirect cost and liability.

Environmental Restoration for Overseas Bases
In addition to the liabilities reported above, the Air Force has the potential to incur costs for restoration initiatives in con-
junction with returning overseas Defense facilities to host nations. The Air Force is unable to provide a reasonable estimate
at this time because the extent of restoration required is not known.

Environmental Disclosures
 As of September 30                                                                                 2007                 2006
 (amounts in thousands)


 A. The unrecognized portion of the estimated total cleanup costs associated with general     $            67,280    $      103,690
    property, plant, and equipment.
 B. Changes in total cleanup costs due to changes in laws, regulations, and/or technology.    $            -12,662   $          -44,891
 C. Portion of the changes in estimated costs due to changes in laws and technology that is
    related to prior periods.                                                                 $             -4,357   $                 0

The unrecognized portion of the total cleanup is the estimated total cleanup cost less the amount that is recognized on the
financial statements.

Changes in environmental regulations and cleanup standards resulted in a reduction of total cleanup costs.



                                                                                                                                  61
               General Fund
               Notes to the Principal Statements




Note 15. Other Liabilities
                                                                                    2007                                   2006
 As of September 30                                           Current             Noncurrent
                                                                                                       Total               Total
                                                              Liability            Liability
 (amounts in thousands)


 1. Intragovernmental
     A. Advances from Others                              $               0   $                0   $      882,243      $           622,200
     B. Deposit Funds and Suspense Account Liabilities              290,441                    0          290,441                  299,582
     C. Disbursing Officer Cash                                     293,933                    0          293,933                  311,604
     D. Judgment Fund Liabilities                                         0                    0                  0                     0
     E. FECA Reimbursement to the Department of Labor               126,664            168,426            295,090                  290,415
     F. Other Total Intragovernmental Other Liabilities             271,619                    0          271,619                  734,458
     G. Total Intragovernmental Other Liabilities         $       1,864,900   $        168,426     $    2,033,326      $      2,258,259
 2. Nonfederal
     A. Accrued Funded Payroll and Benefits               $       2,066,760   $                0   $    2,066,760      $           965,802
     B. Advances from Others                                          9,980                    0               9,980                31,769
     C. Deferred Credits                                                  0                    0                  0                     0
     D. Deposit Funds and Suspense Accounts                          95,073                    0           95,073                   79,865
     E. Temporary Early Retirement Authority                              0                    0                  0                   130
     F. Nonenvironmental Disposal Liabilities
        1. Military Equipment (Nonnuclear)                                0                    0                  0                     0
        2. Excess/Obsolete                                                0                    0                  0                     0
        3. Conventional Munitions Disposal                                0                    0                  0                     0
     G. Accrued Unfunded Annual Leave                             2,250,677                    0        2,250,677             2,839,835
     H. 	 Capital Lease Liability                                     6,897            150,828            157,725                  188,119
     I. 	 Other Liabilities                                       1,073,845            427,436          1,501,281             2,147,588
     J. 	Total Nonfederal Other Liabilities               $       5,503,232   $        578,828     $    6,081,496      $      6,253,108
 3. Total Other Liabilities                               $       7,368,132   $        746,690     $    8,114,822      $      8,511,367


Relevant Information for Comprehension
The amount of Intragovernmental Other Liabilities represents Government contributions for employee benefits, unemploy-
ment compensation, education benefits, and custodial liabilities.

The amount of Nonfederal Other Liabilities represents legal contingencies, employee benefits, and contract holdbacks.

Contingent Liabilities includes $720.3 million in estimated future contract financing payments that will be paid to the
contractor upon delivery and Government acceptance of a satisfactory product. In accordance with contract terms, specific
rights to the contractor’s work vests with the Government when a specific type of contract financing payment is made. This



62
                                                                                                        General Fund
                                                                                          Notes to the Principal Statements




action protects taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the
rights of ownership. The Air Force is under no obligation to pay the contractor for amounts greater than the amounts au-
thorized in the contract until delivery and Government acceptance. Because it is probable that the contractor will complete
its efforts and deliver a satisfactory product to the Air Force and the amount of potential future payments are estimable; the
Air Force has recognized a contingent liability for estimated future payments, which are conditional pending delivery and
Government acceptance.

The recorded estimated probable liability amount of $29.4 million is included in other liabilities nonfederal for open con-
tractor claims greater than $100.0 thousand. At this time, these claims are not in appeal or in litigation. In addition to the
contractor claims under appeal and the open contractor claims for an amount greater than $100.0 thousand, the Air Force
was party to numerous other contractor claims in amounts less than $100.0 thousand per claim. These claims are a routine
part of the contracting business and are typically resolved through mutual agreement between the contracting officer and
the contractor. Because of the routine nature of these claims, no requirement exists for a consolidated tracking mechanism
to record the amount of each claim, the number of open claims, or the probability of the claim being settled in favor of
the claimant. The potential liability arising from these claims in aggregate would not materially affect the operations or
financial condition of the Air Force. A reasonably possible liability is estimated at $26.1 million and is not included in the
reported amount but is disclosed in Note 16.

The total estimated probable liability for claims and litigation against the Air Force handled by the Civil Law and Litigation
Directorate, as of September 30, 2007, was valued at $274.1 million and is included in other liabilities nonfederal. As of
September 30, 2007, the Air Force was party to 14,984 claims and litigation actions. This liability dollar amount recorded
in the financial statements is an estimate based on the weighted average payout rate for the previous three years. A reason-
ably possible liability is estimated at $358.9 million and is not included in the reported amount but is disclosed in Note 16.
Neither past payments nor the current contingent liability estimate provides a basis for accurately projecting the results of
any individual lawsuit or claim. Since monetary judgments paid to civil litigants comes from a judgment fund adminis-
trated by the Treasury, it is uncertain that claims will become a liability to the Air Force. There are only two types of cases;
where the Treasury will seek reimbursements from the affected agency; the Contract Dispute Act cases and select Govern-
ment personnel disciplinary matters.

As of September 30, 2007, the Air Force was party to 195 contract appeals before the Armed Services Board of Contract
Appeals (ASBCA). The probable amount of loss from contractor claims of $123.9 million is included in other liabilities
nonfederal. The contractor claims involve unique circumstances, which are considered by the ASBCA in formulating
decisions on the cases. Such claims are funded primarily from Air Force appropriations. A reasonably possible liability is
estimated at $501.7 million and is not included in the reported amount but is disclosed in Note 16.

Contractor claims and ASBCA claims are updated annually because there are only marginal changes.

Estimation Methodology
The Air Force General Counsel through legal determination assesses and categorizes all contingent legal liability cases that
equal or exceed the materiality threshold set by the DoDIG. For the remaining cases falling below the dollar materiality
threshold set by DoDIG, they are considered in aggregate, if the total amount of the cases equal or exceed the established
materiality threshold.

The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC (Civil Lawsuits
and Litigation Directorate) and annually from HQ AFMC/JAB (ASBCA) and HQ AFMC/PK (Open Contractor Claims and


                                                                                                                              63
               General Fund
               Notes to the Principal Statements




Contract Appeals). Air Force financial management personnel use the solicited case data which includes the current report-
ing year and each of the prior two years to estimate the amounts of probable and reasonably possible contingent liabilities.

Air Force financial management personnel use a three year prior case analysis spreadsheet which was developed by the
Air Force Audit Agency to calculate and estimate the amount of contingent liabilities (probable and reasonably possible)
for reporting or disclosing in the quarterly financial statements. In cases where Air Force General Counsel discloses that a
judgment has been awarded against the Air Force, these amounts will be reported on the Balance Sheet and within this note.
Amounts for reasonably possible cases are disclosed in Note 16.

Capital Lease Liability
                                                                                    2007                                     2006
 As of September 30                                          Land and
                                                                             Equipment       Other           Total           Total
                                                             Buildings
 (amounts in thousands)


 1. Future Payments Due
     A. 2007                                             $               0   $       0   $           0   $           0   $            39,878
     B. 2008                                                      38,594             0               0         38,594                 38,594
     C. 2009                                                      38,478             0               0         38,478                 38,478
     D. 2010                                                      38,478             0               0         38,478                 38,478
     E. 2011                                                      36,789             0               0         36,786                 36,786
     F. 2012                                                      13,088             0               0         13,088                     0
  G. After 5 Years                                                26,838             0               0         26,838                 43,520
  H. Total Future Lease Payments Due                     $       192,262     $       0   $           0   $    192,262    $           235,734
     I. Less: Imputed Interest Executroy Costs                    34,537             0               0         34,537                 47,615
  J. Net Captial Lease Liability                         $       157,725     $       0   $           0   $    157,725    $           188,119
 2. Capital Lease Liabilities Covered by Budgetary
    Resources                                                                                            $    135,750    $           158,472
 3. Capital Lease Liabilities Not Covered by Budgetary
    Resources                                                                                            $     21,975    $            29,647




64
                                                                                                       General Fund
                                                                                        Notes to the Principal Statements




Note 16. Commitments and Contingencies
Relevant Information for Comprehension
The Air Force is a party in various administrative proceedings and legal actions, with claims including environmental dam-
age claims, equal opportunity matters, and contractual bid protests. We are not aware of any contingent liabilities relative to
these actions.

The Air Force has accrued contingent liabilities for legal actions where the Air Force Office of the General Counsel consid-
ers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the gov-
ernment, some of the liabilities may be payable from the Judgment Fund. The Air Force records Judgment Fund liabilities
in Note 12 “Accounts Payable” and Note 15, “Other Liabilities.”

The Commitments and Contingencies consist of the following reasonably possible liabilities:

                                                                                    (amounts in millions)
Contractual Actions:                                                                	
	     Contractor Claims                                                             	           $    26.1
 	     Appeals before Armed Services Board of Contract Appeals (ASBCA)              	               501.7
 	     Claims and Litigation from Civil Law                                         	             358.9
 Total                                                                              	           $ 886.7

The amounts disclosed for litigations claims and assessments are fully supportable and agree with the Air Force’s legal
representation letters and management summary schedule.

The amount of undelivered orders for open contracts citing cancelled appropriations which remain unfilled or unreconciled
for which the Air Force may incur a contractual commitment for payment is $ 939.5 million.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15 for
further details.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, Air Force does not have a
systemic process by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may
not fairly present the Air Force’s contingent liabilities.




                                                                                                                            65
                   General Fund
                   Notes to the Principal Statements




Note 17. Military Retirement and Other Federal Employment Benefits

                                                                                                 2007                                        2006

    As of September 30                                                               Assumed       (Less: Assets
                                                                Present Value                                           Unfunded         Present Value
                                                                                      Interest      Available to
                                                                 of Benefits                                             Liability        of Benefits
                                                                                     Rate (%)      Pay Benefits)
    (amounts in thousands)


    1. Pension and Health Actuarial Benefits
    	    A. Military Retirement Pensions                       $                 0                $            0    $                0   $           0
    	    B. Military Retirement Health Benefits
    	    C. Military Medicare-Eligible Retiree Benefits                          0                             0                     0               0
    	    D. Total Pension and Health Actuarial Benefits        $                 0                 $           0    $                0   $           0
    2. Other Actuarial Benefits
    	    A. FECA                                               $      1,132,550                    $           0    $     1,132,550      $   1,123,323
    	    B. Voluntary Separation Incentive Programs                              0                             0                     0               0
    	    C. DoD Education Benefits Fund                                          0                             0                     0               0
    	    D. Total Other Actuarial Benefits                     $      1,132,550                    $                $     1,132,550      $   1,123,323
    3. Other Federal Employment Benefits                       $          4,466                    $       -4,466   $                0   $      20,425
    4. Total Military Retirement and Other Federal
       Employment Benefits:                                    $      1,137,016                    $       -4,466   $     1,132,550      $   1,143,748

        Actuarial Cost Mehtohd Used:
        Assumptions:
        Market Value of investments in Market-based and Marketable Securities:


Relevant Information for Comprehension
Federal Employees’ Compensation Act (FECA)
The liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate payments.
The projected annual benefit payments are then discounted to the present value using the Office of Management and Bud-
get’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

	                                            2006

			                                 5.170% in Year 1
			                                 5.313% in Year 2
			                                  And thereafter

To adjust more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (Cost of Living Adjustments or COLAs) and medical inflation factors (Consumer Price Index Medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge back
year (CBY) 2006 were also used to adjust the methodology’s historical payments to current year constant dollars.


66
                                                                                                              General Fund
                                                                                            Notes to the Principal Statements




The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	                2006	           2007	    2008	         2009	               2010 +
COLA	            3.50%	          3.13%	   2.40%	        2.40% 	             2.43%
CPIM	            4.00%	          4.01%	   4.01%	        4.01%	              4.09%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the li-
ability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid loses per case (a measure of case-severity) in CBY 2006 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in the 2006 projection to the average pattern for
the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by the Department of La-
bor at the end of each fiscal year. There is no change on a quarterly basis. A comparison of 4th Quarter, FY 2007, and
4th Quarter, FY 2006, disclosed a minor change. Programs for which actuarial benefits are computed include FECA, the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases, plus a compo-
nent for incurred but unreported claims.

Note 18. General Disclosures Related to the Statement of Net Cost
    Intragovernmental Costs and Exchange Revenue
                                                                                     2007                         2006
    As of September 30
    (amounts in thousands)


    1. Intragovernmental Costs                                          $                    30,577,467   $          30,656,499
    2. Public Costs                                                                         111,884,904             111,722,498
    3. Total Costs                                                      $                   142,462,371   $         142,378,997
    4. Intragovernmental Earned Revenue                                 $                    -4,571,324   $              -4,493,654
    5. Public Earned Revenue                                                                 -1,144,216                   -827,193
    6. Total Earned Revenue                                             $                    -5,715,540   $              -5,320,847
    7. Net Cost of Operations                                           $                   136,746,831   $         137,058,150
	
Relevant Information for Comprehension
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, inter-
nal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Accounts Payable were
adjusted by accruing additional accounts payable and expenses.

The Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of programs and/
or organizations that the Federal Government supports through appropriations or by other means. This statement provides


                                                                                                                                67
             General Fund
             Notes to the Principal Statements




gross and net cost information that can be related to the amount of output or outcome for a given program and/or organiza-
tion administered by a responsible reporting entity.

The amounts presented in this statement are based on obligations and disbursements and, thus, may not report actual ac-
crued costs in all cases and may not meet accounting standards. As such, the information presented is based on budgetary
obligations, disbursements, and collection transactions, as well as nonfinancial feeder systems, adjusted to record known
accruals for major items such as payroll expenses, accounts payable, and environmental liabilities.

The Air Force’s accounting systems do not capture information relative to heritage assets separately and distinctly from
normal operations. Where it was able to separately identify the cost of acquiring, constructing, improving, reconstructing,
or renovating heritage assets, the Air Force has identified $2.0 million for the fiscal year.

Note 19. Disclosures Related to the Statement of Changes in Net Position
                                                                      2007                                       2006
 As of September 30                                   Cumulative Results      Unexpended          Cumulative Results     Unexpended
                                                        of Operations        Appropriations         of Operations       Appropriations
 (amounts in thousands)


 1. Prior Period Adjustments Increases (Decreases)
    to Net Position Beginning Balance
 	 A. Changes in Accounting Standards                 $                0     $                0   $                0    $            0
 	 B. Errors and Omissions in Prior Year Accounting
      Reports                                                          0                      0           19,309,311                 0
 	 C. Total Prior Period Adjustments                  $                0     $                0   $       19,309,311    $            0
 2. Imputed Financing
 	 A. Civilian CSRS/FERS Retirement                   $          212,145     $                0   $          230,498    $            0
 	 B. Civilian Health                                            479,398                      0              454,584                 0
 	 C. Civilian Life Insurance                                      1,520                      0                1,481                 0
 	 D. Judgment Fund                                               31,608                      0               12,252                 0
 	 E. IntraEntity                                                      0                      0                    0                 0
 	 F. Total Imputed Financing                         $          724,671     $                0   $          698,815    $            0



Relevant Information for Comprehension
The Appropriation Received line item on the Statement of Changes in Net Position (SCNP) differs from that reported on the
Statement of Budgetary Resources because Appropriations Received on the SCNP do not include appropriated dedicated
and earmarked receipts. Dedicated and earmarked receipts are accounted for as either nonexchange revenue or donations
and forfeitures of cash and cash equivalent. This difference totals $2.8 million.

The eliminations column on the SCNP will reflect zero dollars. Statement of Federal Financial Accounting Standards Num-
ber 27, “Identifying and Reporting Earmarked Funds,” effective for reporting years after

FY 2005, required that DoD modify the SCNP. The Federal Accounting Standards Advisory Board determined that re-
statement of prior comparative balances would not be allowed. To meet the requirement, additional columns were added
to separately display gross amounts for earmarked funds, and all other (nonearmarked) funds. In the SCNP, all offsetting

68
                                                                                                         General Fund
                                                                                          Notes to the Principal Statements




balances (i.e. transfers-in and transfers-out, revenues and expenses) for intraDoD activity between earmarked and other
(nonearmarked) funds are reported on the same lines. This results in an eliminations column, which appears to contain no
balances. In reality, the column contains all appropriate elimination entries, but all net to zero within each respective line.

The amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil Service
Retirement System, the Federal Employees’ Retirement System, the Federal Employees Health Benefits Program, and the
Federal Employees Group Life Insurance Program do not fully cover the U.S. Government’s cost to provide these benefits.
The financial statements recognized an imputed cost as the difference between the Government’s cost of providing these
benefits to the employees and contributions made by and for them. OPM provides the cost factors to DFAS for computation
of imputed financing cost. DFAS provides the costs to the Office of the Under Secretary of Defense (Personnel and Readi-
ness) (OUSD [P&R]) for validation. After validation, OUSD (P&R) provides the imputed costs to the reporting compo-
nents for inclusion in their financial statements.

For the Judgment Fund, the Air Force recognizes liabilities and expenses when unfavorable litigation outcomes are prob-
able and the amounts can be estimated. The U.S. Treasury provides the dollar amount of the imputed financing. The
U.S.Treasury based the imputed financing on the amount the judgment fund is expected to pay for settlements.

Other Financing Sources, Other consists of other gains and losses to adjust intragovenmental transfers in.

Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with the Earmarked Cumulative
Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of elimina-
tions.




                                                                                                                              69
              General Fund
              Notes to the Principal Statements




Note 20. Disclosures Related to the Statement of Budgetary Resources
 As of September 30                                                                       2007                2006
 (amounts in thousands)


 1. 	 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End   $      64,119,346   $       56,974,233
     of the Period
 2. 	 Available Borrowing and Contract Authority at the End of the Period             $              0    $                0

Apportionment Categories
Funds are apportioned by three categories: (1) category A is apportioned quarterly, (2) category B is apportioned by activity
or project, and (3) exempt are funds not subject to apportionment. The amount of direct obligations incurred and appor-
tioned under category A is $83.0 billion, category B is $63.6 billion, and exempt is $1.9 million. For reimbursable obliga-
tions incurred and apportioned, category A is $6.5 billion, category B is $4.0 billion, and exempt is $13.9 million.

Relevant Information for Comprehension
The Statement of Budgetary Resources (SBR) includes intraentity transactions because the financial statements are pre-
sented as combined and combining.

Permanent indefinite appropriations are as follows (reference Note 23 for additional information):

         yy Department of the Air Force General Gift Fund [10 USC 2601(b)]
         yy Wildlife Conservation Fund [16 USC 670(a)]

Appropriations Received
The Appropriation Received line item on the Statement of Changes in Net Position differs from that reported on the SBR
because Appropriations Received on the Statement of Changes in Net Position do not include dedicated appropriations and
earmarked receipts. Dedicated and earmarked receipts are accounted for as either nonexchange revenue or donations and
forfeitures of cash and cash equivalent. This difference totals $2.8 million.

Air Force has no material differences between amounts reported on the SBR and the SF133, Report on Budget Execution.




70
                                                                                                              General Fund
                                                                                                Notes to the Principal Statements




Note 21. Reconciliation of Net Cost of Operations to Budget
As of September 30                                                                     2007                         2006
(amounts in thousands)

Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. 	Obligations incurred                                                           $          156,973,842 $                145,600,995
2. 	Less: Spending authority from offsetting collections and recoveries (-)                   -14,269,297                  -10,409,647
3. 	Obligations net of offsetting collections and recoveries                       $          142,704,545 $                135,191,348
4. 	Less: Offsetting receipts (-)                                                                -140,980                     -185,423
5. 	Net obligations                                                                $          142,563,565 $                135,005,925
Other Resources:
6. 	Donations and forfeitures of property                                                               0                            0
7. 	Transfers in/out without reimbursement (+/-)                                                  261,389                       46,239
8. 	Imputed financing from costs absorbed by others                                               724,671                      698,815
9. 	Other (+/-)                                                                                -1,265,895                    3,690,029
10. Net other resources used to finance activities                                 $             -279,835 $                  4,435,083
11. Total resources used to finance activities
                                                                                   $          142,283,730 $                139,441,008
Resources Used to Finance Items not Part of the Net Cost of Operations:
12. Change in budgetary resources obligated for goods, services and benefits
    ordered but not yet provided:
    A. Undelivered Orders (-)                                                      $           -7,144,892 $                 -2,386,909
    B. Unfilled Customer Orders                                                                   627,428                     -197,170
13. Resources that fund expenses recognized in prior Periods (-)                                 -801,933                     -898,944
14. Budgetary offsetting collections and receipts that do not affect Net Cost of                  140,978                      185,423
    Operations
15. Resources that finance the acquisition of assets (-)                                      -15,504,535                  -17,411,172
16. Other resources or adjustments to net obligated resources that do not
    affect Net Cost of Operations:
    A. Less: Trust or Special Fund Receipts Related to exchange in the                                 0                            0
        Entity’s Budget (-)
    B. Other (+/-)                                                                              1,004,509                   -3,736,270
17. Total resources used to finance items not part of the Net Cost of
    Operations                                                                     $          -21,678,445 $                -24,445,042
18. Total resources used to finance the Net Cost of Operations                     $          120,605,285 $                114,995,966

Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resoucres in Future Period:
19. Increase in annual leave liability                                             $               3,809 $                    491,847
20. Increase in environmental and disposal liability                                             343,915                            0
21. Upward/Downard reestimates of credit subsidy expense (+/-)                                         0                            0
22. Increase in exchange revenue receivable from the public (-)                                        0                            0
23. Other (+/-)                                                                                   84,400                      610,486
24. Total components of Net Cost of Operations that will Require or Generate
    Resources in future periods
                                                                                   $             432,124 $                   1,102,333
Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                  $           11,977,009 $                 16,091,380
26. Revaluation of assets or liabilities (+/-)                                                  1,429,657                      569,343
27. Other (+/-)
	 A. Trust Fund Exchange Revenue                                                                        0                            0
	 B. Cost of Goods Sold                                                                                 0                            0
	 C. Operating Material and Supplies Used                                                      25,927,617                   13,272,303
	 D. Other                                                                                    -23,624,862                   -8,973,175
28. Total Components of Net Cost of Operations that will not Require or            $           15,709,421 $                 20,959,851
    Generate Resources
29. Total Components of Net Cost of Operations that will not Require or
    Generate Resources in the current period                                       $           16,141,545 $                 22,062,184
30. Net Cost Operations                                                            $          136,746,830 $                137,058,150


                                                                                                                                    71
           General Fund
           Notes to the Principal Statements




Relevant Information for Comprehension
Beginning 4th Quarter, FY 2007, the Air Force began presenting the Statement of Financing (SOF) as a note in accordance
with the Office of Management and Budget Circular A-136. The SOF will no longer be considered a basic statement and is
now referred to as “Reconciliation of Net Cost of Operations to Budget.”

Because of the Air Force’s financial system limitations, budgetary data is not in agreement with proprietary expenses and
assets capitalized. Differences have not existed in the past so the difference between the budgetary and proprietary data is
being researched to determine the cause. The note schedule was adjusted by $7.8 million to bring it into balance with the
Statement of Net Cost. The adjustment was to the Other Components not Requiring or Generating Resources category. 	

The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary transac-
tions not being eliminated:

      yy Obligations Incurred
      yy Less: Spending Authority from Offsetting Collections and Recoveries
      yy Obligations Net of Offsetting Collections and Recoveries
      yy Less: Offsetting Receipts
      yy Net Obligations
      yy Undelivered Orders
      yy Unfilled Customer Orders

Other Resources, Other consists of other gains and losses to adjust intragovernmental transfers in.

Other resources or adjustments to net obligated resources that do not affect the Net Cost of Operations, Other consists of net
transfers in and transfers out without reimbursement and other gains and losses to adjust intragovernmental transfers in.

Components requiring or generating resources in future periods are costs not funded in the period the costs are incurred.
The expense and the corresponding liability are recognized in the current period but the budgetary resources will not be pro-
vided until a subsequent period. The amount of liabilities not covered by budgetary resources for the 4th Quarter, FY 2007,
is $10.2 billion. In general, the changes in liabilities not covered by budgetary resources as shown on the Balance Sheet are
reflected on the Reconciliation of Net Cost of Operations to Budget. Differences are a result of custodial liabilities, unfund-
ed capital lease liabilities, and environmental liabilities covered by unobligated budgetary resources.

Liabilities not covered by budgetary resources on the Balance Sheet and the amount reported as components requiring or
generating resources in future periods on the Reconciliation of Net Cost of Operations to Budget differs by $512.4 million.
This difference consists of Custodial Lease Liabilities of $467.2 million which are offset by a nonentity asset account, not
an expense; unfunded environmental liabilities of $37.5 million which are offset by the unfunded expenses, previously esti-
mated and recorded as unfunded; and $7.7 million in unfunded capital leases which are offset by a funded expense account.

Note 22. Disclosures Related to Incidental Custodial Collections
The Air Force collected $68.1 million of incidental custodial revenues generated from collection of accounts receivable in
cancelled accounts. The Air Force distributed $68.1 million to the U.S. Treasury.


72
                                                                                                         General Fund
                                                                                           Notes to the Principal Statements




Note 23. Earmarked Funds
                                                            Medicare Eligible
             BALANCE SHEET                    Military                           Other Earmarked
                                                           Retiree Health Care                      Eliminations        Total
            As of September 30           Retirement Fund                              Funds
                                                                  Fund
(amounts in thousands)

ASSETS
Fund balance with Treasury               $             0   $                 0   $         7,964    $          0    $       7,964
Investments                                            0                     0               823               0                823
Accounts and Interest Receivable                       0                     0                 2               0                  2
Other Assets                                           0                     0                 5               0                  5
Total Assets                             $             0   $                 0   $         8,794    $          0    $       8,794


   LIABILITIES AND NET POSITION
         As of September 30

Military Retirement Benefits and Other   $             0   $                 0   $             0    $          0    $            0
Federal Employment Benefits
Other Liabilities                                      0                     0             4,246           -1,930           2,316
Total Liabilities                        $             0   $                 0   $         4,246    $      -1,930   $       2,316
Unexpended Appropriations                              0                     0                 0               0                 0
Cumulative Results of Operations                       0                     0             4,548               0            4,548
Total Liabilities and Net Position       $             0   $                 0   $         8,794    $      -1,930   $       6,864


       STATEMENT OF NET COST
          As of September 30

Program Costs                            $             0   $                 0   $        16,632    $          0    $      16,632
Less Earned Revenue                                    0                     0            -13,867              0          -13,867
Net Program Costs                        $             0   $                 0   $         2,765    $          0    $       2,765
Less Earned Revenues Not Attributable
to Programs                                            0                     0                 0               0                 0
Net Cost of Operations                   $             0   $                 0   $         2,765    $          0    $       2,765


  STATEMENT OF CHANGES IN NET
            POSITION
        As of September 30

Net Position Beginning of the Period     $             0   $                 0   $         4,540    $          0    $       4,540
Net Cost of Operations                                 0                     0             2,765               0            2,765
Budgetary Financing Sources                            0                     0             2,773               0            2,773
Other Financing Sources                                0                     0                 0               0                 0
Change in Net Position                   $             0   $                 0   $             0    $          0    $            0
Net Position End of Period               $             0   $                 0   $         4,548    $          0    $       4,548



                                                                                                                                 73
            General Fund
            Notes to the Principal Statements




Earmarked Funds
Department of the Air Force General Gift Fund [10 USC 2601 (b)]
The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real
or personal property, made on the condition that it is used for the benefit (or in connection with the establishment, main-
tenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund is
available to such institutions or organizations – subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is added back into the
fund.

Wildlife Conservation Fund [16 USC 670 (a)]
The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military instal-
lations, (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping, and nonconsump-
tive uses, and (3) the public access to military installations to facilitate its use – subject to safety requirements and military
security. The fund is available to carry out these programs and other such expenses that may be necessary for the purpose
of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to col-
lect fees from the sale of hunting and fishing permits.

Air Force Cadet Fund [37 USC 725 (s)]
The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made for the per-
sonal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at least equal
to any disbursements made.

The Air Force Cadet Fund is classified as a special fund, the Air Force General Gift Fund and Wildlife Conservation Fund
are trust funds. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.

Relevant Information for Comprehension
The Total Earmarked Funds column is shown as consolidated. All intraDoD activity between earmarked funds and nonear-
marked funds has been eliminated from this column, which causes assets to not equal liabilities and net position.




74
                                                                                                            General
                                                                                                                 TITLE
                                                                                                                    Fund
                                                                                                                       Sub Title
                                                                                              Notes to the Principal Statements




Note 24. Other Disclosures
                                                                                      2007
 As of September 30                                                              Asset Category
                                                   Land and Buildings         Equipment             Other             Total
 (amounts in thousands)


 1. ENTITY AS LESSEE-Operating Leases
 Future Payments Due
 Fiscal Year
 2008                                          $                 54,367   $               0     $      113,202   $         167,569
 2009                                                            55,125                   0            117,730             172,855
 2010                                                            56,283                   0            122,440             178,723
 2011                                                            57,465                   0            127,337             184,802
 2012                                                            58,671                   0            132,431             191,102
 After 5 Years                                                   59,903                   0            137,728             197,631
 Total Future Lease Payments Due               $                341,814   $               0     $      750,868   $       1,092,682


Relevant Information for Comprehension
Leases in the land and buildings category include costs for operating leased housing facilities for the active Air Force in the
U.S. and overseas. Section 801 Family Housing Program leases are not included in this category.

The Air Force does not have any leases in the equipment category.

Other leases consist of Air Force vehicle leases from the General Services Administration and commercial lessors located in
Europe, Southwest Asia, and the U.S.

Note 25. Restatements
Not Applicable




                                                                                                                                   75
     TITLE       TITLE
     Sub Title   Sub Title




76                     76
                                                       General
                                                            TITLE
                                                               Fund
                                                                Sub Title
                          Required Supplementary Stewardship Information




General Fund
Fiscal Year 2007
Required Supplementary
Stewardship Information




                                                                    General Fund—Required Supplementary Stewardship Information




                                                                               77
              General Fund
              Required Supplementary Stewardship Information




STEWARDSHIP INVESTMENTS
Stewardship investments are substantial investments made by DoD for the long-term benefit of the nation and public, but
are not physical assets owned by DoD. Stewardship investments include expenses incurred for federally financed but not
federally owned physical property (Nonfederal Physical Property) and federally financed research and development (Re-
search and Development).

NONFEDERAL PHYSICAL PROPERTY
Nonfederal Physical Property investments are expenses included in calculating net cost incurred by the reporting entity for
the purchase, construction or major renovation of physical property owned by state and local governments. The expenses
include the costs identified for major additions, alterations and replacements, purchases of major equipment, and purchases
or improvements of other nonfederal assets. In addition, Nonfederal Physical Property Investments include federally-
owned physical property transferred to state and local governments.

                                             NONFEDERAL PHYSICAL PROPERTY
                                        Yearly Investment in State and Local Governments
                                         For the Current and Four Preceding Fiscal Years
                                                      (amounts in millions)
 Categories                                 FY 2007         FY 2006          FY 2005           FY 2004            FY 2003
 1. Transferred Assets:                 $       0       $       0        $        0        $        0         $        0
    National Defense Mission Related

 2. Funded Assets:                      $      2.80     $      8.50      $      $8.30      $      18.30       $      11.31
     National Defense Mission Related
 Totals                                 $      2.80     $      8.50      $      $8.30      $      18.30       $      11.31


The Air National Guard investments in Nonfederal Physical Property are strictly through the Military Construction Cooper-
ative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint participation with States,
Counties, and Airport Authorities for construction or repair of airfield pavements and facilities required to support the flying
mission assigned at these civilian airfields.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current DoD systems are unable to capture and summarize costs in accordance with the Federal GAAP re-
quirements.

RESEARCH AND DEVELOPMENT
Investments in research and development are incurred in the search for new or refined knowledge and ideas and for the
application or use of such knowledge and ideas for the development of new or improved products and processes with the
expectation of maintaining or increasing national economic productive capacity or yielding other future benefits.




78
                                                                                                              General Fund
                                                                        Required Supplementary Stewardship Information




                                  INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                     Yearly Investment in Research and Development
                                     For the Current and Four Preceding Fiscal Years
                                                   (amounts in millions)
 Categories                                                   FY 2007         FY 2006         FY 2005         FY 2004         FY 2003
 1. Basic Research                                        $         383 $           334 $           287 $           209 $           220
 2. Applied Research                                              1,032             939             805             805             735
 3. Development
    Advanced Technology Development                                 937             901             966             681             545
    Advanced Component Development and Prototypes                 2,310           1,985           1,897           1,426           4,385
    System Development and Demonstration                          4,094           4,172           4,179           4,390           4,341
    Research, Development, Test and Evaluation
       Management Support                                         1,286           1,271             824             890             880
    Operational Systems Development                              11,481           9,622          10,083          10,361           7,571
 4. Totals                                                $      21,523   $      19,224   $      19,041   $      18,762   $      18,677


Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
of observable facts without specific applications, processes, or products in mind. Basic Research involves the gathering of
a fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding for the
purpose of meeting a recognized need. This research points toward specific military needs with a view toward developing
and evaluating the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are
scientific studies, investigations, and research papers, hardware components, software codes, and limited construction of, or
part of, a weapon system to include nonsystem specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technologi-
cal feasibility, assessment of operability, and production capability. Development is comprised of the following five stages:

1.	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from research
    directed toward proof of technological feasibility and assessment of operational and producibility activities rather than
    the development of hardware for service use. Employs demonstration activities intended to prove or test a technology or
    method.

2.	 Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating en-
    vironment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this
    phase are generally system specific. Major outputs of Advanced Component Development and Prototypes are hardware
    and software components, or complete weapon systems, ready for operational and developmental testing and field use.

3.	 System Development and Demonstration concludes the program or project and prepares it for production. It consists
    primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon systems finalized for
    complete operational and developmental testing.




                                                                                                                                        79
           General Fund
           Required Supplementary Stewardship Information




4.	 RDT&E Management Support is support for installations and operations for general research and development use.
    This category includes costs associated with test ranges, military construction maintenance support for laboratories,
    operations and maintenance of test aircraft and ships, and studies and analysis in support of the R&D program.

5.	 Operational Systems Development is concerned with development projects in support of programs or upgrades still in
    engineering and manufacturing development, which have received approval for production, for which production funds
    have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major categories:

Basic Research - In an effort to reduce atmospheric interference in free space laser communications, a team of Air Force
scientists demonstrated new ways to deal with fading effects that occur when light interferes with itself as it propagates
through atmospheric turbulence. Researchers also developed a wave optics simulation that is the first to accurately model a
“partially coherent beam” to reduce signal fading due to atmospheric effects (cloud or fog).

The Air Force, in partnership with the U.S. Department of Energy and the National Science Foundation, is researching heat
flow related to the field of molecular electronics. Long-chain molecules attached to tiny electrodes are used to transport and
switch electrons. This effort led to development of an ultrafast thermal measurement technique critical for the stability and
performance of heat sensitive micro-nano applications, such as lasers and optoelectronic devices.

Applied Research - Air Force scientists discovered a suitable method for applying a polymer nanocomposite solution
that will serve as an electromagnetic interference (EMI) shielding material for use in protecting ground-based structures,
aircraft, spacecraft, and satellites from internal and external EMI effects. The use of polymer nanocomposites as an EMI
shielding material vice the current aluminum systems will result in reduced weight and eliminate corrosion resulting from
the hardware necessary to keep the aluminum in place. The new method can be quickly and easily adapted as a retrofit to
systems that are currently unshielded.

The Air Force is developing state-of-the-art weaponry that users can launch into the vicinity of mobile targets to autono-
mously find and defeat them. This capability provides increased survivability, multiple kills per pass, and minimal pilot
workload. Since there is an inherent delay between observing a target and subsequently launching a weapon, users require
the capability to rapidly search a large area. They also need a weapon that can operate day or night and in adverse weather.
Under the Wide-Area Search Synthetic Aperture Radar program, the Air Force is partnering with industry to use Synthetic
Aperture Radar (SAR) weapons technology to address the need to perform wide-area searches for mobile and relocatable
targets in adverse weather. The research team transformed a SAR device into a multimode radar seeker, combining SAR
technology with a ground moving-target indicator and high-range-resolution radar signal processing. Users will employ
these modes to perform autonomous target classification to increase probability of kill.

The Air Force and the Federal Aviation Administration are working together to improve aircrew safety in situations where
lasers are carelessly or maliciously pointed at aircraft. A team of optics, human factors, and computer specialists devel-
oped a one-of-a-kind laser positioning system integrated with a Boeing 737 flight simulator that realistically mimics a laser
flashed at an aircraft cockpit from the ground. A handheld laser pointer directed at an approaching aircraft from two miles
away can cause windshield glare, after images, and flash blindness that temporarily impairs vision and leaves a pilot unable
to see an airport’s runway and surrounding landscape. The 4-axes-of-motion system uses fiber-optic cables to transport a
laser beam from its source to the simulator. Researchers will monitor the reactions of Air Force pilots to laser illumination
during simulated flights and use this data to generate safety procedures and prepare for further in-flight testing.




80
                                                                                                        General Fund
                                                                      Required Supplementary Stewardship Information




Advanced Technology Development - The Air Force developed new work-centered, interface-distributed environment
software that provides a timeline visualization capability that reflects near-real-time updates to mission data and depicts a
given problem in the context of related elements. The visual fusion of relevant information in the display assists operators
in rapidly understanding, not only the meaning of an alert, but the factors affecting mission viability and possible solutions.
Also of significance is the tool’s capacity to perform “what-if” simulations. These hypothetical scenarios facilitate ongo-
ing situational awareness by allowing operators to examine the repercussions of any changes made to the mission itinerary.
This unique capability enables a prompt reaction to mission problems – a response based on actionable information and
executed in a timely manner. The new capability has been deployed within the Air Mobility Division of the Al-Udeid Air
Base Combined Air Operations Center in Qatar, where it is used to attain “fleet-at-a-glance” situational awareness of in-
theater airlift.

As part of efforts to reduce the U.S. military’s reliance on foreign energy sources, the Air Force completed certification
of an alternative jet fuel on the B-52H Stratofortress bomber on August 8, 2007 at Edwards AFB, California. The signing
ceremony certified that the blended Fischer-Tropsch (FT) and JP-8 fuel is safe for operational use in all B-52H aircraft and
marked the formal conclusion of testing. This FT experiment is part of the Pentagon’s Assured Fuel Initiative that seeks to
convert coal, of which the United States has abundant reserves, into liquid fuel. The fuel is derived from refining natural
gas under the FT process, which is named after its German inventors of the 1920’s. The Air Force plans to test and certify
every airframe to fly on a domestically produced synthetic fuel blend by early 2011.

The Air Force developed improved turbine engine life-management tools that integrate state-of-the-art material analysis,
enhanced non-destructive evaluation, and data management as a comprehensive life management system. Component cost
avoidance is estimated to exceed $300 million for the F100/F110 engine series alone.

The Air Force developed a custom-molded, noise-attenuating earplug that enables seamless voice communications to and
from radios, while electronically passing all outside environmental sounds to the operator at safe levels. The Joint Un-
manned Combat Air Systems (J-UCAS) program was terminated in December 2005. The two J-UCAS X-45A aircraft flew
a total of 64 flights and performed limited demonstrations of precision weapon drops, multi-ship coordinated flight, and col-
laborative targeting technologies, illustrating the potential for future unmanned combat air systems development programs.
The Air Force continued to advocate the AFRL Automated Air Refueling (AAR) program, which continues to make historic
progress. The AAR program consists of a combination of simulation and flight tests in order to develop the appropriate
requirements and system design for UAV refueling, which may also be applied to manned refueling. In the flight test, the
AAR program uses the Calspan Learjet (UAV Surrogate) and the 107th ANG KC-135 for flight test. In August 2006, dur-
ing the Station-Keeping Flight Test, the AAR program demonstrated “hands-off” formation flight for over 85 minutes in the
contact position and more than 229 minutes in all refueling positions. In August 2007, during the Positions and Pathways
Flight Test, the AAR program successfully demonstrated maneuvering from the observation position (off the wing of the
tanker) to pre-contact position, to the contact position, and then back.

Demonstration and Validation (Advanced Component Development and Prototypes) - The Air Force’s Advanced
Component Development and Prototypes programs are comprised of system specific advanced technology integration
efforts accomplished in an operational environment to help expedite transition from the effort. In FY 2004, the Air Force
successfully demonstrated Fighter Aircraft Command and Control Enhancement (FACE). FACE provides an improved,
beyond-line-of-sight (BLOS) command and control link with fighter aircraft by integrating Iridium telephone communica-
tions equipment with existing aircraft communications equipment. BLOS capability has traditionally been provided by
low-density, high-demand airborne platforms acting as communications relays. FACE provides relief for these overworked
assets, while allowing combatant commanders to maintain positive control of the battle space. FACE, which has been ap-
proved for deployment to Afghanistan through the Air Force’s Rapid Response Process, has the potential for extensive use
in virtually any area of responsibility, including Homeland Defense.
                                                                                                                             81
           General Fund
           Required Supplementary Stewardship Information




In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly Space Based Radar) to ad-
dress congressional concerns with technical risk, affordability, and DoD-Intelligence Community (IC) integration. In Janu-
ary 2005, the Secretary of Defense and the Director of Central Intelligence signed a joint memo designating the SR program
as the single space radar capability for the nation. In May 2007, the Deputy Secretary of Defense and the Principle Deputy
Director of National Intelligence signed the Joint Radar Enterprise Memorandum, agreeing to a joint funding arrangement,
acquisition strategy, and management structure. The details of this arrangement are being captured in the Joint Radar Enter-
prise Management Plan. The SR Initial Capabilities Document (ICD) was approved by the IC Mission Requirements Board
(MRB) in December 2005 and the DoD Joint Requirements Oversight Council (JROC) in January 2006. The Capability
Development Document is being prepared in parallel with the SR system concept of operations (CONOPS), and both are
on track for MRB and JROC approval in 1st Quarter, FY 2009. In addition, the IC and OSD Cost Analysis Improvement
Groups (CAIG) are developing a comprehensive joint Independent Cost Estimate (ICE), with an expected completion date
of November 2007. The SR program implemented a demonstration framework approach to system development. This
approach will further technology maturity risk reduction and CONOPS experimentation through a mix of space, air, and
land-based demonstration activities that will maximize existing assets. The SR program continues to make significant ad-
vancement towards the System Requirements Review milestone scheduled for 1st Quarter, FY 2008. The SR program will
provide day/night, all-weather global surface moving target indications (MTI), SAR, and high-resolution terrain informa-
tion (HRTI) capabilities from a space-based platform. Initial launch capability is planned for 4th Quarter, FY 2016.

System Development and Demonstration - The Air Force’s System Development & Demonstration (SDD) efforts are
development projects which have not received approval for full-production. In FY 2006, the F-22 Raptor program closed
out Engineering and Manufacturing Development (EMD) and is now in Full Rate Production. The Air Combat Command
at Langley AFB, VA, achieved Initial Operational Capability (IOC) in December 2005. In closing out EMD in June 2006,
the F-22 program completed the full-scale airframe structural fatigue testing and analysis, completed support and test of the
flight test engines, and completed integration of the Operational Flight Program (OFP) software in the Avionics Integration
Lab for future software development and support efforts. The successful conclusion of EMD laid the foundation for future
F-22 Raptor enhancements under the current incremental modernization strategy.

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force, Navy, Marine
Corps and our allies, with maximum commonality among the variants to minimize life cycle costs. The Air Force Conven-
tional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft to replace the F-16 and A-10
and complement the F-22. While the F-22 will establish air dominance, the F-35 with its combination of stealth, large inter-
nal payloads and multi-spectral avionics will provide persistent stealth and precision engagement to the future battlespace.
The F-35 is in the 6th year of a 12-year SDD effort. Significant program accomplishments in FY 2007 include:

          yy First flight of CTOL AA-1 on December 15, 2006
          yy Completed Critical Design Review (CDR) for Carrier Variant (CV) in June 2007
          yy Awarded contract for Low Rate Initial Production (LRIP) Lot 1 (2 CTOL aircraft) in July 2007
          yy Fourteen test aircraft are currently in assembly (5 CTOLs, 5 STOVLs, and 4 CVs)

The Transformational Satellite Communications (TSAT) system will provide the essential capabilities required to enable the
DoD’s vision for 21st century military operations. TSAT, which consists of a five-satellite geosynchronous satellite constel-
lation, network operations centers, and associated ground architecture, will establish global internet-like connectivity that
is essential for U.S. and allied personnel to communicate as a joint networked force. It will also extend assured, protected
communications connectivity to mobile forces in theater and vastly increase the overall capacity of our military satellite in-


82
                                                                                                        General Fund
                                                                       Required Supplementary Stewardship Information




frastructure. FY 2007 has proven to be a milestone year for TSAT. The program made excellent progress in demonstrating
the maturity of its critical technology elements by successfully completing the third of three demonstrations at MIT Lincoln
Laboratory (MIT/LL) testing each competing contractor’s proposed Laser Communications (or ‘lasercom’) and next-gen-
eration satellite processor/router (NGPR) equipment. The program also completed a successful four-week system design
review (SDR) where the government assessed the viability of the architecture designs for each competing contractor on the
satellite segment and on the TSAT Mission Operations System (TMOS) ground segment, whose contract was awarded in
January 2006.

Based upon the extent and success of risk reduction efforts accomplished thus far on this program, TSAT is prepared to
meet a Key Decision Point-B (KDP-B) milestone in order to gain Milestone Decision Authority (MDA) acceptance to pro-
ceed into the Preliminary Design Phase of the program’s acquisition cycle. In preparation for the KDP-B decision, several
in-depth reviews were performed this summer on TSAT, including an Independent Program Assessment, an Independent
Cost Evaluation, and a Technical Readiness Assessment. The underlying result of these detailed reviews was that the pro-
gram structure, budgeting, and technical development are well defined, properly managed and adequately mature enough
to support the initiation of preliminary design activities. Additionally, in June 2007, the TSAT program released a Request
for Proposals (RFP) on the space segment development contract. The Air Force is reviewing bids from multiple contrac-
tors. Based on an Authority to Proceed from the MDA in November 2007, the TSAT program anticipates a contract award
announcement as early as the first quarter of FY 2008.

TSAT is on track to successfully meet the KDP-B review in November 2007, award the space segment contract in early FY
2008, begin satellite design work, and continue development of the TMOS segment. The ultimate goal is an FY 2016 first
launch of TSAT.

Research, Development, Test and Evaluation Management Support - The Air Force’s Research, Development, Test and
Evaluation (RDT&E) Management Support efforts include projects directed toward support of installation or operations
required for general research and development use. The projects include test ranges, military construction, maintenance
support of laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the
research and development program. An example of Air Force RDT&E management support is the Major Test and Evalu-
ation Investment program, which funds the planning, improvements and modernization for three national asset test centers
having over $10 billion of unique test facilities/capabilities operated and maintained by the Air Force for the Department of
Defense (DoD) test and evaluation missions, and available to others having a requirement for their unique capabilities.

Many efforts are contained within the Air Force I&M program, but two examples are the Advanced Airborne Instrumen-
tation Integration (AAII) at AAC Eglin AFB, which will provide a common suite of aircraft instrumentation among test
centers. AAII will provide capabilities to quickly and non-intrusively collect airborne weapon data for developmental and
operational test and training that will support future test customers and be standardized among Air Force Test Centers. The
key features will be high data rates, smaller size, high reliability with the use of solid state recording units and data han-
dling, and efficient use of the radio frequency spectrum. In addition, the Advanced GPS Range System (AGRS) will provide
AFFTC Edwards AFB and AAC Eglin AFB customers with increased Time-Space-Position-Information (TSPI) by upgrad-
ing GPS-based Range TSPI systems. AGRS will increase TSPI accuracy (Position, Velocity, and Attitude), use modularized
and miniaturized system components upgrade GPS TSPI software for real-time data filtering, processing, and display, and
upgrade the data link capability.

Operational Systems Development - The Air Force’s operational system efforts include projects in support of develop-
ment acquisition programs or upgrades in SDD. The F-22 Raptor program continued full rate production on the world’s
only 5th generation production line, and it will maintain its role as the key enabler of joint air dominance through an incre-


                                                                                                                             83
           General Fund
           Required Supplementary Stewardship Information




mental modernization program funded through Operational Systems Development activities. Over 100 aircraft have been
delivered through the end of FY 2007. The development program will enhance the air vehicle, engine, and training systems
to improve F-22A weapons, communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities to further
enhance Global Strike capabilities. Increment 2 is now resident in delivered aircraft and represents the first upgrade over
IOC capabilities. FY 2007 activities included development of the Increment 3 suite. A Critical Design Review (CDR) for
Increment 3.1, focused on dramatically improving the F-22A Raptor’s Air-To-Ground attack capabilities with 4th generation
synthetic aperture radar and a new weapon, the Small Diameter Bomb, was completed.

The Advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7) effort completed SDD in May
2004 and Operational Test (OT) in September 2007. Production for this variant began in the 4th Quarter, FY 2004, and will
complete in the 2nd Quarter, FY 2009. The AIM-120C-7 provides a major upgrade over the AIM-120C-6 guidance sec-
tion, particularly the use of circular processor cards over previously used rectangular cards. These cards provide significant
space savings within the missile for added capability in addition to providing greater processing power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This new AIM-120D missile
will add a GPS/INU and a 2-way Data Link to enhance accuracy and control, and thus, increasing weapon effectiveness. In
addition, the AIM-120D will have increased range and third party targeting which expands the HOBS launch envelope. The
SDD contract was awarded in December 2003. Captive flight testing has been initiated on the F/A-18C/D and F-15C/D.
There are currently two proof-of-design (POD) units and five proof-of-manufacturing units supporting simulation/integra-
tion labs, production test equipment development, and ground and flight testing.

The Small Diameter Bomb I (SDB I) program will increase the number of kills per platform or sortie (x4) while achiev-
ing required effects by improving accuracy and reducing collateral damage over current inventory weapons. SDB I is an
incremental development weapon program that entered low rate initial production in FY 2005. The first increment of SDB
I will attack fixed and stationary targets using anti-jam/SAASM Inertial Navigation System/Global Positioning Satellite
(GPS) aided by a very wide area differential GPS solution and standoff capability. The program successfully completed the
IOT&E phase of Seamless Verification in July 2006. The program met Required Assets Available (RAA) in August 2006.
SDB I weapon deliveries and F-15E aircraft modifications were completed in time to not only meet RAA requirements,
but also a real-world operational deployment whereby 43 weapons have been successfully dropped. The SDB will provide
transformational capability to the Air Force by increasing loadout per weapon station on multiple platforms, reducing sor-
ties and minimizing collateral damage.

The SDB I Focused Lethality Munition (FLM), a variant of SDB I, is a Joint Capabilities Technology Development (JCTD)
program that will demonstrate the military utility of a low collateral damage warhead integrated into the SDB I weapon.
This JCTD will fully leverage the SDB I program to facilitate rapid acquisition. FLM will exploit the Multi-phase Blast
Explosive fill and composite case warhead to create a more intense and lethal near-field blast with significantly less war-
head fragmentation effects than current weapons. The FLM capability will increase combatant commanders’ strike options,
particularly in an urban environment, while decreasing collateral damage risk. The FLM JCTD effort began in August 2006
and will deliver a functional prototype weapon in July 2008 and upon a successful Military Utility Assessment, FLM will
transition to operational use.




84
                                             General Fund
                             Required Supplementary Information




General Fund
Fiscal Year 2007
Required Supplementary Information




                                                           General Fund—Required Supplementary Information




                                                                          85
             General Fund
             Required Supplementary Information




Statement of Disaggregated Budgetary Resources - General Fund
As of September 30, 2007 and 2006 (amounts in thousands)
                                                                                                       Research,
                                                                                                      Develpment,        Operation and
                                                                                      Other
                                                                                                         Test &          Maintenance
                                                                                                       Evaluation

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                               $        4,099   $     3,658,594    $       1,304,025
2. Recoveries of prior year unpaid obligations                                              122           523,661            2,425,681
3. Budget authority
   A. Appropriation                                                                    404,235         24,740,416           48,401,385
   B. Borrowing authority                                                                    0                  0                    0
   C. Contract authority                                                                     0                  0                    0
   D. Spending authority from offsetting collections
      1. Earned
         a. Earned                                                                       14,055         3,220,296            6,145,858
         b. Change in receivables from Federal sources                                        0           -10,279             -474,146
      2. Change in unfilled customer orders
         a. Advance received                                                                  0           215,189               28,987
         b. Without advance from Federal sources                                              0            52,586              174,301
      3. Anticipated for rest of year, without advances                                       0                 0                    0
      4. Previously unavailable                                                               0                 0                    0
      5. Expenditure transfers from trust funds                                               0                 0                    0
   E. Subtotal                                                                   $      418,290   $    28,218,208    $      54,276,385
4. Nonexpenditure transfers, net, anticipated and actual                               -401,461           -11,567              767,949
5. Temporarily not available pursuant to Public Law                                           0                 0                    0
6. Permanently not available                                                                  0          -291,588             -587,618
7. Total Budgetary Resources                                                     $       21,050   $    32,097,308    $      58,186,422

STATUS OF BUDGETARY RESOURCES:
8. Obligations incurred
   A. Direct                                                                     $        2,663   $    24,768,002    $      50,505,393
   B. Reimbursable                                                                       13,867         3,453,566            6,115,425
   C. Subtotal                                                                           16,530        28,221,568           56,620,818
9. Unobligated balance
   A. Apportioned                                                                         1,249         3,475,466              169,482
   B. Exempt from apportionment                                                           3,271                 0                    0
   C. Subtotal                                                                            4,520         3,475,466              169,482
10. Unobligated balance not available                                                         0           400,273            1,396,122
11. Total status of budgetary resources                                          $       21,050   $    32,097,307    $      58,186,422

CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                                     1,643         8,037,755           19,025,559
    B. Less: Uncollected customer payments from Federal sources, brought
       forward, October 1                                                         $           0   $       -765,712   $      -1,659,021
    C. Total unpaid obligated balance                                                     1,643          7,272,043          17,366,538
13. Obligations incurred net (+/-)                                                $      16,531   $     28,221,568   $      56,620,817
14. Less: Gross outlays                                                                 -13,580        -26,345,869         -52,328,432
15. Obligated
    A. Actual transfers, unpaid obligations (+/-)                                             0                 0                    0
    B. Actual transfers, uncollected customer payments from Federal sources (+/-)             0                 0                    0
    C. Total Unpaid obligated balance transferred, net                                        0                 0                    0
16. Less: Recoveries of prior year unpaid oblligations, actual                    $        -122   $      -523,661    $      -2,425,681
17. Change in uncollected customer payments from Federal sources (+/-)                        0           -42,306              299,844
18. Obligated balance, net, end of period
    A. Unpaid obligations                                                                 4,471         9,380,793           20,892,264
    B. Less: Uncollected customer payments                                                    0          -808,018           -1,359,177
    C. Total, unpaid obligated balance, net, end of period                                4,471         8,572,775           19,533,087

NET OUTLAYS:
19. Net Outlays
    A. Gross outlays                                                             $       13,580   $    26,354,869    $      52,328,432
    B. Less: Offsetting collections                                                     -14,055        -3,435,485           -6,174,845
    C. Less: Distributed Offsetting receipts                                           -140,980                 0                    0
20. Net Outlays                                                                  $     -141,455   $    22,919,384    $      46,153,587
86
                                                                                          General Fund
                                                                       Required Supplementary Information




                           Military               Military                2007                   2006
    Procurement                                 Contruction /
                          Personnel            Family Housing           Combined               Combined




$         9,813,139   $         421,054    $          1,912,016    $        17,112,927    $        13,006,208
            686,060             200,958                  85,459              3,921,941              1,450,906

         40,050,972          31,612,389               2,465,300            147,674,697            139,767,610
                  0                   0                       0                      0                      0
                  0                   0                       0                      0                      0


           460,706              383,486                  13,275             10,237,677              9,255,190
           -20,895              -12,429                       0               -517,749                -99,279

            130,940                   0                   1,502                376,618                -94,677
             23,890                  34                       0                250,810               -102,493
                  0                   0                       0                      0                      0
                  0                   0                       0                      0                      0
                  0                   0                       0                      0                      0
$        40,645,613   $      31,983,480    $          2,480,077    $       158,022,053    $       148,726,351
             49,625             621,942                -165,217                861,271              2,576,690
                  0                   0                       0                      0                      0
           -737,554            -129,435                 -22,810             -1,769,006             -3,046,233
$        50,456,883   $      33,097,999    $          4,289,525    $       178,149,186    $       162,713,922



$        36,905,597   $      32,481,017    $          1,862,160    $       146,524,833    $       136,439,546
            501,060             363,560                   1,530             10,449,009              9,161,449
         37,406,657          32,844,577               1,863,690            156,973,842            145,600,995

         12,507,710              20,595               2,399,336             18,473,839             14,998,616
                  0                   0                       0                  3,271                  3,174
         12,507,710              20,595               2,399,336             18,577,110             15,001,790
            542,515             232,827                  26,497              2,598,234              2,111,137
$        50,456,882   $      33,097,999    $          4,289,523    $       178,149,186    $       162,713,922



$        22,892,295   $         829,223    $          3,202,626    $        53,989,101    $        51,840,781
           -231,950               22,959                       0             -2,633,723            -2,835,497
         22,660,345              852,182               3,202,626             51,355,378            49,005,284
$        37,406,658   $       32,844,578   $           1,863,690   $        156,973,842   $       145,600,995
        -34,250,410          -31,140,311              -2,020,040           -146,107,640          -142,001,769

                  0                   0                       0                       0                     0
                  0                   0                       0                       0                     0
                  0                   0                       0                       0                     0
$          -686,060   $        -200,958    $            -85,459    $         -3,921,941   $        -1,450,906
             -2,995              12,395                       0                 266,938               201,773

         25,362,483           2,332,531               2,960,818             60,933,360             53,989,101
           -234,945              35,354                       0             -2,366,785             -2,633,723
         25,127,538           2,367,885               2,960,818             58,566,575             51,355,378



$        34,250,410   $      31,140,311    $          2,020,040    $       146,107,640    $       142,001,769
           -591,646            -383,486                 -14,777            -10,614,293             -9,160,512
                  0                   0                       0               -140,980               -185,423
$        33,658,764   $      30,756,825    $          2,005,263    $       135,352,367    $       132,655,834
                                                                                                            87
                General Fund
                Required Supplementary Information




DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
The Air Force has performance measures based on missions and outputs. The Air Force, however, is unable to accumulate
costs for major programs based on those performance measures, because its financial processes and systems were not de-
signed to collect and report this type of cost information. Until the process and systems are upgraded, the Department will
break out programs by the major appropriation groupings.

                                          REAL PROPERTY DEFERRED MAINTENANCE
                                            For Fiscal Year Ended September 30, 2007
                                                        (amounts in thousands)
                   Property Type                                                     Fiscal Year 2007
                                                       1. Plant Replacement    2. Required Work (deferred
                                                                                                              3. Percentage
                                                               Value                 maintenance)
 1.	Category 1: Buildings, Structures, and Utilities     $   236,608,198,469            $    14,661,965,726                   6%
 2.	Category 2: Buildings, Structures, and Utilities     $    14,960,189,031                         Note 1               Note 1
 3.	Category 3: Buildings, Structures, and Utilities     $    13,136,217,284            $     1,341,827,151                   10%
   (Heritage Assets)

Notes:
1.	 The Air Force does not track deficiency requirements for facilities excess to its mission needs.

Use of Q-Rating versus Facilities Sustainment Model (FSM) to reflect
Deferred Sustainment Maintenance
2.	 The use of Q-Rating as a basis of calculated deferred maintenance does not seem prudent. The services Q-Rating data
    is not a mature dataset as compared to the FSM dataset. We believe that the services will need at least 2 to 3 years to
    develop a better Q-Rating dataset. With the addition of facility sustainment requirements for this year, we believe the
    Q-Rating dataset has become even more unstable.

3.	 At this stage of the Q-Rating development and implementation, facility Q-Ratings can’t be readily tied to actual obliga-
    tions nor does facility Q-Ratings provide a consistent service-wide model based on commercial standards.

4.	 Based on previous submissions to HQ SAF/FMPS & DFAS-DE, the use of FSM as a benchmark has proven to be a very
    defendable model in the Air Force Corporate Structure (AFCS). FSM can be linked to actual obligations, is consis-
    tent across the services, and uses commercial standards in its development which provides the stability and credibility
    needed to defend our budgets in the AFCS.

5. 	The inclusion of the “A” factor to represent “acceptable operating condition” is not currently valid. At this time, there is
    no dataset which can be used to underpin target Q-Rating percentages nor to identify acceptable operating conditions for
    specific Air Force facilities.

6.	 At A=100%, the FY 2007 accumulated deferred sustainment based on Q-Ratings is $14.7 billion. Though a backlog of
    $14.7 billion obviously appears significant, this considerably large requirement adds little value in the AFCS’s decision-
    making process. From our experience, the AFCS will quickly question such a large backlog if used to defend our budget
    shortfalls. Variable “A” factors would need to be developed to make the proposed deferred maintenance concept fea-
    sible. For the purpose of this submittal, the Air Force set A at 100%.


  88
                                                                                                         General Fund
                                                                                       Required Supplementary Information




7.	 Strategically, the use of annual deferred sustainment maintenance based on FSM has already proven to be successful in
    defending our budgets through the AFCS. In FY 2006, the annual deferred sustainment maintenance based on FSM was
    at a reasonable level of $467 million.


                                 MILITARY EQUIPMENT DEFERRED MAINTENANCE
                                      For Fiscal Year Ended September 30, 2007
                                                  (amounts in thousands)
 Major Type
 1. Aircraft                                                                                                         $         250,953

 2. Software                                                                                                                   130,936

 3. Engines                                                                                                                     85,195

 4. Non-MSD Exchangeables                                                                                                       33,991

 5. Other Major End Items                                                                                                       33,471

 6. Missiles                                                                                                                     8,065

 7. Area Base Maintenance                                                                                                        9,274

 8. Storage                                                                                                                       879
 Total                                                                                                               $         562,764


The figures presented are projected deferred maintenance amounts for FY 2007, since the actual data for the FY 2007
GWOT Supplemental was not available.

The figures include Active Air Force, Air National Guard and the Air Force Reserve.

STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)
Heritage Assets are items of historical, natural, cultural, educational, or artistic significance (e.g., aesthetic) or items with
significant architectural characteristics.

                                                       HERITAGE ASSETS
                                           For Fiscal Year Ended September 30, 2007
               (a)                   (b)                  (c)                 (d)                  (e)                   (f)
                               Measurement
 Heritage Asset Categories                             FY 2006             Additions            Deletions            FY 2007
                                 Quantity
 Buildings and Structures           Each                         4,548                   0                  457                  4,091
 Archeological Sites                Sites                        1,514                   0                   89                  1,425
 Monuments & Memorials              Each                          244                    0                    0                   244
 Cemeteries                         Sites                          39                    0                    0                    39
 Museums                            Each                           14                    0                    1                    13
 Major Collections                  Each                            4                    0                    1                        3




                                                                                                                                  89
           General Fund
           Required Supplementary Information




1.	 Museums
The term “museum” means a public or private nonprofit agency or institution organized on a permanent basis for essen-
tially educational or aesthetic purposes, that utilizes a professional staff, owns or utilizes tangible objects, cares for the
tangible objects, and exhibits the tangible objects to the public on a regular basis (20 U.S.C. 9172). In accordance with Air
Force Mission Directive 29, the National Museum of the U.S. Air Force (NMUSAF) portrays the history and traditions of
the USAF through specialized interpretive exhibits and display of USAF historical property, and by operating the USAF’s
national museum. The Museum fulfills the Secretary of the Air Force’s statutory responsibility (10 U.S.C. 8013: 16 U.S.C.
432, 461, 10 U.S.C. 2572) for the identification, preservation, and utilization of the USAF’s historical property collection
which is an integral component of the national collection.

The National Museum of the United States Air Force, located at Wright-Patterson Air Force Base, Ohio, is the services’
single, authorized national museum. This museum has a professionally-qualified staff and is responsible to the Secretary of
the Air Force for the management and stewardship of the national historical collection as part of the United States Air Force
Heritage Program (USAFHP). The NMUSAF retains the majority of the national historic collection of artifacts, as well as
two dimensional objects (images, graphic arts, printed references, and paper ephemera), so they may be afforded the highest
level of professional care as well as exhibition to nearly 1.2 million visitors a year. The NMUSAF has achieved full profes-
sional accreditation by the American Association of Museums.

The other 12 reported museums are defined as Air Force Field Museums and are operated by their respective major com-
mands (MAJCOM’s). While they are responsible for Air Force Historical Property on loan from the NMUSAF, they have
been limited in both their scope and capabilities. The MAJCOM’s also operate at various base locations small heritage
centers and historical exhibits, which are further limited in capabilities and are neither manned nor resourced at professional
museum levels. All Air Force field museums have been reported to be in acceptable condition.

The single Air National Guard museum listed in 2006 was an erroneous report and has been deleted per National Guard
Bureau (NGB-PAI-H).

2. Monuments and Memorials
Monuments and Memorials are site and structures built to honor and preserve the memory of significant individuals and/
or events in history. The 244 memorials and monuments, except for 28, are all located at the Air Force Academy in the Air
Gardens and Honor Court. Most of these monuments and memorials honor specific individuals or cadet wings for various
accomplishments. The remaining 28 Air Force memorials, all with costs that exceed $100,000, are located on various Air
Force bases throughout the United States. All are reported in acceptable condition.

3. Cemeteries
Cemeteries are maintained on land where the gravesites of prominent historical figures are located. The Air Force has ad-
ministrative and curatorial responsibilities for 39 cemeteries on its Active Duty bases. The cemeteries are maintained by the
bases and are in good condition.

4. Archeological Sites
Archeological Sites are sites that have been identified, evaluated, and determined to be eligible for or are listed on the Na-
tional Register of Historic Places (NRHP).




90
                                                                                                        General Fund
                                                                                    Required Supplementary Information




As of September 20, 2007, the Air Force has 1,425 archaeological sites listed on or eligible for listing on the NRHP (as
reported in the FY 2006 Annual Report to Congress on Federal Archaeological Activity). The Air Force has 10,299 re-
corded, but unevaluated (potentially eligible) archaeological sites, and 5,238 sites considered not eligible for the Register.
A total of 16,962 archaeological sites have been reported from Air Force lands. Eligible and listed sites (heritage assets)
are protected from vandalism and looting, and are maintained in good condition on Air Force installations. Heritage asset
archaeological sites are subject to a National Historic Preservation Act, Section 106, review and consultation when affected
by Air Force undertakings.

5. Buildings and Structures
Buildings and Structures includes buildings and structures that are listed on, or eligible for listing on, the NRHP, including
Multi-use Heritage Assets. It also includes National Historic Landmarks; buildings or structures that are contributing ele-
ments to districts listed on or eligible for the NRHP or a National Historic Landmark District; and buildings and structures
designated eligible in the NHRP for purposes of program alternatives.

As of September 20, 2007, the Air Force considers 4,091 buildings and structures as heritage assets (non Capehart-Wherry
Era). Of these, 614 are in National Historic Landmarks, 164 are listed on the NRHP, and 3,340 are eligible for listing on the
NRHP. Heritage assets, buildings and structures, are maintained by each base civil engineering group and are considered to
be in good condition. These buildings and structures are subject to the review and consultation requirements of the NHPA,
Section 106, whenever Air Force undertakings might affect their historic characteristics.

As of September 20, 2007, the Air Force considers 15,787 buildings and structures as NRHP listed and eligible buildings
and structures. The majority of these are Capehart-Wherry Era (CWE) houses (11,696), which are subject to a recently
completed nationwide program comment from the Advisory Council on Historic Preservation which allows the Air Force to
demolish or remove all but three CWE houses from the Air Force inventory. We do not consider CWE housing as heritage
assets.

6. Major Collections
The Air Force has three significant or major collections. The Air Force Art Program Office, on behalf of the Office of the
Secretary of the Air Force, manages an extensive Art Collection available to a worldwide audience. The Air Force Acad-
emy (AFA) has two separate special collections which contain objects, memorabilia, and documents, as well as distinctive
works of original art held in support of academic programs. One less collection from FY 2006 is being reported by the
AFA. This collection of artifacts is now included with the national historic collection of the United States Air Force Heri-
tage Program administered by the National Museum of the United States Air Force (NMUSAF). All major collections are
reported to be in overall good condition with steady improvements being made in both accountability and storage/display
environments.

STEWARDSHIP LAND
 Stewardship Land is land and land rights owned by the Federal Government but not acquired for, or in connection with,
items of General PP&E. “Acquired for or in connection with” is defined as including land acquired with the intent to con-
struct General PP&E and land acquired in combination with General PP&E.




                                                                                                                             91
                  General Fund
                  Required Supplementary Information




                                                      STEWARDSHIP LAND
                                            For Fiscal Year Ended September 30, 2007
                                                      (in thousands of acres)
                 (a)                   (b)                     (c)                    (d)                      (e)
              Land Use               FY 2006                Additions              Deletions                 FY 2007
     1. Mission                       7,705                    0                       4                      7,701
     2. Parks & Historic Sites          0                      0                       0                        0
     Totals                           7,705                    0                       4                      7,701

 The Air Force has approximately 7,704,000 acres of mission-essential Stewardship Land under their administration. The
 beginning balance was (FY 2006 Ending Balance) adjusted by 18,000 acres. During this period of time, various transactions
 have occurred that decreased the number of acres by approximately 649 acres. Lands purchased by the Air Force with the
 intent to construct buildings or facilities are considered general plant, property, and equipment (PP&E) and are reported on
 the balance sheet. All stewardship lands, as reported, are in acceptable condition, based on designated use.




92
                                                                                                                 General Fund
                                                                                       Required Supplementary Information




Required Supplementary Information - Part A                   Fund Balance
AT57 - Air Force General Fund                    Treasury
                                                                  with         Accounts           Loans
Schedule, Part A DoD Intragovernmental             Index                                                     Investments       Other
                                                                Treasury       Receivable       Receivable
Asset Balances.
(amounts in thousands)

Executive Office of the President                   11                         $     2,840
Department of Agriculture                           12                                 864
Department of Commerce                              13                                  63                                 $     15,727
Department of the Interior                          14                                      3                                    96,119
Department of Justice                               15                               1,543                                        4,349
Department of Labor                                 16
Navy General Fund                                   17                              42,101
United States Postal Service                        18                                 138
Department of State                                 19                              17,006
Department of the Treasury                          20        $   80,126,396           846                   $      823
Army General Fund                                   21                              14,697                                             183
Office of Personnel Management                      24                                  15                                       59,980
Federal Communications Commission                   27
Social Security Administration                      28
Library of Congress                                 3                                       8
Nuclear Regulatory Commission                       31
Department of Veterans Affairs                      36                                 269                                               8
Government Printing Office                          4                                       2
General Service Administration                      47                                 283                                        2,660
National Science Foundation                         49                               3,026                                       16,709
General Accounting Office                           5                                       4
Central Intelligence Agency                         56                                 344
Tennessee Valley Authority                          64
Environmental Protection Agency                     68                                  38                                        8,045
Department of Transportation                        69                                                                            1,621
Homeland Security                                   70                              19,879                                       15,562
Agency for International Development                72                                 182
Small Business Administration                       73                                 155                                             156
Department of Health and Human Services             75                                      5                                          394
National Aeronautics and Space Administration       80                               6,110                                       55,206
Department of Energy                                89                               7,376                                        7,801
Department of Education                             91
US Army Corps of Engineers                          96                                  63
Other Defense Organizations General Funds           97                              59,131                                        7,506
Other Defense Organizations Working Capital      97-4930                           168,208                                       11,597
Funds
Army Working Capital Fund                       97-4930.001                             31
Navy Working Capital Fund                       97-4930.002                            944                                               7
Air Force Working Capital Fund                  97-4930.003                         42,647                                      120,321
Totals                                                        $   80,126,396   $   388,821                   $      823    $    423,951




                                                                                                                                             93
                                                                                                  General Fund
            General Fund                                                     Required Supplementary information
            Required Supplementary Information




Required Supplementary Information - Part B                                          Debts/Borrowings
AT57 - Air Force General Fund                        Treasury
                                                                                       From Other
Schedule, Part B DoD Intragovernmental                 Index      Accounts Payable                          Other
                                                                                         Agencies
entity liabilities.
(amounts in thousands)

Department of Agriculture                               12        $          1,539
Department of Commerce                                  13
Department of the Interior                              14                   4,005
Department of Justice                                   15                   6,807                      $            3,045
Department of Labor                                     16                                                      325,949
Navy General Fund                                       17                   5,280                              234,131
United States Postal Service                            18                  12,838
Department of State                                     19                  11,941
Department of the Treasury                              20                    446                                     230
Army General Fund                                       21                  36,350                              111,494
Office of Personnel Management                          24                   2,220                                  53,138
Federal Communications Commission                       27                     36
Social Security Administration                          28                      2
Nuclear Regulatory Commission                           31                     52
Department of Veterans Affairs                          36                   6,188
General Service Administration                          47                 148,419
National Science Foundation                             49                   3,478
Tennessee Valley Authority                              64                   1,942
Environmental Protection Agency                         68                    151
Department of Transportation                            69                  43,951
Homeland Security                                       70                  32,692
Agency for International Development                    72                   1,642
Small Business Administration                           73                    155
Department of Health and Human Services                 75                    573
National Aeronautics and Space Administration           80                   7,356                                     25
Department of Energy                                    89                  39,798                                   1,202
Department of Education                                 91                       0
US Army Corps of Engineers                              96                    918
Other Defense Organizations General Funds               97                  43,599                              531,281
Other Defense Organizations Working Capital Funds    97-4930               813,102                                   1,001
Army Working Capital Fund                           97-4930.001              5,610
Navy Working Capital Fund                           97-4930.002             26,312
Air Force Working Capital Fund                      97-4930.003            252,228                                    418
The General Fund of the Treasury                        99                                                      771,412
Totals                                                            $      1,509,630                      $     2,033,326




94
                                                                                  General Fund
                                                                  Required Supplementary Information




Required Supplementary Information - Part C
AT97 - Air Force General Fund                        Treasury
Schedule, Part C DoD Intragovernmental revenue         Index                    Earned Revenue
and related costs.
(amounts in thousands)

Executive Office of the President                       11                            $            10,772
Department of Agriculture                               12                                          4,657
Department of Commerce                                  13                                            753
Department of the Interior                              14                                          3,299
Department of Justice                                   15                                         22,046
Navy General Fund                                       17                                        237,660
United States Postal Service                            18                                            480
Department of State                                     19                                         28,955
Department of the Treasury                              20                                          9,906
Army General Fund                                       21                                        300,266
Office of Personnel Management                          24
Library of Congress                                     3                                              48
Nuclear Regulatory Commission                           31                                             23
Department of Veterans Affairs                          36                                          1,011
Government Printing Office                              4                                               4
General Service Administration                          47                                          1,012
National Science Foundation                             49                                         62,393
General Accounting Office                               5                                              32
Central Intelligence Agency                             56                                          1,958
Environmental Protection Agency                         68                                            434
Homeland Security                                       70                                        125,619
Agency for International Development                    72                                          1,088
Department of Health and Human Services                 75                                             67
National Aeronautics and Space Administration           80                                         63,672
Department of Energy                                    89                                         38,437
US Army Corps of Engineers                              96                                          1,342
Other Defense Organizations General Funds               97                                       1,693,280
Other Defense Organizations Working Capital Funds    97-4930                                     1,414,729
Army Working Capital Fund                           97-4930.001                                     1,820
Navy Working Capital Fund                           97-4930.002                                    17,121
Air Force Working Capital Fund                      97-4930.003                                   327,203
DoD Medicare-Eligible Retiree Health Care Fund                                                    181,809
Totals                                                                                $          4,551,896




                                                                                                       95
           General Fund
           Required Supplementary Information




Required Supplementary Information - Part E
AT57 - Air Force General Fund                        Treasury
Schedule, Part E DoD Intragovernmental                 Index      Accounts Payable         Other
non-exchange revenues.
(amounts in thousands)
Navy General Fund                                       17                             $           12,648
Army General Fund                                       21                                         29,764
Other Defense Organizations General Funds               97        $          237,609
Other Defense Organizations Working Capital Funds    97-4930                  68,384
Air Force Working Capital Fund                      97-4930.003              282,000                2,192
Totals                                                            $          587,993   $           44,604




96
                   TITLE
                   Sub Title




General Fund
Fiscal Year 2007
Audit Opinion




                       General Fund—Audit Opinion




                                 97
     General Fund
     Audit Opinion




98
General Fund
   Audit Opinion




                   99
      General Fund
      Audit Opinion




100
General Fund
   Audit Opinion




               101
      General Fund
      Audit Opinion




102
General Fund
   Audit Opinion




               103
      General Fund
      Audit Opinion




104
Working Capital Fund
Principal Statements
Fiscal Year 2007
The FY 2007 Department of the Air Force Working Capital Fund Principal Statements and
related notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
financial information for individual activity groups and activities within the Working Capital
Fund for the fiscal year ending September 30, 2007, and are presented on a comparative basis
with information previously reported for the fiscal year ending September 30, 2006.

The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:

• Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2007 and 2006 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position).

• Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2007 and 2006. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from Air
Force activities.




                                                                                                  Working Capital Fund—Principal Statements
• Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,
2007 and 2006.

• Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources avail-
able to the Air Force during FY 2007 and 2006, the status of these resources at September
30, 2007 and 2006, and the outlay of budgetary resources for the years ended September 30,
2007 and 2006.

The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”




                                                                                                  105
             Working Capital Fund
             Principal Statements




Consolidated Balance Sheet - Working Capital Fund
As of September 30, 2007 and 2006 ($ in thousands)

                                                                                  2007                       2006
                                                                               Consolidated               Consolidated


1. ASSETS (Note 2)
  A. Intragovernmental:
      1. Fund Balance with Treasury (Note 3)
        a. Entity                                                          $            1,287,299     $           1,357,976
        b. Non-Entity Seized Iraqi Cash                                                          0                          0
        c. Non-Entity-Other                                                                      0                          0
      2. Investments (Note 4)                                                                    0                          0
      3. Accounts Receivable (Note 5)                                                    330,378                   420,073
      4. Other Assets (Note 6)                                                                1,248                      5,218
      5. Total Intragovernmental Assets                                    $            1,619,025     $           1,783,267
  B. Cash and Other Monetary Assets (Note 7)                               $                     0    $                     0
  C. Accounts Receivable, Net (Note 5)                                                   117,808                   232,314
  D. Loans Receivable (Note 8)                                                                   0                          0
  E. Inventory and Related Property, Net (Note 9)                                      34,517,432                34,530,876
  F. General Property, Plant and Equipment, Net (Note 10)                               1,091,070                 1,169,165
  G. Investments (Note 4)                                                                        0                          0
  H. Other Assets (Note 6)                                                               319,462                   541,143
2. TOTAL ASSETS                                                            $           37,664,797     $          38,256,765
3. LIABILITIES (Note 11)
  A. Intragovernmental
      1. Accounts Payable (Note 12)                                        $             117,965      $            171,623
      2. Debt (Note 13)                                                                          0                          0
      3. Other Liabilities (Note 15 & 16)                                                135,036                   174,216
      4. Total Intragovernmental Liabilities                               $             253,001      $            345,839
  B. Accounts Payable (Note 12)                                            $             946,756      $            494,347
  C. Military Retirement and Other Federal Employment Benefits (Note 17)                 228,900                   227,035
  D. Environmental and Disposal Liabilities (Note 14)                                            0                          0
  E. Loan Guarantee Liability (Note 8)                                                           0                          0
  F. 	Other Liabilities (Note 15 & Note 16)                                              714,711                  1,197,430
4. TOTAL LIABILITIES                                                       $            2,143,368     $           2,264,651
5. NET POSITION
  A. Unexpended Appropriations - Earmarked Funds (Note 23)                 $                     0    $                     0
  B. Unexpended Appropriations - Other Funds                                                  4,558                         0
  C. Cumulative Results of Operations - Earmarked Funds                                          0                          0
  D. Cumulative Results of Operations - Other Funds                                    35,516,871                35,992,114
6. TOTAL NET POSITION                                                      $           35,521,429     $          35,992,114
7. TOTAL LIABILITIES AND NET POSITION                                      $           37,664,797     $          38,256,765




106
                                                                            Working Capital Fund
                                                                                      Principal Statements




Consolidated Statement of Net Cost - Working Capital Fund
As of September 30, 2007 and 2006 ($ in thousands)

                                                                2007                           2006
                                                             Consolidated                   Consolidated


1. Program Costs (Note 18)
  A. Gross Costs                                         $           10,735,131   $                 8,671,960
  B. (Less: Earned Revenue)                                         -10,431,762                    -10,783,023
  C. Net Program Costs                                   $             303,369    $                 -2,111,063
2. Cost Not Assigned to Programs                                             0                               0
3. (Less: Earned Revenue Not Attributable to Programs)                       0                               0
4. Net Cost of Operations                                $             303,369    $                 -2,111,063




                                                                                                           107
            Working Capital Fund
            Principal Statements




Consolidated Statement of Changes in Net Position - Working Capital Fund
As of September 30, 2007 and 2006 ($ in thousands)



                                                                       2007                   2007                2007
                                                                  Earmarked Funds       All Other Funds       Eliminations

CUMULATIVE RESULTS OF OPERATIONS (Note 19)
1. Beginning Balances                                         $                 0   $        35,992,114   $                  0
2. Prior Period Adjustments                                                                                                  0
  A. Changes in accounting principles (+/-)                                     0                     0                      0
  B. Corrections of erros (+/-)                                                 0                     0                      0
3. Beginning balances, as adjusted                            $                 0   $        35,992,114   $                  0
4. Budgetary Financing Sources                                                                                               0
  A. Other adjustments (rescissions, etc.)                                      0                     0                      0
  B. Appropriations used                                                        0                39,324                      0
  C. Nonexchange revenue                                                        0                     0                      0
  D. Donations and forfeitures of cash and cash equivalents                     0                     0                      0
  E. Transfers-in/out without reimbursement                                     0              -382,000                      0
  F. Other budgetary financing sources                                          0                     0                      0
5. Other Financing Sources                                                                                                   0
  A. Donations and forfeitures of property                                      0                     0                      0
  B. Transfers-in/out without reimbursement (+/-)                               0                 2,192                      0
  C. Imputed financing from costs absorbed by others                            0              168,610                       0
  D. Other (+/-)                                                                0                     0                      0
6. Total financing Sources                                    $                 0   $          -171,874   $                  0
7. Net Cost of Operations (+/-)                                                 0              303,369                       0
8. Net Change                                                                   0              -475,243                      0
9. Cumulative Results of Operations                                             0            35,516,871                      0
UNEXPENDED APPROPRIATIONS
10. Beginning Balances                                        $                 0   $                 0   $                  0
11. Prior Period Adjustments                                                                                                 0
   A. Changes in accounting principles                                          0                     0                      0
   B. Corrections of errors                                                     0                     0                      0
12. Beginning balaces, as adjusted                            $                 0   $                 0   $                  0
13. Budgetary Financing Sources                                                                                              0
   A. Appropriations received                                                   0                44,054                      0
   B. Appropriations transferred-in/out                                         0                     0                      0
   C. Other adjustments (recissions, etc)                                       0                  -172                      0
   D. Appropriations used                                                       0               -39,324                      0
14. Total Budgetary Financing sources                                           0                 4,558                      0
15. Unexpended Appropriations                                                   0                 4,558                      0
16. Net Position                                              $                 0   $        35,521,429   $                  0



108
                                                                                         Working Capital Fund
                                                                                                      Principal Statements




       2007                         2006                       2006                    2006                    2006
    Consolidated               Earmarked Funds           All Other Funds           Eliminations             Consolidated




$          35,992,114      $                     0   $           33,774,838    $                  0     $          33,774,838


                      0                          0                         0                      0                          0
                      0                          0                         0                      0                          0
$          35,992,114      $                     0   $           33,774,838    $                  0     $          33,774,838


                      0                          0                         0                      0                          0
               39,324                            0                   48,389                       0                   48,389
                      0                          0                         0                      0                          0
                      0                          0                         0                      0                          0
             -382,000                            0                 -106,784                       0                  -106,784
                      0                                                    0                      0                          0


                      0                          0                         0                      0                          0
                   2,192                         0                         0                      0                          0
              168,610                            0                  164,609                       0                  164,609
                      0                          0                         0                      0                          0
$            -171,874      $                     0   $              106,214    $                  0     $            106,214
              303,369                            0                -2,111,062                      0                -2,111,062
             -475,243                            0                2,217,276                       0                 2,217,276
           35,516,871                            0               35,992,114                       0                35,992,114


$                     0    $                     0   $                     0   $                  0     $                    0


                      0                          0                         0                      0                          0
                      0                          0                         0                      0                          0
$                     0    $                     0   $                     0   $                  0     $                    0


               44,054                            0                   48,577                       0                   48,577
                      0                          0                         0                      0                          0
                    -172                         0                     -188                       0                        -188
              -39,324                            0                   -48,389                      0                   -48,389
                   4,558                         0                         0                      0                          0
                   4,558                         0                         0                      0                          0
$          35,521,429      $                     0   $           35,992,114    $                  0     $          35,992,114




                                                                                                                           109
                Working
                Working Capital
                        CapitalFund
                                Fund
                Principal
                PrincipalStatements
                          Statements




Combined Statement of Budgetary Resources - Working Capital Fund
As of September 30, 2007 and 2006 ($ in thousands)
                                                                                                    2007                     2006
                                                                                                  Combined                 Combined
BUDGETARY FINANCING ACCOUNTS (Note 20)
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                            $          925,137       $          292,678
2. Recoveries of prior year unpaid obligations                                                            23,358                   79,238
3. Budget authority
   A. Appropriation                                                                                        44,054                  48,577
   B. Borrowing authority                                                                                       0                       0
   C. Contract authority                                                                                9,804,575               9,857,832
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                                  14,106,630              15,953,188
         b. Change in receivables from Federal sources                                                   -373,583                 -43,158
      2. Change in unfilled customer orders
         a. Advance received                                                                              -40,165                  10,419
         b. Without advance from Federal sources                                                          230,560                -936,323
      3. Anticipated for rest of year, without advances                                                         0                       0
      4. Previously unavailable                                                                                 0                       0
      5. Expenditure transfers from trust funds                                                                 0                       0
   E. Subtotal                                                                                         23,772,071              24,890,535
4. Nonexpenditure transfers, net, anticipated and actual                                                 -382,000                -106,784
5. Temporarily not available pursuant to Public Law                                                             0                       0
6. Permanently not available                                                                           -9,162,481              -8,457,316
7. Total Budgetary Resources                                                                  $        15,176,085      $       16,698,351
STATUS OF BUDGETARY RSOURCES:
8. Obligations incurred:
   A. Direct                                                                                  $                 0      $                0
   B. Reimbursable                                                                                     14,102,303              15,773,214
   C. Subtotal                                                                                         14,102,303              15,773,214
9. Unobligated balance:
   A. Apportioned                                                                                       1,073,782                 925,137
   B. Exempt from apportionment                                                                                 0                       0
   C. Subtotal                                                                                          1,073,782                 925,137
10. Unobligated balance not available                                                                           0                       0
11. Total status of budgetary resources                                                       $        15,176,085      $       16,698,351

CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                                                   8,603,483                8,621,328
    B. Less: Uncollected customer payments from Federal sources, brought forward, October 1   $        -3,987,910      $        -4,967,392
   C. Total unpaid obligated balance                                                                    4,615,933               3,653,936
13. Obligations incurred net (+/-)                                                            $        14,102,303      $       15,773,214
14. Less: Gross outlays                                                                               -13,798,923              -15,711,459
15. Obligated balance transferred, net
   A. Actual transfers, unpaid obligations (+/-)                                                                  0                     0
   B. Actual transfers, uncollected customer payments from Federal sources (+/-)                                  0                     0
   C. Total Unpaid obligated balance transferred, net                                                             0                     0
16. Less: Recoveries of prior year unpaid obligations, actual                                                -23,358               -79,238
17. Change in uncollected customer payments from Federal sources (+/-)                                   143,023                  979,482
18. Obligated balance, net, end of period
   A. Unpaid obligations                                                                                8,883,865               8,603,843
   B. Less: Uncollected customer payments (+/-) from Federal sources (-)                               -3,844,887               -3,987,910
   C. Total, unpaid obligated balance, net, end of period                                               5,038,978               4,615,933

NET OUTLAYS
19. Net Outlays:
   A. Gross outlays                                                                                    13,798,923              15,711,459
    B. Less: Offsetting collections                                                                   -14,066,465              -15,963,606
    C. Less: Distributed Offsetting receipts                                                                    0                        0
20. Total Net Outlays                                                                         $          -267,542      $          -252,147




110
Working Capital Fund
Fiscal Year 2007
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation of
the financial statements that is not displayed on the face of the financial statements.




                                                                                               Working Capital Fund—Notes to the Principal Statements




                                                                                                    111
           Working Capital Fund
           Notes to the Principal Statements




Note 1. Significant Accounting Policies
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the United States
Air Force Working Capital Fund (AFWCF), as required by the “Chief Financial Officers Act of 1990,” expanded by the
“Government Management Reform Act of 1994,” and other appropriate legislation. The financial statements have been pre-
pared from the books and records of AFWCF in accordance with the “Department of Defense (DoD) Financial Management
Regulation (FMR),” the Office of Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements,”
and to the extent possible generally accepted accounting principles (GAAP). Effective 4th Quarter, Fiscal Year (FY) 2006,
DoD no longer publishes consolidating/combining financial statements. The accompanying financial statements account for
all resources for which AFWCF is responsible unless otherwise noted.

The AFWCF is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations of its financial
and nonfinancial management processes and systems that feed into the financial statements. The AFWCF derives its report-
ed values and information for major asset and liability categories largely from nonfinancial systems, such as inventory and
logistic systems. These systems were designed to support reporting requirements for maintaining accountability over assets
and reporting the status of federal appropriations rather than preparing financial statements in accordance with GAAP. The
AFWCF continues to implement process and system improvements addressing these limitations.

The AFWCF currently has eight auditor identified financial statement material weaknesses: (1) financial and nonfinan-
cial feeder systems do not contain an adequate audit trail for the proprietary and budgetary accounts, (2) AFWCF may
have material amounts of account adjustments that are not adequately supported, (3) AFWCF cannot accurately identify
all intragovernmental transactions by customer, which is required for eliminations when preparing consolidated financial
statements, (4) the value of the AFWCF government furnished and contractor acquired material and equipment may not be
accurately reported, (5) AFWCF General Property, Plant, and Equipment (PP&E) may not be accurately valued, (6) operat-
ing materials and supplies (OM&S) are not reflected at historical cost, (7) cost of goods sold and work in progress are not
recorded in accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property,” and (8) supply management systems do not provide sufficient audit trails to confirm and
value the in-transit inventory reported as part of inventory held for sale on the Consolidated Balance Sheet.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the “National Security Act of 1947.” The “National
Security Act Amendments of 1949” established the DoD and made the Air Force a department within DoD. The over-
all mission of the Air Force is to deliver sovereign options for the defense of the United States of America and its global
interest—to fly and fight in air, space, and cyberspace. Our priorities are: (1) win the Global War on Terror, (2) develop and
care for our airmen, and (3) modernize and recapitalize our aircraft and equipment.

The stock and industrial revolving fund accounts were created by the “National Security Act of 1947,” as amended in 1949
and codified in United States Code 10 Section 2208. The revolving funds were established as a means to more effectively
control the cost of work performed by DoD. The DoD began operating under the revolving fund concept July 1, 1951.

Since FY 2006, AFWCF operations consist of two major activity groups: Supply Management Activity Group (SMAG)
and Depot Maintenance Activity Group (DMAG). Prior to FY 2006, there was a third activity group called Information
Services Activity Group (ISAG). The ISAG was discontinued from AFWCF at the end of FY 2005. As of September 30,



112
                                                                                                    Working Capital Fund
                                                                                                  Notes to the Principal Statements




2007, the remaining ISAG unfilled customer orders and Balance Sheet accounts were liquidated resulting in official closure
of accounting records and financial statements.

The SMAG manages and finances the majority of Air Force supply requirements. Exceptions include an item financed with a procure-
ment appropriation or when financing by other means has been deemed to be more economical and efficient. A stock fund operates as a
revolving fund replenishing inventories with funds received from sales to customers. All AFWCF supply activities establish prices based
on full cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate adjustment in following year’s prices
to recoup the loss or return the gain to their customers.

There are four active business activities in SMAG: (1) Material Support Division (MSD), (2) General Support Division (GSD), (3)
Medical-Dental Division, and (4) Air Force Academy Division. The Fuels Division was discontinued in FY 2001, and their accounting
records were closed September 30, 2007.

A brief description is provided below for the four active SMAG business activities.

           yy   MSD manages over 130 thousand depot level repair and unique consumable items to support Air Force
                weapon systems.
           yy   GSD manages over 1.5 million consumable supply items, which support field and depot maintenance of
                aircraft, ground and airborne communication, and electronic systems.
           yy   Medical-Dental manages over 7 thousand different items, which are used to support medical and dental sup-
                ply and equipment requirements.
           yy   Air Force Academy manages the procurement of uniforms and uniform accessories for sale to cadets.

The DMAG repairs weapon systems and spare parts that ensure readiness in peacetime and provide sustainment to combat
forces in wartime. In peacetime, the Air Force enhances readiness by efficiently and economically repairing, overhauling,
and modifying aircraft, engines, missiles, depot level reparables, and software to meet customer demands. Depots have
unique skills and equipment required to support and overhaul both new, complex components as well as aging weapon
systems. An extremely important facet of the depots is that during wartime or contingencies, the Air Force can surge repair
operations and realign capacity to support the war fighters’ immediate needs. This is achieved by employing the unique
strengths of organic (in-house) and contracted (contract) repair resources. All AFWCF depot activities establish rates based
on full cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate adjustment in following
year’s rates to recoup the loss or return the gain to their customers.

1.C. Appropriations and Funds
The AFWCF receives its appropriations and funds as general and working capital (revolving). The AFWCF uses these ap-
propriations and funds to execute its missions and subsequently report on resource usage.

The AFWCF receives a special appropriation for the procurement of Medical-Dental War Readiness Material (WRM).

 Working Capital Funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of re-
sources from existing appropriations or funds. The corpus finances operations and transactions that flow through the fund.
The WCF resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimburs-
able receipts fund future operations and generally are available in their entirety for use without further congressional action.
At various times, Congress provides additional appropriations to supplement WCF as an infusion of cash when revenues are


                                                                                                                                        113
           Working Capital Fund
           Notes to the Principal Statements




inadequate to cover costs within the corpus.

Operations of the activities within AFWCF are financed by two working capital fund types, operating authority and contract
authority. Operating authority is used for the daily recurring business operating expenses incurred to produce the mainte-
nance service being demanded. Contract authority is used to procure supply and Capital Investment Program (CIP) require-
ments. The CIP requirements are classified into four categories: (1) equipment, (2) software, (3) hardware, and (4) minor
construction. Equipment, software, and hardware CIP requirements must be greater than $250 thousand and have a useful
life of more than two years. The minor construction threshold is $100 thousand. These items are currently depreciated over
the expected life of the asset with zero salvage value.

1.D. Basis of Accounting
For FY 2007, AFWCF’s financial management systems are unable to meet all of the requirements for full accrual account-
ing. Many of AFWCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to
the issuance of GAAP for federal agencies. These systems were not designed to collect and record financial information on
the full accrual accounting basis as required by GAAP. Most of AFWCF’s financial and nonfinancial legacy systems were
designed to record information on a budgetary basis.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder systems
and processes into compliance with GAAP. One such action is the current revision of its accounting systems to record
transactions based on the U.S. Standard General Ledger (USSGL). Until all of AFWCF’s financial and nonfinancial feeder
systems and processes are updated to collect and report financial information as required by GAAP, AFWCF’s financial data
will be derived from budgetary transactions (obligations, disbursements, and collections), transactions from nonfinancial
feeder systems, and accruals made for major items such as payroll expenses, accounts payable, and environmental liabili-
ties.

In addition, DoD identifies program costs based upon the major appropriation groups provided by the Congress. Cur-
rent processes and systems do not capture and report accumulated costs for major programs based upon the performance
measures as required by the “Government Performance and Results Act.” The DoD is working towards a cost reporting
methodology that meets the need for cost information required by SFFAS No. 4, “Managerial Cost Accounting Concepts
and Standards for the Federal Government.”

1.E. Revenues and Other Financing Sources
The SMAG recognizes revenue from the sale of inventory items and receipt of direct reimbursement for the purchase of
initial and readiness spares by customers. Revenue from the sale of inventory is recognized at the time of sale. Revenue
from the receipt of direct reimbursements is recognized upon receipt from the General Fund.

The DMAG (organic) recognizes revenue according to the percentage of completion method. The DMAG (contract) recog-
nizes revenue based on the number of units produced multiplied by the unit sales price which is recognized upon comple-
tion of the repair. Due to the anticipated closure of DMAG (contract) activity in FY 2008, it is not cost-effective to imple-
ment system modifications to support the percentage of completion method.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Howev-
er, because AFWCF’s financial and nonfinancial feeder systems were not designed to collect and record financial informa-


114
                                                                                           Working Capital Fund
                                                                                          Notes to the Principal Statements




tion on the full accrual accounting basis, accruals are made for major items such as payroll expenses, accounts payable, en-
vironmental liabilities, and unbilled revenue. In the case of OM&S, operating expenses are generally recognized when the
items are purchased. Efforts are underway to transition towards the consumption method for recognizing OM&S expenses.

1.G. Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD
or between two or more federal agencies. However, AFWCF cannot accurately eliminate intragovernmental transactions
by customer because AFWCF’s systems do not track at the transaction level. Generally, seller entities within DoD pro-
vide summary seller side balances for revenue, accounts receivable, and unearned revenue to the buyer side internal DoD
accounting offices. In most cases, the buyer side records are adjusted to agree with DoD seller side balances. IntraDoD
intragovernmental balances are then eliminated. The volume of intragovernmental transactions is so large that after the fact
reconciliation cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing long-term
system improvements to ensure accurate intragovernmental information, to include sufficient upfront edits and controls
eliminating the need for after the fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other fed-
eral agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S. Treasury’s “Federal Intragovernmental Transactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While AFWCF is unable to
fully reconcile intragovernmental transactions with all federal partners, AFWCF is able to reconcile balances pertaining to
Federal Employees’ Compensation Act transactions with the Department of Labor and benefit program transactions with the
Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public financing
whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such interest costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, AFWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations, generally at no profit or loss to the U.S. Govern-
ment. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices of the De-
fense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers (USACE), and
the Department of State’s financial service centers process the majority of AFWCF’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports that provide information to the U.S. Treasury on
check issues, electronic fund transfers, interagency transfers, and deposits.


                                                                                                                            115
           Working Capital Fund
           Notes to the Principal Statements




In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records this information to the applicable Fund
Balance with Treasury (FBWT) account. Differences between AFWCF’s recorded balance in the FBWT accounts and U.S.
Treasury’s FBWT accounts sometimes result and are subsequently reconciled.

The Air Force has hired an independent public accounting firm to audit the AFWCF Fund Balance with Treasury (FBWT)
reconciliation process as directed in Department of Defense (DoD) Instruction 7600.02, “Audit Policies.

1.J. Foreign Currency
Not Applicable

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and refunds receiv-
able from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The DoD does not recognize an allowance for estimated uncollect-
ible amounts from other federal agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business Rules published in the Treasury
Financial Manual at http://www.fms.treas.gov/tfm/voll/07-03.pdf.

1.L. Direct Loans and Loan Guarantees
Not Applicable

1.M. Inventories and Related Property
The AFWCF values 99% of its resale inventory using the moving average cost method. The AFWCF reports the remain-
ing 1% of resale inventories at historical cost using latest acquisition cost adjusted for holding gains and losses. The latest
acquisition cost method is used because legacy inventory systems were designed for materiel management rather than
accounting. Although these systems provide visibility and accountability over inventory items, they do not maintain his-
torical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally,
these systems cannot produce financial transactions using the USSGL, as required by the “Federal Financial Management
Improvement Act of 1996” (P.L. 104-208). By utilizing new systems development processes, AFWCF is continuing to
transition the remaining balance of the inventories to the moving average cost method. However, since the on-hand bal-
ances which were transitioned were not, for the most part, baselined to auditable historical cost, the reported values remain
noncompliant with SFFAS No. 3 and GAAP.

The AFWCF manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes all items (including ships, tanks, self-propelled weapons, aircraft,
etc., and related spares, repair parts, and support equipment, but excluding real property, installation, and utilities) neces-
sary to equip, operate, maintain, and support military activities without distinction as to its application for administrative or
combat purposes. Items commonly used in and available from the commercial sector are not managed in AFWCF mate-
riel management activities. Operational cycles are irregular and military risks associated with stock out positions have no
commercial parallel. The AFWCF holds materiel based on military need and support for contingencies. The DoD does not
attempt to account separately for “inventory held for sale” and “inventory held in reserve for future sale” based on SFFAS
No. 3 definitions, unless otherwise noted.


116
                                                                                         Working Capital Fund
                                                                                        Notes to the Principal Statements




Related property includes OM&S which is valued at standard purchase price. The AFWCF uses both the consumption
method and the purchase method of accounting for OM&S. Items that are centrally managed and stored are generally
recorded using the consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot
fully support the consumption method, AFWCF uses the purchase method. Under this method, materials and supplies are
expensed when purchased. During FY 2007, AFWCF expensed significant amounts using the purchase method because the
systems could not support the consumption method or management deemed that the item was in the hands of the end user.
This is a material weakness for DoD and long-term system corrections are in process. Once the proper systems are in place,
these items will be accounted for under the consumption method of accounting.

The AFWCF determined that the recurring high dollar value of OM&S in need of repair is material to the financial state-
ments and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as
OM&S rather than military equipment.

The AFWCF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal is greater than
the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially redistributed materiel, pre-
sented in previous years as “Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair”
categories according to its condition.

Past audits identified uncertainties about completeness and existence of reported values of inventory. Inventory available
and purchased for resale includes consumable items and reparable parts owned and managed by AFWCF. This inventory
is retained to support military or national contingencies. Inventory held for repair is damaged inventory that requires repair
to make suitable for sale. Often, it is more economical to repair these inventory items rather than to procure these items.
The AFWCF often relies on weapon systems and machinery that are no longer in production. As a result, AFWCF supports
a process that encourages the repair and rebuilding of certain items. This repair cycle is essential in maintaining a ready,
mobile, and armed military force. Work in process balances include costs related to the production or servicing of items,
including direct material, direct labor, applied overhead, and other direct costs. Work in process also includes the value of
finished products or completed services that are yet to be placed in service and transferred to an asset account. The work
in process designation may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts,
to include amounts withheld from payment to ensure performance and amounts paid to other government plants for ac-
crued costs of end items of materiel ordered, but not delivered. Work in process includes munitions in production and depot
maintenance work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services.

1.N. Investments
Not Applicable

1.O. General Property, Plant and Equipment
In FY 2006, DoD revised the real property capitalization threshold from $100 thousand to $20 thousand. The current $100
thousand capitalization threshold remains unchanged for the remaining General PP&E categories. The AFWCF has not
implemented this revised policy due to system and process limitations.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful
life of two or more years and the acquisition cost equals or exceeds the DoD capitalization threshold of $100 thousand. The
DoD also requires capitalization of improvement costs over the DoD capitalization threshold of $100 thousand for General
PP&E. The DoD depreciates all General PP&E, other than land, on a straight-line basis.



                                                                                                                         117
           Working Capital Fund
           Notes to the Principal Statements




Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15 thousand, $25 thousand, and $50 thou-
sand for FYs 1993, 1994, and 1995, respectively, and an estimated useful life of two or more years. General PP&E previ-
ously capitalized at amounts below $100 thousand was written off of the General Fund financial statements in FY 1998. No
adjustment was made for WCF assets that remain capitalized and reported on WCF financial statements.

When it is in the best interest of the government, AFWCF provides government property to contractors to complete contract
work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the government
based on contract terms. When the value of contractor procured General PP&E exceeds the DoD capitalization threshold,
Federal accounting standards require that it be reported on AFWCF’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment that will
provide appropriate General PP&E information for future financial statement reporting purposes. Accordingly, AFWCF
reports only government property in the possession of contractors that is maintained in AFWCF’s property systems. The
DoD has issued new property accountability and reporting requirements that require AFWCF to maintain, in their property
systems, information on all property furnished to contractors. This action and other DoD proposed actions are structured to
capture and report the information necessary for compliance with federal accounting standards.

1.P. Advances and Prepayments
The AFWCF’s policy is to record advances and prepayments in accordance with GAAP. As such, payments made in ad-
vance of the receipt of goods and services are reported as an asset on the Balance Sheet. The DoD’s policy is to expense
and/or properly classify assets when the related goods and services are received. The AFWCF complies with this policy.

1.Q. Leases
Not Applicable

1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AFWCF may
provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the Government. Con-
tract financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress payments based on cost, and interim
payments under certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation Sup-
plement authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress
payments for real property and ships are reported as Construction in Progress. It is DoD policy to record certain contract
financing payments as Other Assets.




118
                                                                                           Working Capital Fund
                                                                                          Notes to the Principal Statements




1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation or set of circum-
stances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The AFWCF recognizes contingent liabilities when past events or exchange transactions oc-
cur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collect-
ibility of receivables, pending or threatened litigation, and possible claims and assessments. The AFWCF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as
aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave
The AFWCF reports as a liability civilian earned leave, except sick leave, that has been accrued and not used as of the
Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects the
current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and that have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also
include donations and transfer in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not Applicable

1.W. Comparative Data
Not Applicable

1.X. Unexpended Obligations
The AFWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial state-
ments do not reflect this liability for payment for goods and services not yet delivered, unless title passes.

1.Y. Undistributed Disbursements and Collection
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported by
the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting reports.

                                                                                                                            119
             Working Capital Fund
             Notes to the Principal Statements




In-transit payments are those payments that have been made, but have not been recorded in the fund holder’s accounting
records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections are those
collections from other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Unsup-
ported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are recorded in
other liabilities.

1.Z. Significant Events
Beginning 4th Quarter, FY 2007, DoD began presenting the Statement of Financing (SOF) as a note in accordance with
OMB Circular A-136. The SOF will no longer be considered a basic statement and is now referred to as “Reconciliation of
Net Cost of Operations to Budget.”

Note 2. Nonentity Assets
 As of September 30                                                                       2007                             2006
 (amounts in thousands)


 1. Intragovernmental Assets
    A. Fund Balance with Treasury                                             $                            0   $                          0
    B. Accounts Receivable                                                                                 0                              0
    C. Total Intragovernmental Assets                                         $                            0   $                          0
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                                         $                            0   $                          0
    B. Accounts Receivable                                                                                 0                              0
    C. Other Assets                                                           $                            0   $                          0
    D. Total Nonfederal Assets                                                $                            0   $                          0
 3. Total Nonentity Assets                                                    $                            0   $                          0
 4. Total Entity Assets                                                       $                  37,664,797    $                  38,256,765
 5. Total Assets                                                              $                  37,664,797    $                  38,256,765


Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for use in the opera-
tions of the entity. The AFWCF is authorized to decide how to use resources in entity accounts. The AFWCF may be legally obligated
to use these resources to meet entity obligations. Nonentity assets are assets for which the entity maintains stewardship accountability
and responsibility to report, but are not available for the entity’s operations.

The AFWCF has no Nonentity Assets.




120
                                                                                             Working Capital Fund
                                                                                            Notes to the Principal Statements




Note 3. Fund Balance with Treasury
 As of September 30                                                           2007                              2006
 (amounts in thousands)


 1. Fund Balances
 	 A. Appropriated Funds                                       $                                0    $                           0
 	 B. Revolving Funds                                                                   1,287,399                        1,357,976
 	 C. Trust Funds                                                                               0                                0
 	 D. Special Funds                                                                             0                                0
 	 E. Other Fund Types                                                                          0                                0
 	 F. Total Fund Balances                                      $                        1,287,399    $                   1,357,976
 2. Fund Balances Per Treasury Versus Agency
 	 A. Fund Balance per Treasury                                $                        1,705,484    $                   1,380,931
 	 B. Fund Balance per AFWCF                                                            1,287,399                        1,357,976
 3. Reconciling Amount                                         $                          418,085    $                      22,955


The reconciling amount represents $418.1 million for the United States Transportation Command (USTC), which is reported by the U.S.
Treasury as part of the AFWCF. However, for the purposes of Audited Financial Statements (AFS), USTC is included with the Other
Defense Organizations reporting which is separate from the AFWCF. Therefore, USTC cash is not included on the AFWCF AFS.


Status of Fund Balance with Treasury
 As of September 30                                                             2007                             2006
 (amounts in thousands)


 1. Unobligated Balance
    A. Available                                                    $                    1,073,782   $                     925,139
    B. Unavailable                                                                               0                               0
 2. Obligated Balance not yet Disbursed                                                  8,883,865                       8,603,843
 3. Nonbudgetary FBWT                                                                            0                               0
 4. NonFBWT Budgetary Accounts                                                          -8,670,248                      -8,171,006
 5. Total                                                           $                    1,287,399   $                   1,357,976


Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstand-
ing obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations expiring
at fiscal year end that remain available only for obligation adjustments until the account is closed. There are no restrictions
on the Unobligated Balance.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received, ser-
vices that have not been performed, and goods and services that have been delivered/received but not yet paid.



                                                                                                                               121
            Working Capital Fund
            Notes to the Principal Statements




Nonbudgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary authority, such as un-
available receipt accounts or clearing accounts.

NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT such as contract
authority, borrowing authority and investment accounts, accounts receivable, as well as the unfilled orders without advance
from customers. This category reduces the Status of FBWT.

Disclosures Related to Suspense/Budget Clearing Accounts
The AFWCF has no Disclosures Related to Suspense/Budget Clearing Accounts.

Disclosures Related to Problem Disbursements
                                                                                                                  (Decrease)/Increase
 As of September 30                                           2005                2006               2007
                                                                                                                  from FY 2006 - 2007
 (amounts in thousands)


 1. Total Problem Disbursements, Absolute Value
 	 A. Unmatched Disbursements (UMDs)                    $            60,443   $          8,377   $      12,624    $              4,247
 	 B. Negative Unliquidated Obligations (NULO)                        2,405               717               971                    254
 	 C. In-Transit Disbursements                                   432,917            205,614            173,842                 -31,772
 2. Total                                               $        495,765      $     214,708      $     187,437    $            -27,271

Problem Disbursements are reported as an absolute value amount. Absolute value is the sum of the positive values of debit and credit
transactions without regard to the plus or minus signs.

An Unmatched Disbursement occurs when a payment is not matched to a corresponding obligation in the accounting system.

A Negative Unliquidated Obligation occurs when a payment is made against a valid obligation, but the payment is greater than the
amount of the obligation recorded in the official accounting system. These payments have been made using available funds and are
based on valid receiving reports for goods and services delivered under valid contracts.

The In-Transit Disbursements represent the absolute value of disbursements and collections made by a DoD disbursing activity on behalf
of an accountable activity and have not been posted to the accounting system.

Beginning with 2nd Quarter, FY 2007, In-Transit Disbursements are reported as an absolute value as opposed to net amounts disclosed in
prior years. This reporting change applies to amounts in the note schedule for both the current and comparative years.

Note 4. Investments and Related Interest
The AFWCF has no Investments and Related Interest.




122
                                                                                                              Working Capital Fund
                                                                                                          Notes to the Principal Statements




Note 5. Accounts Receivable
                                                                                         2007                                                    2006

 As of September 30                                                                  Allowance For
                                                                                                                  Accounts                   Accounts
                                                           Gross Amount Due            Estimated
                                                                                                                  Receivable               Receivable, Net
                                                                                     Uncollectibles
 (amounts in thousands)


 1. Intragovernmental Receivables                          $          330,378                     N/A         $         330,378        $             420,073
 2. Nonfederal Receivables (From the Public)                          117,808    $                    0                 117,808                      232,314
 3. Total Accounts Receivable                              $          448,186    $                    0       $         448,186        $             652,387

The AFWCF policy is all NonFederal Receivables (From the Public) will be collected resulting in the Allowance for Estimated Uncol-
lectibles being reported as a $0.0 balance.

Aged Accounts Receivable
                                                                                2007                                              2006
 As of September 30
                                                               Intragovernmental         Nonfederal           Intragovernmental                 Nonfederal
 (amounts in thousands)


 Nondelinquent
   Current                                                     $         495,044     $          113,230           $       727,179           $        220,312
   Noncurrent                                                                    0                        0                       0                          0
 Delinquent
   1 to 30 days                                                $            190      $                293         $             624                      436
   31 to 60 days                                                            274                        15                      2,353                     264
   61 to 90 days                                                                14                     88                      2,323                     936
   91 to 180 days                                                           140                       105                       -521                     718
   181 days to 1 year                                                       508                   1,035                         129                     3,656
 	 Greater than 1 year and less than or equal to 2 years                        57                2,248                        1,023                    5,274
 	 Greater than 2 years and less than or equal to 6 years                        0                    760                        13                      651
 	 Greater than 6 years and less than or equal to 10                             0                        0                       0                      125
   years
 	 Greater than 10 years                                                         0                    135                         0                          3
 Subtotal                                                      $         496,227     $          117,909           $       733,123           $        232,375
    Less Supported Undistributed                                                 0                    -36                      -467                          0
    Less Eliminations                                                   -165,914                          0              -312,643                            0
    Less Other                                                                  65                    -65                        60                       -61
 Total                                                         $         330,378     $          117,808           $       420,073           $        232,314

Delinquent Nonfederal receivables over 60 days old are referred to the Debt Management Office (DMO) at Columbus and those exceed-
ing 180 days are referred to the U.S. Treasury or the Department of Justice (DOJ) by Columbus for collection action, as appropriate. Col-
lection actions involving amounts of $600 or more will appropriately be transferred to DMO after a 60 day delinquency. Debt returned
uncollectible from U.S. Treasury of $500 thousand or more is referred to DOJ. Debt returned less than $100 thousand, may be written

                                                                                                                                                         123
             Working Capital Fund
             Notes to the Principal Statements




off by DMO after coordination with AFWCF management. The Defense Finance and Accounting Service Denver and AFWCF manage-
ment follow up on a monthly basis to confirm the status of the delinquent account receivables referred to the above agencies.

Delinquent Intragovernmental receivables not paid within 30 days are disputed in accordance with the procedures outlined in the Intra-
governmental Business Rules published in the Treasury Financial Management guidance.

In the 4th Quarter, FY 2006, 91 to 180 days Intragovernmental category, $521.0 thousand is an abnormal balance due to a posting error.
The posting error was corrected 1st Quarter, FY 2007.

The Other line for 4th Quarter, FY 2007 represents the correction of posting errors resulting in a reclassification of Nonfederal to Intra-
governmental receivables.

The Other line for 4th Quarter, FY 2006 represents the correction of posting errors resulting in a reclassification of Nonfederal to Intra-
governmental receivables

Note 6. Other Assets
 As of September 30                                                              2007                                    2006
 (amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                  $                               1,248   $                              5,218
    B. Other Assets                                                                                  0                                        0
    C. Total Intragovernmental Other Assets                      $                               1,248   $                              5,218
 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                   $                             153,834   $                           177,481
    B. Other Assets (With the Public)                                                          165,628                               363,662
    C. Total Nonfederal Other Assets                             $                             319,462   $                           541,143
 3. Total Other Assets                                           $                             320,710   $                           546,361


Contract terms and conditions for certain types of contract financing payments convey certain rights to the AFWCF that protect the con-
tract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy;
however, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the Government.
The Government does not have the right to take the work, except as provided in contract clauses related to termination or acceptance,
and the AFWCF is not obligated to make payment to the contractor until delivery and acceptance.

The Outstanding Contract Financing Payments balance of $153.8 million is comprised of $131.3 million in contract financing payments
and an additional $22.5 million in estimated future funded payments that will be paid to the contractor upon future delivery and Govern-
ment acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).




124
                                                                           Working Capital Fund
                                                                          Notes to the Principal Statements




Information Related Nonfederal Other Assets – Other Assets (With the Public)	
 Types of Asset (amounts in millions)                                                              2007
 Advances -
   SMAG - Advances and Prepayments For In-transit Inventory Items                                     $    13.1
 Total Advances                                                                                            13.1
 Other Assets -
   SMAG - Other assets returns to vendors pending credit                                                  151.2
   DMAG - Unallocated labor and materials                                                                   1.3
 Total Other Assets                                                                                       152.5
 Total Non-Federal Other Assets                                                                       $ 165.6


Note 7. Cash and Other Monetary Assets
The AFWCF has no Cash or Other Monetary Assets.

Note 8. Direct Loan and/or Loan Guarantee Programs
The AFWCF has no Direct Loan and/or Loan Guarantee Programs.

Note 9. Inventory and Related Property
 As of September 30                                                     2007                   2006
 (amounts in thousands)


 1. Inventory, Net                                                  $      34,273,552    $         34,170,548
 2. Operating Materiels & Supplies, Net                                        243,880                360,328
 3. Stockpile Materiels, Net                                                        0                         0
 4. Total                                                           $      34,517,432    $         34,530,876




                                                                                                           125
              Working Capital Fund
              Notes to the Principal Statements




Inventory, Net
                                                                           2007                                            2006
 As of September 30                                Inventory,           Revaluation                                                          Valuation
                                                                                              Inventory, Net           Inventory, Net
                                                  Gross Value           Allowance                                                            Method
 (amounts in thousands)


 1. Inventory, Categories
   A. Available and Purchased for Resale      $      23,852,074     $             9,104   $        23,861,178      $       23,963,306        LAC/MAC
   B. Held for Repair                                14,398,613             -4,198,978             10,199,635               9,908,297        LAC/MAC
   C. Excess, Obsolete, and Unserviceable               776,025              -776,025                          0                        0      NRV
   D. Raw Materials                                             0                     0                        0                        0   MAC,SP,LAC
   E. Work in Process                                   212,739                       0               212,739                 298,945           AC
   F. Total                                   $      39,239,451     $       -4,965,899    $        34,273,552      $       34,170,548


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                  NRV = Net Realizable Value
 SP = Standard Price                                                                            O = Other
 AC = Actual Cost                                                                               MAC = Moving Average Cost

General Composition of Inventory
Inventory includes weapon system consumable and reparable parts, base supply items, and Medical-Dental supplies. Inventory is tan-
gible personal property that is held for sale or held for repair for eventual sale, in the process of production for sale, or to be consumed in
the production of goods for sale or in the provision of services for a fee.

Restrictions
There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel.

Definitions
Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory items are more
economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and machinery no longer in produc-
tion, AFWCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a
ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of scrap materiels or items that cannot be economically repaired and are await-
ing disposal.




126
                                                                                                      Working Capital Fund
                                                                                                    Notes to the Principal Statements




Work in Process balances include costs related to the production or servicing of items, including direct material, direct labor, applied
overhead, and other direct costs. Work in Process also includes the value of finished products or completed services pending the submis-
sion of bills to the customer. The work in process designation may also be used to accumulate the amount paid to a contractor under
cost-reimbursable contracts, including the amount withheld from payment to ensure performance and the amount paid to other govern-
ment plants for accrued costs of end items of materiel ordered but not delivered.

Operating Materiels and Supplies, Net
                                                                                 2007                                 2006

 As of September 30                                          OM&S            Revaluation                                            Valuation
                                                                                                OM&S, Net           OM&S, Net
                                                           Gross Value       Allowance                                               Method

 (amounts in thousands)


 1. OM&S Categories
    A. Held for Use                                    $          243,880    $          0   $       243,880     $       360,328     LAC/MAC
    B. Held for Repair                                                   0              0                   0                   0   LAC/MAC
    C. Excess, Obsolete, and Unserviceable                               0              0                   0                   0     NRV
    D. Total                                           $          243,880    $          0   $       243,880     $      360,328


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                   NRV = Net Realizable Value
 SP = Standard Price                                                                             O = Other
 AC = Actual Cost                                                                                MAC = Moving Average Cost

General Composition of Operating Materiels and Supplies
Operating Materiel and Supplies (OM&S) includes consumable supplies used to remanufacture spare parts and weapons
systems.

Restrictions
There are no restrictions on the use, sale, or disposition of OM&S.

Definition
Held for Use is consumable supplies owned and managed by AFWCF.

Stockpile Materiels, Net
The AFWCF has no Stockpile Materiels.




                                                                                                                                            127
                Working Capital Fund
                Notes to the Principal Statements




Note 10. General PP&E, Net
                                                                                 2007                                                      2006

 As of September 30                    Depreciation/                                         (Accumulated
                                                       Service         Acquisition                                                      Prior FY Net
                                       Amortization                                          Depreciation/         Net Book Value
                                                        Life             Value                                                          Book Value
                                         Method                                              Amortization)
 (amounts in thousands)


 1. Major Asset Classes
 	   A.	 Land                              N/A           N/A       $                 0                       N/A   $           0    $                  0
 	   B.	 Buildings, Structures, and        S/L         20 Or 40             908,071      $            -653,403           254,668             318,730
     	 Facilities
 	   C.	 Leasehold Improvements            S/L          lease                        0                        0                0                       0
                                                         term
 	   D.	 Software                          S/L         2-5 Or 10          1,068,779                   -780,156           288,623             305,282
 	   E.	 General Equipment                 S/L          5 or 10           2,032,123                 -1,535,569           496,554             502,354
 	   F.	 Military Equipment                S/L         Various                       0                        0                0                       0
 	 G.	 Assets Under Capital                S/L          lease                        0                        0                0                       0
 		 Lease                                                term
 	   H.	 Construction-in- Progress         N/A           N/A                 51,225                          N/A           51,225             42,799
 	   I. 	Other	                                                                      0                        0                0                       0
 	   J. 	Total General PP&E                                        $      4,060,198      $          -2,969,128     $    1,091,070   $       1,169,165


 Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight     N/A = Not Applicable


Real property reported by the Automated Civil Engineering System (ACES) and equipment reported by the Air Force Equipment
Management System and Information Processing Management System have not been validated and reconciled. Past audit results have
identified uncertainties as to whether all General PP&E assets in the possession or control (existence) of the AFWCF are properly and
accurately recorded in the system (completeness). The Air Logistic Centers (ALC) and Aerospace Maintenance and Regeneration Group
(AMARG) use ACES to capture the costs of real property based on preponderance of use for each building. The ALC and AMARG use
the straight line method for recording depreciation maintained on spreadsheets in place of the ACES schedule. The accounting entries
are recorded directly into the field level trial balances.

The value of AFWCF General PP&E in the possession of contractors is included in the value reported above for the Major Asset Classes
of Land and Buildings, Structures, and Facilities. The value of General PP&E (Major Asset Classes of Software and General Equip-
ment) may not include all of the General PP&E in the possession of contractors that is above the Department of Defense (DoD) capital-
ization threshold.

The AFWCF has no General PP&E located Outside of the Continental/Contiguous United States.

Assets Under Capital Lease
The AFWCF has no Assets Under Capital Lease.



128
                                                                                                  Working Capital Fund
                                                                                                Notes to the Principal Statements




Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                                2007                     2006
 (amounts in thousands)


 1. Intragovernmental Liabilities
    A. Accounts Payable                                                                  $                       0    $                 0
    B. Debt                                                                                                      0                      0
    C. Other                                                                                                     0                      0
    D. Total Intragovernmental Liabilities                                               $                       0    $                 0
 2. Nonfederal Liabilities
    A. Accounts Payable                                                                  $                       0    $                 0
    B. Military Retirement and Other Federal Employment Benefits                                           228,900                 227,035
    C. Environmental Liabilities                                                                                 0                      0
    D. Other Liabilities                                                                                    28,376                      0
    E. Total Nonfederal Liabilities                                                      $                 257,276    $            227,035
 3. Total Liabilities Not Covered by Budgetary Resources                                 $                 257,276    $            227,035
 4. Total Liabilities Covered by Budgetary Resources                                     $                1,886,092   $        2,037,616
 5. Total Liabilities                                                                    $                2,143,368   $        2,264,651

Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before budgetary resources can be
provided.

Military Retirement and Other Federal Employment Benefits represent the Actuarial Federal Employee Compensation future liabilities as
provided by the Department of Labor.

Military Retirement and Other Federal Employment Benefits not covered by budgetary resources are comprised of $228.9 million for
Federal Employee’s Compensation Act actuarial liabilities not due and payable during the current fiscal year. Refer to Note 17, Military
Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Nonfederal Other Liabilities includes $28.4 million in foreign government deposits. These deposits represent future purchases that
various foreign military customers plan to make from the Supply Management Activity Group. These advanced funds held for future
purchases are a liability and are returned if the countries do not make future purchases. Revenue is not recognized on these transactions
until the purchase takes place. The U.S. Treasury directed the policy change which was implemented on 2nd Quarter, FY 2007.




                                                                                                                                      129
             Working Capital Fund
             Notes to the Principal Statements




Note 12. Accounts Payable
                                                                                2007                                      2006
                                                                        Interest, Penalties,
 As of September 30
                                                Accounts Payable      and Administrative             Total                Total
                                                                               Fees
 (amounts in thousands)


 1. Intragovernmental Payables                 $           117,965                       N/A $               117,965 $         171,623
 2. Nonfederal Payables (to the Public)                    946,756                             0             946,756           494,347
 3. Total                                      $          1,064,721 $                          0 $       1,064,721 $           665,970


The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal DoD buyer-
side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and unearned revenue. Accounts
payable are adjusted by reclassifying amounts between federal and nonfederal accounts payable.

Note 13. Debt
The AFWCF has no Debt.

Note 14. Environmental Liabilities and Disposal Liabilities
The AFWCF has no Environmental Liabilities and Disposal Liabilities.




130
                                                                                             Working Capital Fund
                                                                                            Notes to the Principal Statements




Note 15. Other Liabilities
                                                                                 2007                                      2006
As of September 30                                                             Noncurrent
                                                       Current Liability                             Total                 Total
                                                                                Liability
(amounts in thousands)


1. Intragovernmental
   A. Advances from Others                             $        124,243    $                 0   $      124,243   $           163,617
   B. Deposit Funds and Suspense Account Liabilities                   0                     0                0                       0
   C. Disbursing Officer Cash                                          0                     0                0                       0
   D. Judgment Fund Liabilities                                        0                     0                0                       0
   E. FECA Reimbursement to the Department of Labor                    0                     0                0                       0
   F. Other Liabilities                                           10,793                     0           10,793                10,599
   G. Total Intragovernmental Other Liabilities        $        135,793    $                 0   $      135,036   $           174,216
2. Nonfederal
   A. Accrued Funded Payroll and Benefits              $        141,206    $                 0   $      141,206   $           147,711
   B. Advances from Others                                        26,115                     0           26,115                    5,215
   C. Deferred Credits                                                 0                     0                0                       0
   D. Deposit Funds and Suspense Accounts                              0                     0                0                     806
   E. Temporary Early Retirement Authority                             0                     0                0                       0
   F. Nonenvironmental Disposal Liabilities                            0                     0                0                       0
     (1) Military Equipment (Nonnuclear)                               0                     0                0                       0
     (2) Excess/Obsolete Structures                                    0                     0                0                       0
     (3) Conventional Munitions Disposal                               0                     0                0                       0
   G. Accrued Unfunded Annual Leave                                    0                     0                0                       0
   H. Capital Lease Liability                                          0                     0                0                       0
   I.	 Other Liabilities                                        524,890                 22,500          547,390             1,043,698
   J.	 Total Nonfederal Other Liabilities              $        692,211 $               22,500   $      714,711   $         1,197,430
3. Total Other Liabilities                             $        827,247 $               22,500   $      849,747   $         1,371,646


Information Related to Intragovernmental Other Liabilities
As of September 30
                                                                                                             FY 2007
(amounts In thousands)
DMAG Health Benefits                                                                                                   $           4,774
DMAG Life Insurance                                                                                                                  92
DMAG Retirement                                                                                                                    4,824
SMAG Health Benefits                                                                                                                488

SMAG Life Insurance                                                                                                                  12
SMAG Retirement                                                                                                                     603
Total                                                                                                                  $       10,793




                                                                                                                                    131
             Working Capital Fund
             Notes to the Principal Statements




Information Related to Nonfederal Other Liabilities
 As of September
                                                                                                                  FY 2007
 (amounts In thousands)
 Contract DMAG WIP Material and Labor                                                                                    $      456,500
 DMAG Contract Withholds                                                                                                          5,635
 SMAG Future Purchase - Foreign Military Sales                                                                                   28,377
 SMAG Contract Withholds                                                                                                         34,378

 Contingent Liabilities Contract Financing Payments                                                                              22,500
 Total                                                                                                                   $       10,793

Contingent liabilities balance includes $22.5 million in estimated future contract financing payments that will be paid to the
contractor upon delivery and Government acceptance. In accordance with contract terms, specific rights to the contractor’s
work vests with the Government when a specific type of contract financing payments is made. This action protects tax-
payer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of ownership.
The AFWCF is under no obligation to pay the contractor for amounts greater than the amounts authorized in the contract
until delivery and Government acceptance. Because it is probable that the contractor will complete its efforts and deliver a
satisfactory product to the AFWCF and the amount of potential future payment is estimable; the AFWCF has recognized a
contingent liability for estimated future payments, which are conditional pending delivery and Government acceptance.

Note 16. Commitments and Contingencies
The AFWCF is not aware of any Commitments and Contingencies for legal liability except for the $22.5 million contact financing pay-
ments reported in Note 15.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments, or dispute
resolution, that may or may not result in a future outflow of expenditures. Currently, AFWCF does not have a systemic process by which
it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly present AFWCF’s contingent
liabilities.




132
                                                                                                     Working Capital Fund
                                                                                                 Notes to the Principal Statements




Note 17. Military Retirement and Other Federal Employment Benefits
                                                                                      2007                                      2006
    As of September 30                                       Present Value of    Assumed Interest         Unfunded         Present Value of
                                                                Benefits             Rate (%)              Liability          Benefits
    (amounts in thousands)


    1. Pension and Health Actuarial Benefits                $                0   $               0    $                0   $              0
      A. Military Retirement Pensions                                        0                   0                     0                  0
      B. Military Retirement Health Benefits                                 0                   0                     0                  0
      C. Military Medicare-Eligible Retiree Benefits                         0                   0                     0                  0
      D. Total Pension and Health Actuarial Benefits        $                0   $               0    $                0   $              0
    2. Other Actuarial Benefits                                              0                   0                     0                  0
      A. FECA                                               $         228,900    $               0    $         228,900    $        227,035
      B. Voluntary Separation Incentive Programs                             0                   0                     0                  0

      C. DoD Education Benefits Fund                                         0                   0                     0                  0
      D. Total Other Actuarial Benefits                     $         228,900    $               0    $         228,900    $        227,035
    3. Other Federal Employment Benefits                    $                0   $               0    $                0   $              0
    4. Total Military Retirement and Other Federal
       Employment Benefits                                  $         228,900    $               0    $         228,900    $        227,035


Federal Employees Compensation Act (FECA)
The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and is updated at the end of
each fiscal year. The liability includes the estimated liability for death, disability, medical, and miscellaneous costs for approved com-
pensation cases, plus a component for incurred but not reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate payments. The projected annual benefit payments
are discounted to present value using the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year Treasury
notes and bonds. Cost of living adjustments (COLAs) and consumer price index medical (CPIM) factors are applied to the calculation of
projected future benefits.

The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical, and miscel-
laneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined using
a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related
to that period. Consistent with past practice, these projected annual benefits payments have been discounted to present value using the
OMB’s economic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

	                                           2006
	                                   5.170% in Year 1
	                                   5.313% in Year 2
	                                    And thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (COLAs) and medical inflation factors (CPIMs) were applied to the calculation of projected future benefits.
The actual rates for these factors for the charge back year (CBY) 2006 are used to adjust the methodology’s historical pay-
ments to current year constant dollars.
                                                                                                                                        133
                 Working Capital Fund
                 Notes to the Principal Statements




The compensation COLAs and CPIMs used in the projections for various CBY were as follows:
	                    2006	       2007	     2008	            2009	              2010 +
COLA	                3.50%	      3.13%	    2.40%	            2.40% 	           2.43%
CPIM	                4.00%	      4.01%	    4.01%	            4.013%	           4.09%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the li-
ability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid loses per case (a measure of case-severity) in CBY 2006 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in the 2006 projection to the average pattern for
the projections of the most recent three years.

Note 18. General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
    As of September 30                                                        2007                                2006
    (amounts in thousands)


    1. Intragovernmental Costs                                 $                         3,956,343   $                       4,748,892
    2. Public Costs                                                                      6,778,788                           3,923,068
    3. Total costs                                             $                        10,735,131   $                       8,671,960
    4. Intragovernmental Earned Revenue                        $                        -9,697,266   $                     -10,105,650
    5. Public Earned Revenue                                                              -734,496                            -677,373
    6. Total Earned Revenue                                    $                      -10,431,762    $                     -10,783,023
    7. Net Cost of Operations                                  $                          303,369    $                      -2,111,063

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AFWCF’s systems do not track intergovernmental transactions by customer at the transaction level. Therefore, internal DoD
buyer-side balances are adjusted to agree with seller-side balances for revenue. Expenses are adjusted by reclassifying amounts between
federal and nonfederal expenses.

The Statement of Net Cost (SNC) is unique because its principles are driven on understanding the net cost of programs and/or organiza-
tions that the Federal Government supports through appropriations or other means. This statement provides gross and net cost infor-
mation that can be related to the amount of output or outcome for a given program and/or organization administered by a responsible
reporting entity.

The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input into the system
in time for reporting. Accrual estimates based upon budget information, historical data, and current data not yet input are made as
required by generally accepted accounting principles. These estimates are reversed in order to allow actual cost and revenue data to
populate the general ledger in subsequent months.




134
                                                                                                           Working Capital Fund
                                                                                                        Notes to the Principal Statements




Note 19. Disclosures Related to the Statement of Changes in Net Position
                                                                                   2007                                         2006
                                                                     Cumulative                                    Cumulative
As of September 30                                                                         Unexpended                                Unexpended
                                                                     Results of                                    Results of
                                                                                          Appropriations                            Appropriations
                                                                     Operations                                    Operations
(amounts in thousands)


1. Prior Period Adjustments Increases (Decreases) to Net
   Positions Beginning Balance
   A. Changes in Accounting Standards                            $                  0   $                  0   $                0   $             0
   B. Errors and Omissions in Prior Year Accounting Reports                         0                      0                    0                 0
   C. Total Prior Period Adjustments                             $                  0   $                  0   $                0   $             0
2. Imputed Financing
   A. Civilian CSRS/FERS Retirement                              $          50,951      $                  0   $         55,234     $             0
   B. Civilian Health                                                      117,383                         0            109,111                   0
   C. Civilian Life Insurance                                                     276                      0                264                   0
   D. Judgment Fund                                                                0                       0                    0                 0
   E. IntraEntity                                                                  0                       0                    0                 0
   F. Total Imputed Financing                                    $         168,610      $                  0   $        164,609     $             0

The Imputed Financing amounts remitted to the Office of Personnel Management (OPM) by and for employees covered by the Civil Ser-
vice Retirement System, Federal Employee Retirement System, Federal Employees Health Benefits program, and the Federal Employee
Group Life Insurance program do not fully cover the Government’s cost to provide these benefits. An imputed cost is recognized as the
difference between the Government’s cost of providing these benefits to the employees and contributions made by and for them. OPM
provides the cost factors to the Defense Finance and Accounting Service (DFAS) for computation of imputed financing cost. DFAS
provides the costs to the Office of the Under Secretary of Defense (Personnel and Readiness) for validation. Approved imputed costs are
provided to the reporting components for inclusion in their financial statements.

Note 20. Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                                                             2007                     2006
(amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period      $               7,196,353 $           7,151,764
2. Available Borrowing and Contract Authority at the End of the Period                              $                      0 $            4,183,095

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as combined and
combining.

This note has been modified to accurately report the remaining available balance of borrowing and contract authority. Previously, the
AFWCF reported the amount of the contract/borrowing authority that had initially been used and not subsequently replaced by reim-
bursement or appropriation.

Office of Management and Budget Circular A-136 requires disclosure of the amount of direct and reimbursable obligations incurred
against amounts apportioned under categories A, B, and exempt from apportionment. This disclosure should agree with the aggregate of
the related information as included in each reporting entity’s SF 133 and in the SBR, lines 8A and 8B. There are no Category A direct
obligations. Category B reimbursable obligations total $14.1 billion. There are no category B direct or exempt obligations.

                                                                                                                                               135
             Working Capital Fund
             Notes to the Principal Statements




 Note 21. Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                                                             2007            2006
 (amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                                                                    $    14,102,303 $    15,773,214
 2. Less: Spending authority from offsetting collections and recoveries (-)                                     -13,946,800     -15,063,364
 3. Obligations net of offsetting collections and recoveries                                                $       155,503 $       709,850
 4. Less: Offsetting receipts (-)                                                                                         0               0
 5. Net obligations                                                                                         $       155,503 $       709,850
 Other Resources:
 6. Donations and forfeitures of property                                                                                0               0
 7. Transfers in/out without reimbursement (+/-)                                                                     2,192               0
 8. Imputed financing from costs absorbed by others                                                                168,610         164,609
 9. Other (+/-)                                                                                                          0               0
 10. Net other resources used to finance activities                                                         $      170,802 $       164,609
 11. Total resources used to finance activities                                                                    326,305         874,459
 Resources Used to Finance Items not Part of the Net Cost of Operations:
 12. Change in budgetary resources obligated for goods, services and benefits ordered but not yet
     provided:
     A. Undelivered Orders (-)                                                                              $       -44,589 $      -214,214
     B. Unfilled Customer Orders                                                                                    190,395        -925,904
 13. Resources that fund expenses recognized in prior Periods (-)                                                         0          -7,923
 14. Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                              0               0
 15. Resources that finance the acquisition of assets (-)                                                        -5,376,572      -4,988,458
 16. Other resources or adjustments to net obligated resources that do not affect Net Cost of Options:
     A. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s Budget (-)                               0               0
     B. Other (+/-)                                                                                                  -2,192               0
 17. Total resources used to finance items not part of the Net Cost of Operations                           $    -5,232,958 $    -6,136,499
 18. Total resources used to finance the Net Cost of Operations                                             $    -4,906,653 $    -5,262,040
 Components of the Net Cost of Operations that will not Require or Generate Resources in the
 Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                                     $            0 $             0
 20. Increase in environmental and disposal liability                                                                    0               0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                                         0               0
 22. Increase in exchange revenue receivable fromthe public (-)                                                          0               6
 23. Other (+/-)                                                                                                    30,241           1,244
 24. Total components of Net Cost of Operations that will Require or Generate Resources in future periods   $       30,241 $         1,250
 Components not Requiring or Generating Resources:                                                          $    $ 142,937 $      $166,193
 25. Depreciation and amortization
 26. Revaluation of assets or liabilities (+/-)                                                                  1,893,247         849,401
 27. Other (+/-)
     A. Trust Fund Exchange Revenue                                                                                      0                0
     B. Cost of Goods Sold                                                                                       5,331,747        5,130,847
     C. Operating Material and Supplies Used                                                                             0                0
     D. Other                                                                                                   -2,188,150       -2,996,714
 28. Total Components of Net Cost of Operations that will not Require or Generate Resources                 $   $5,179,781 $      3,149,727
 29. Total components of Net Cost of Operations that will not Require or Generate Resources
     in the current period                                                                                  $   $5,210,022 $      3,150,977
 30. Net Cost of Operations                                                                                 $    $ 303,369 $     -2,111,063



136
                                                                                                   Working Capital Fund
                                                                                                  Notes to the Principal Statements




Due to the AFWCF’s financial system limitations, budgetary data is not in agreement with proprietary expenses and assets capitalized.
The difference between budgetary and proprietary data is a previously identified deficiency.

Resources that finance the acquisition of assets are adjusted in order to align the note schedule with the amount reported on the State-
ment of Net Cost. This adjustment is $233.0 million, absolute value.

The following schedule lines are presented as combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:

         yy Obligations Incurred
         yy Less: Spending Authority from Offsetting Collections and Recoveries
         yy Obligations Net of Offsetting Collections and Recoveries
         yy Less: Offsetting Receipts
         yy Net Obligations
         yy Undelivered Orders
         yy Unfilled Customer Orders

Resources Used to Finance Items Not Part of Net Cost of Operations, Other line is comprised of $2.2 million excess data
processing equipment transfer from Air Force General Fund to AFWCF Depot Maintenance Activity Group (DMAG).

Components Requiring or Generating Resources in Future Periods, Other line is comprised of $28.4 million for foreign
government deposits and $1.8 million in Federal Employees Compensation Act (FECA).

Components Not Requiring or Generating Resources, Other line is comprised of Supply Management Activity Group
materials to replace condemned and consumable parts required for depot production of $2.9 billion and DMAG completed
production projects returned to customers of ($5.1) billion.

Components of the Net Cost of Operation that will Require or Generate Resources in Future Periods is in balance with the
Total Liabilities Not Covered by Budgetary Resources.

Note 22. Disclosures Related to Incidental Custodial Collections
The AFWCF has no Disclosures Related to Incidental Custodial Collections.

Note 23. Earmarked Funds
The AFWCF has no Earmarked Funds.

Note 24. Other Disclosures
The AFWCF has no Other Disclosures.

Note 25. Restatements
The AFWCF has no Restatements of prior period adjustments for material errors.



                                                                                                                                       137
      Working Capital Fund
      NotesWorking       Capital
           to the Principal         Fund
                            Statements
          Principal Statements




138
                                   Working Capital Fund
                             Required Supplementary Information




Working Capital Fund
Fiscal Year 2007
Required Supplementary Information




                                                          Working Capital Fund —Required Supplementary Information




                                                             139
              Working Capital Fund
              Required Supplementary Information




 Statement of Disaggregated Budgetary Resources - Working Capital Fund
 As of September 30, 2007 and 2006 (amounts in thousands)
                                                                                           Working              2007               2006
                                                                                         Capital Fund         Combined           Combined

 BUDGETARY FINANCING ACCOUNTS
 BUDGETARY RESOURCES:
 1. Unobligated balance, brought forward, October 1                                  $         925,138    $       925,137    $       292,678
 2. Recoveries of prior year unpaid obligations                                                 23,359             23,358             79,238
 3. Budget authority
    A. Appropriation                                                                            44,054              44,054             48,577
    B. Borrowing authority                                                                           0                   0                  0
    C. Contract authority                                                                    9,804,576           9,804,575          9,857,832
    D. Spending authority from offsetting collections
       1. Earned
          a. Earned                                                                         14,106,629          14,106,630         15,953,188
          b. Change in receivables from Federal sources                                       -373,583            -373,583            -43,158
       2. Change in unfilled customer orders
          a. Advance received                                                                  -40,165             -40,165             10,419
          b. Without advance from Federal sources                                              230,560             230,560           -936,323
       3. Anticipated for rest of year, without advances                                             0                   0                  0
       4. Previously unavailable                                                                     0                   0                  0
       5. Expenditure transfers from trust funds                                                     0                   0                  0
    E. Subtotal                                                                      $      23,772,071    $     23,772,071   $     24,890,535
 4. Nonexpenditure transfers, net, anticipated and actual                                     -382,000            -382,000           -106,784
 5. Temporarily not available pursuant to Public Law                                                 0                   0                  0
 6. Permanently not available                                                               -9,162,482          -9,162,481         -8,457,316
 7. Total Budgetary Resources                                                               15,176,086          15,176,086         16,698,351
 STATUS OF BUDGETARY RESOURCES:
 8. Obligations incurred
    A. direct                                                                        $               0    $              0   $              0
    B. Reimbursable                                                                         14,102,303          14,102,303         15,773,214
    C. Subtotal                                                                             14,102,303          14,102,303         15,773,214
 9. Unobligated balance
    A. Apportioned                                                                           1,073,782           1,073,782            925,137
    B. Exempt from apportionment                                                                     0                   0                  0
    C. Subtotal                                                                              1,073,782           1,073,782            925,137
 10. Unobligated balance not available                                                               0                   0                  0
 11. Total status of budgetary resources                                             $      15,176,085    $     15,176,085   $     16,698,351
 CHANGE IN OBLIGATED BALANCE:
 12. Obligated balance, net
     A. Unpaid obligations, brought forward, October 1                               $        8,603,843   $      8,603,843   $      8,621,328
     B. Less: Uncollected customer payments from Federal sources,                            -3,987,910         -3,987,910         -4,967,392
        brought forward, October 1
     C. Total unpaid obligated balance                                                        4,615,933          4,615,933          3,653,936
 13. Obligations incurred net (+/-)                                                  $       14,102,303   $     14,102,303   $     15,773,214
 14. Less: Gross outlays                                                                    -13,798,923        -13,798,923        -15,711,459
 15. Obligated
     A. Actual transfers, unpaid obligations (+/-)                                                   0                  0                  0
     B. Actual transfers, uncollected customer payments from Federal sources (+/-)                   0                  0                  0
     C. Total Unpaid obligated balance transferred, net                                              0                  0                  0
 16. 	Less: Recoveries of prior year unpaid oblligations, actual                     $         -23,359    $       -23,359    $       -79,238
 17. 	Change in uncollected customer payments from Federal sources (+/-)                       143,023            143,023            979,482
 18. 	Obligated balance, net, end of period
    	A. Unpaid obligations                                                                    8,883,865          8,883,865          8,603,843
    	B. Less: Uncollected customer payments                                                  -3,884,887         -3,884,887         -3,987,910
    	C. Total, unpaid obligated balance, net, end of period                                   5,038,978          5,038,978          4,615,933
 NET OUTLAYS:
 19. Net Outlays
    	A. Gross outlays                                                                $      13,798,923    $     13,798,923   $     15,711,459
    	B. Less: Offsetting collections                                                       -14,066,464         -14,066,465        -15,963,606
    	C. Less: Distributed Offsetting receipts                                                        0                   0                  0
 20. Net Outlays                                                                     $        -267,541    $       -267,542   $       -252,147

140
                                                                                                             Working Capital Fund
                                                                                                   Required Supplementary Information




DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
The Air Force has performance measures based on missions and outputs. The Air Force, however, is unable to accumulate costs for
major programs based on those performance measures, because its financial processes and systems were not designed to collect and
report this type of cost information. Until the process and systems ae upgraded, the Department will break out programs by the major
appropriation groupings.

Required Supplementary Information - Part A
AT97 - Air Force Working Capital Fund                              Fund Balance
                                                     Treasury                              Accounts           Loans
Schedule, Part A DoD Intragovernmental                                 with                                              Investments       Other
                                                       Index                               Receivable       Receivable
Asset Balances.                                                      Treasury
(amounts in thousands)
 Department of Agriculture                             12                              $            63
 Department of Justice                                 15                                          206
 Navy General Fund                                     17                                        4,701
 Department of State                                   19                                           12
 Department of the Treasury                            20          $   1,287,399                        2
 Army General Fund                                     21                                          217
 General Service Administration                        47                                        2,279
 National Science Foundation                           49                                           96
 Air Force General Fund                                57                                      252,228                                 $           418
 Department of Transportation                          69                                         -519
 Homeland Security                                     70                                        1,781
 National Aeronautics and Space Administration         80                                          664
 Other Defense Organizations General Funds             97                                       39,289
 Other Defense Organizations Working Capital         97-4930                                    22,812                                             829
 Funds
 Army Working Capital Fund                       97-4930.001                                     1,657
 Navy Working Capital Fund                       97-4930.002                                     4,892
 Totals                                                            $   1,287,399       $       330,380                                 $       1,247


 Required Supplementary Information - Part A
 AT97 - Air Force Working Capital Fund                                                                      Debts/Borrowings
                                                                Treasury
 Schedule, Part A DoD Intragovernmental Asset                                 Accounts Payable                From Other               Other
                                                                  Index
 Balances.                                                                                                      Agencies
 (amounts in thousands)
 Navy General Fund                                                17               $               310
 Army General Fund                                                21                               670                            $                202
 Office of Personnel Management                                   24                                                                           10,793
 Air Force General Fund                                           57                            42,647                                      120,321
 Homeland Security                                                70                                                                            1,755
 Other Defense Organizations General Funds                        97                               455
 Other Defense Organizations Working Capital Funds              97-4930                         58,942                                          1,965
 Army Working Capital Fund                                  97-4930.001                         12,921
 Navy Working Capital Fund                                  97-4930.002                          2,021
 Totals                                                                            $           117,966                            $         135,036

                                                                                                                                                 141
           Working Capital Fund
           Required Supplementary Information




Required Supplementary Information - Part C
AT97 - Air Force Working Capital Fund
                                                           Treasury
Schedule, Part C DoD Intragovernmental revenue                                             Earned Revenue
                                                             Index
and related costs.
(amounts in thousands)
Department of Agriculture                                      12                  $                             787
Department of Justice                                          15                                              4,700
Navy General Fund                                              17                                             84,564
Department of State                                            19                                                 84
Army General Fund                                              21                                             26,435
General Service Administration                                 47                                                 55
National Science Foundation                                    49                                                $96
Air Force General Fund                                         57                                           7,932,537
Department of Transportation                                   69                                                 74
Homeland Security                                              70                                              9,145
National Aeronautics and Space Administration                  80                                              2,172
US Army Corps of Engineers                                     96                                                339
Other Defense Organizations General Funds                      97                                           1,319,276
Other Defense Organizations Working Capital Funds          97-4930                                           242,190
Army Working Capital Fund                               97-4930.001                                           20,289
Navy Working Capital Fund                               97-4930.002                                           48,888
Totals                                                                             $                        9,691,631



Required Supplementary Information - Part E
AT97 - Air Force Working Capital Fund
                                                    Treasury
Schedule, Part E DoD Intragovernmental                                Accounts Payable              Other
                                                      Index
non-exchange revenues.
(amounts in thousands)
Navy General Fund                                     17                                     $               100,000
Air Force General Fund                                57              $            2,192                     282,000
Other Defense Organizations General Funds             97                                                           0
Totals                                                                $            2,192     $               382,000




142
                   Working Capital Fund
                         Principal Statements




Working Capital Fund
Fiscal Year 2007
Audit Opinion




                                         Working Capital Fund —Audit Opinion




                                           143
                                           143
      Working Capital Fund
      Audit Opinion




144
Working Capital Fund
          Audit Opinion




                          145
      Working Capital Fund
      Audit Opinion




146
Working Capital Fund
          Audit Opinion




                      147
      Working Capital Fund
      Audit Opinion




148
Working Capital Fund
          Audit Opinion




                      149
                For More Information
Principal Deputy Assistant Secretary of the Air Force
            for Financial Management and
              Comptroller, Headquarters
           U.S. Air Force, Washington, D.C.
             Website: www.saffm.hq.af.mil/

                  Contact Us/
           Questions and Comments
 SAF/FMPS (Financial Accounting and Reporting)
            1130 Air Force Pentagon,
          Washington, DC 20330-1130
Website: www.saffm.hq.af.mil/financialstatement.asp
